                                                                                 .’



                                                       ,.,


‘.

               Department
                 -,
                          of Eklth
                                ,.                  and Human,’
                                                                          Services

                                                                             ‘“” ““”:
                                                                          ‘ ~~
     .,
                     ,,

                                  ~~   .OiFICEdi?



              :.. , ‘IN’SPE~TC)lit ~E~fi~~~”   ,. . ~~      ‘        ~~
                                     . .  . ,.                    ,,
                     ,’,        ..                       .“
                                 ,’,        .,             ,,
                                                  .,
                              ., ,,
          ,, . ,. .. .,, ,.            ,.            ,,.      ,.
           ,,          lNDIVl~UAL” p~o~]LEs’.’o~                 ‘,
                ,.        .“.   “MEDi~A.~~”
                                          RISK                    l+Mos          “




                                              )’      APRIL’ 1995..
                                              b’.   OEI-06-91-00733         ‘ “.
                                                                                 ..
$.

                                                                            .“
                                        ,’,
The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services' (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs the
Secretary of HHS of program, and management problems, and recommends courses to correct
them.

                                OFFICE OF AUDIT SERVICES

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying out
their respective responsibilities and are intended to provide independent assessments of HHS
programs and operations in order to reduce waste, abuse, and mismanagement and to promote
economy and efficiency throughout the Department.


                                OFFICE OF INVESTIGATIONS

The OIG's Office of Investigations (OI) conducts criminal, civil,. and administrative investigations
of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of O Ilead to criminal convictions, administrative
sanctions, or civil money penalties. The O I also oversees State Medicaid fraud control units which
investigate and prosecute fraud and patient abuse in the Medicaid program.


                       OFFICE OF EVALUATION AND INSPECTIONS

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department, the
Congress, and the public. The findings and recommendations contained in these inspection reports
generate rapid, accurate, and up-todate information on the efficiency, vulnerability, and
effectiveness of departmental programs. This report was prepared in the Dallas regional office
under the direction of Ralph Tunnell, Regional Inspector General and Chester B. Slaughter,
Deputy Regional Inspector General. Project staff:


REGION                                                                  HEADQUARTERS

Michelle Adams                      Pamela Smith                        Hugh Hetzer
Leah Bostick                        Sarah Taylor                        Mark Krushat
George DeLuna                       Judith Tyler                        Brian Ritchie
Kevin Golladay                      Nancy W a t t s                     Barbara T e d e s c o
Carolyn Neuwirth

For additional copies of this report, please contact the Dallas Regional Office at (800) 848-8960.
 �     Above average               @        Average               O   Below average           NS Not sufficient data


HMo ID #: 0545                                     Enrollees                                  Dkenrollees
                                                   (N=37)                                      (N =36)
                                                                                 ——.
lkeiicimy Responsesto Key          An            This      %Diff.     Comp.            An     Tbi$      %Diff.    Comp.
Survey Qwations by Category       EIMos          HMo                                  HMos    HMO

For scheduled appointments
with specialists, usually          81%           96%      + 15%         g             75%      72%          -3%    e
waited less than 13 days.          (970)          (26)                                (477)     (13)

When very sick, was able to


II
get a doctor’s appointment
within 1 to 2 days.

usually waited less than 1
                                   93%
                                   (942)
                                                 96%
                                                  (21)
                                                           +3%          e             89%
                                                                                      (453)
                                                                                               93%
                                                                                                (13)
                                                                                                        +4%        e




II
hour in the office to see
primary HMO doctor.

Consistently busy telephone
                                   95%
                                  (1,431)
                                                 85%
                                                  (29)
                                                           -lo%         o             87%
                                                                                      (704)
                                                                                               76%
                                                                                                (19)
                                                                                                        -11%       e




II
lines did n@ hinder bene’s
making appointments.
                                  90%
                                  (780)
                                                 86%
                                                  (18)
                                                           -4%          e             89%
                                                                                      (425)
                                                                                              90%
                                                                                               (18)
                                                                                                        +1%        e




  Primary HMO doctor never

IIPrimary
failed to provide needed
Medicare services.

          HMO doctor never
                                   %%
                                  (1,475)
                                                100%
                                                  (34)
                                                           +4%          �             88%
                                                                                      (744)
                                                                                              82%
                                                                                               (22)
                                                                                                            -6%    03




II
failed to refer to a specialist
when needed.

Didn’t feel the need to seek
                                   96%
                                  (1,439)
                                                 97%
                                                  (30)
                                                           +1%          e             88%
                                                                                      (732)
                                                                                              71%
                                                                                               (20)
                                                                                                        -17%       o

out-of-plan care, excluding
dental, routine eye, and           93%           94%       +1%          @             86%     85%       -1%        e
emergenthrgent care.              (1,397)         (33)                                (696)    (22)

Medical care reeeived
through the HMO caused
beneficiaries’ health to:

   b     improve	                 53%            38%      -15%          o             41%     20%       -21%       o
                                  (772)           (13)                                (296)     (5)
         stay about the same	     45%            59%      + 14%                       49%     72%      +23%        �
   P
                                  (649)           (20)
                                                                        �             (383)    (18)
   b     worsen	                  2%             3%        +1%                        10%      8%       -2%
                                   (32)           (1)                  @              (86)      (2)                e




Primary HMO doctor never

failed to take beneficiary’s      88%            79%       -9%         o              76%     88%      + 12%       g

health conqhints   SeliOUSIJr.    (1349)          (22)                                (650)    (29)




                                                               29

�       Above average         @        Average                  O   Below average           NS Not sufllcient data


HMo ID #: 0545                                Enrollees                                     DKenrollees
                                              (N =37)                                        (N =36)
                                                                               —.—
W&icky Reqxmsea to Ksy         Au           This      %Diff.        Comp.            Au     This     %DM.     Comp.
Survey Questionsby Category   EMos          EMo                                     RMos    HMo

Most important to primary
HMO doctor was:

    b     giving the best
          medical care        86%           93%       +7%             �             72%      52%      -20%     o
          possible            (1,197)        (28)                                   (471)    (12)

  F	      holding down the     9%            o%           -9%         o             26%      48%     +22%      g
          cost of care         (120)          (4)                                   (162)    (11)

Most important to the HMO
was:

  b       giving the best
          medical care         74%          72%       -2%             @             58%     43%       -15%     e
          possible            (1,036)        (23)                                   (387)    (9)

          holding down the    15%            6%                                     36%     48%      + 12%
  b
                              (213)           (2)
                                                      -9%             o             (230)    (lo)
                                                                                                               e
          cost of care




                                                           30

    AETNA             HEALTH                 PLANS           OF         NORTHERN                   CALIFORNIA

           No. Enrokes:        14,580                 Total No. f%unpkd: 94                  Total No. Respondents: 60

              Model &pe: IPA                                 For-Profit                              Competitive



    �    Above average                  @       Average             O     Below average              NS   Not suftlcient data


    HMO ID #: H 0547                                  Enrollees                                     Disenrokes
                                                      (N = 34)                                       (N =26)
    Benefkiary Reaponseato Ksy           All         This     %DM.         Comp.           Au        This      %Diff.    Comp.
    Survey Queaiionsby Category         HMos         EMo                                  Ervlos     HMo

    HkXJH7Z    fXREEh?ZVG

    Wss ~t asked at application
    about health problems,
    excluding kidney failure and        63%          94%     +31%           �             58%        64%         +6%      03
    hospice care.                       (717)         (15)                                (430)       (9)

    Physical exam was n-                 96%         100%     +4%           (B            98%        94%         -4%      o
    required before joining.            (1,295)       (20)                                (824)       (16)

    tXWHIiST&V..ljW       UF EMUS

    Did know they could change
    their minds about enrolliig          88%         82%      -6%           e             82%        69%         -13%     e
    after they applied.                 (1,078)       (14)                                (611)       (11)

    Did know, from the
    beginning, they must be
    referred to a specialist by          89%         91%      +2%           @             84%        83%         -1%      @
    their primary HMO doctors.          (1,444)       (31)                                (852)       (20)

    Did know, from the
    beginning, they could only
    use HMO doctors and
    hospitals (except emergent
    care and urgent care outside         96%         100%     +4%           �             93%        96%         +3%      03
    the service area.)                  (1,585)       (34)                                (958)       (-23)

    Did know they had the right
    to appeal an HMO’s refusal           74%         86%     + 12%          �             67%        60%         -7%      e
    to providetpay for services.        (1,113)       (25)                                (523)       (12)




    For scheduled appointments

    with primary HMO doctors,

    usually waited less than 13          85%         94%      +9%           (B            82%        90%         +8%      e

    days.                               (1,276)       (29)                                (681)       (17)





                                                                  31




—
 ,       Above average           @        Average             o   Below swrage                     NS Not suffkient data


HMO ID #: H 0547                                Enrollees                                          Dkenrollees
                                                (N = 34)                                            (N =26)
                                                                     -.—.         ..--—.
Bendieimy Responsesto Key         Au           This     %Diff.    Comp.                     All     This      %Diff.   Comp.
Survsy Qm40ns by Category        HMos          IWO                                       -ifIMOs   HMo
                                                                            —.—.—
For scheduled appointments
with specialists, usually        81%           100%    + 19%        o                    75%        94%       + 19%     �
WSited kis than 13 (@W.          (970)          (27)                                     {477)       (16)
                                                                             .——
When very sick, was able to
get a doctor’s appointment       93%           96%      +3%         @                    89%       100%       +11%      03
within 1 to 2 days.              (942)          (24)                                     (4.53)      (14)
                                                                             .—
usually waited less than 1
hour in the office to see         95%          97%      +2%         @                    87%        95%       +8%       @
primary HMO doctor.              (1,431)        (31)                                     (704)       (18)
                                                                                   ..—
Consistently busy telephone

lines did ~t hinder bene’s       90%           100%    + 10%        e                    89%       100%       +11%      e

making appointments.              (780)         (20)                                     (425)       (9)




Primary HMO doctor never
failed to provide needed          96%          97%      +1%         e                    88%       100%       + 12%     o
Medicare services.               (1,475)        (31)                                     (744)      (19)

Primary HMO doctor never
failed to refer to a speciahst    96%          97%      +1%         @                    88%        90%       +2%       @
when needed.                     (1,439)        (30)                                     (732)       (18)

Dkin’t feel the need to seek
out-of-plan care, excluding
dental, routine eye, and          93%          97%      +4%         �                    ?36%       83%          -3%    @
emergentiurgent care.            (1,397)        (29)                                     (696)       (15)

Medical care received
through the HMO caused
beneficiaries’ health to:

                                                                                         41%        41%          o%     e
                                                                                         (296)
                                                                                         49%        5:%       +10%      ~
                                                                                         (383)       (lo)
     b     worsen                                                                        10%        o%        -lo%
                                                                                           (86)     (o)                 e



Primary HMO doctor never

failed to take beneficiary’s     M%            84%      -4%         e                    76%        95%       + 19%     �

health COn@ainta seriously.      (1349)         (26)                                     (650)       (18)





                                                            32

�        Above average        @       Average            O    Below average           NS Not stilcient    data


HMO ID # H 0547                             Enrollees                                 Dwnrollees
                                            (N= 34)                                    (N =26)
                                                                         —.—
BeneficimyReaponseato Key      Au          This     % Diff.    Comp.           M      This     %Diff.     Comp.
Survey Quedions by Category   EMos         HMO                                HMos    HMO

Most importaot to primary
HMO doctor wax

    b      giving the best
           medkal care         86%         88%      +2%         e             72%      95%     +23%        �
           possible           (1,197)       (28)                              (471)     (18)

    b	     holding down the   9%            6%       -3%                      26%      o%          -26%    O
                                                                @
           cost of care       (120)          (2)                              (162)     (o)

Most important to the HMO
was:

    b      giving the best
           medical cam         74%         77%      +3%         03            58%      56%         -2%     (B
           possible           (1,036)       (23)                              (387)     (9)

  b        holding down the   15%          20%      +5%                       36%      31%         -5%
                                                                e                                          e
           cost of care       (213)         (6)                               (230)     (5)




                                                        33

                                         AM ERIMED                  (CA)——.. .
                                                                          —
       No. Enrollees: 1,024                  Total No. !hnpkd:      96                 Total No. Respondents: 49
                                                                              —
          Model ijpe    IPA                         For-Profit                                Competitive



.    Above average              @      Average              O    Below average                NS Not suftlcient data


HMo ID #: 0557                               Enrollees                                        DEenrollees
                                             (N= 28)                                           (N = 21)
                                                                                  ——
Benetkii Responsesto Key        Au          This     %Diff.       Comp.             Ao         This     % M.       Comp.
Survsy Questionsby Category    EMos         HMO                                    KMos       HMo
HWZH       $iCiU3EAWG

Was ~t asked at application
about health problems,
excluding kidney failure and   63%          63%          o%        @               58%         47%      -11%        e
hospice care.                  (717)         (12)                                  (430)        0)




Did know they could change
their minds about enrolling     88%         80%       -8%          e               82%         89%      +7%         03
after they applied.            (1,078)       (20)                                  (611)        (16)

Did know, from the
beginning, they must be
referred to a specialist by     89%         85%       -4%          e               84%        77%       -7%         e
their primary HMO doctors.     (1,444)       (22)                                  (852)       (13)

Did know, from the
beginning, they could only
use HMO doctors and
hospitals (except emergent
mm and urgent care outside      96%         %5%      -11%          o               93%        80%       -13%        o
the service area.)             (1,585)      (23)                                   (958)       (16)

Did know they had the right
b appeal au HMO’s refusal       74%         81%      +7%           e               67%        46%       -21%        o
to providelpay for services.   (1,113)       (17)                                  (523)       (5)




For scheduled appointments

with primary HMO doctors,

usually waited less than 13     85%         91%      +6%           e               82%        82%           O%      @

iays.                          (1,276)      (21)                                   (681)        (9)





                                                         34

 �    Above average                @        Average              O   Below average           NS Not sufficient data


HMo ID # 0557                                      Enrollees                                 Dmenrollees
                                                   (N= 28)                                    @ = 21)
Baaeficii Reapomca to Key          ‘4a           This      %Diff.    Comp.            All    This     %Diff.   Comp<
Survey Queatioasby Category       EMos           HMO                                 FKMos   HMo

For scheduled appointments
with specialist, usually          81%            81%           O%      @             75%      55%      -20%     o
waited less than 13 days.         (970)           (13)                               (477)     (6)

When very sick, was able to
get a doctor’s appointment        93%            100%      +7%         e             89%      80%      -9%      03
within 1 to 2 days.               (942)           (9)                                (453)     (8)

Usually waited less than 1
hour in the office to see          95%           100%      +5%         @             87%      73%      -14%     o
primary HMO doctor.               (1,431)         (24)                               (704)     (8)

Consistently busy telephone
lines did ~t hinder bene’s        90%            88%       -2%         e             89%     100%     +11%      e
making appointments.              (780)           (T                                 (425)     (3)



Primary HMO doctor never
failed to provide needed           96%           91%       -5%         o             88%      82%      -6%      e
Me&are services.                  (1,475)         (21)                               (744)     (9)

Primary HMO doctor never
failed to refer to a specialist    96%          100%       +4%         �             88%      91%      +3%      %3
when needed.                      (1,439)        (20)                                (732)     (lo)

Didn’t feel the need to seek
out-of-plan care, excluding
dental, routine eye, and           93%           95%       +2%         e             86%      82%      -4%      ~
emergentlurgent care.             (1,397)         (18)                               (696)     (9)

Me&al care received
through the HMO caused
beneficiaries’ health to:

  b      improve                  53%            41%      -12%         o             41%     50%       +9%      (B
                                                                                     (296)
                                                                                     49%     5:%       +1%      @
                                                                                     (383)
                                                                                     10%      ;;      -lo%
                                                                                     (86)      (o)              e



Primary HMO doctor never

failed to take beneficiary’s      88%            76%      -12%         o             76%     70%       -6%      e

health complaints seriously.      (1349)          (16)                               (650)     m





                                                               35

.       Above average          @        Average             O   Below average            NS Not suffkient data



HMo n) #: 0557                                EnrolIees                                  DwnrolIm
                                              (N = 28)                                    (-N = 21)
                                                                           ——.
          Responsesto Key
Beneficiary                     Au           This    %Diff.     Comp.             All    This         %Diff.   Comp.
Survey QueatioIJsby Category   EMos          HMo                                 HMos    HMo
                                                                          -——.
Most important to primary
HMO doctor was:

    b     giving the best
          medical care          86%          91%      +5%         e              72%      56%         -16%      @
          possible             (1,197)        (19)                               (471)     (5)


    b     holding down the      9%           10%      +1%         (B
                                                                                 26%      44%         +18%      �
                                (120)         (2)                                (162)     (4)
          cost of care

Most important to the HMO
was:

    b     giving the best
          medical care          74%          71%      -3%         @              58%      25%         -33%      o
          possible             (1,036)        (12)                               (387)     (-2)

    b     holding down the     15%           18%      +3%                        36%      75%         +39%      g
                                                                  e              (230)     (6)
          cost of care         (213)          (3)




                                                          36

                                      HEALTH               NET            (CA)

        No. Enrollees: 6,131                 Total No. !kunpkd: 99                    Total No. Respondents: 72

          Model ~pe: IPA                            For-Profit                               Competitive



� Above average                 @      Average                 O   Below average             NS Not suftlcient data


HMO ID #: H 0563                             Enrollees                                      DkenroI1ees
                                             (N =36)                                         (N =36)
Beneficiary Responsesto Key     An           This    %Diff.         Comp.           Au        This    % Diff.     Comp.
Survey Questionsby Category    EMos         HMO                                    Elms      HMO
MMLIH      SCREENING

Was at asked at application
about health problems,
excluding kidney failure and   63%          57%          -6%         @             58%        93%      +35%        �
hospice care.                  (717)         (4)                                   (430)       (13)

Physical exam was nggt          96%         100%     +4%             @             98%       100%      +2%         e
required before joining.       (1,295)       (8)                                   (824)      (14)



Did know they could change
their minds about enrolling     88%         83%      -5%             e             82%        91%      +9%         (B
after they applied.            (1,078)       (5)                                   (611)       (lo)

Dld know, from the
beginning, they must be
referred to a specialist by    89%          84%      -5%             03            84%       92%       +8%         @
their primary HMO dootors.     (1,444)       (m                                    (852)      (3

Did know, from the
beginning, they could only
use HMO doctons and
hospitals (except emergent
care and urgent care outside    96%         94%      -2%             @             93%       100%      +7%         e
the service area.)             (1,585)       (30)                                  (958)      @s)

Did know they had the right
to appeal an HMO’s refusal     74%          73%      -1%             @             67%        46%      -21%        o
to providelpay for services.   (1,113)       (22)                                  (523)       (6)




For scheduled appointments

with primary HMO doctors,

usually waited less than 13     85%         90%      +5%             e             82%       85%       +3%         @

days.                          (1,276)       (27)                                  (681)      (11)





                                                          37

     .       Above average            ~        Average                 o   Below avengt?                NS Not sufllcient data

                                                                                   .—— ---
 HMO ID #: H 0563                                    Enrollees                                          Dlsenrolkes
                                                     (N=36)                                              (N =36)
                                                                                         —.- .
 Bamfk&y Respomwsto Key               Au            This     %Diff.        Comp.                 All    This      %Diff.    Comp.
 Survey Questionsby Category         mm             HMO                                         5MOS    HMO
                                                                                   —.. —”-.-—
 For scheduled appointments
 with specialists, usually           81%            88%      +7%             e                  75%      73%          -2%    03
 waited less than 13 days.           (970)           (21)                                       (477)     (8)
                                                                                         —
 When very sick, was able to
 get a doctor’s appointment          93%            86%          -7%         @                  89%     100%      +11%       03
 within 1 to 2 days.                 (942)           (19)                                       (453)    (9)

 usually waited less than 1
 hour in the office to see            95%           100%     +5%             03                 87%     100%      +13%       �
 primary HMO doctor.                 (1,431)         (29)                                       (704)     (14)

 Consistently busy telephone

 lines did @ hinder bene’s           90%            86%      -4%             @                  89%     100%      + 11%      @

 making appointments.                (780)           (19)                                       (425)    (6)


 sERvmw

 Primary HMO doctor never
 failed to provide needed             96%           100%     +4%             �                  88%      93%      +5%        (B
 Medicare services.                  (1,47.5)        (30)                                       (744)     (13)

 Primary HMO doctor never
 failed to refer to a spczialkt       96%           97%      +1%             @                  88%      93%      +5%        @
 when needed.                        (1,439)         (31)                                       (732)     (13)

 Didn’t feel the need to seek
 out-of-plan care, excluding
 dental, routine eye, and            93%            90%      -3%             @                  86%      93%      i-7%       (B
 emergenthugent care.                (1,397)         (28)                                       (696)    (13)

 Medkal        care received
 through the HMO caused
 beneficiaries’     health to:

         b     improve               53%            5’7%     +4%             @                  41%      50%      +9%        @
                                     (772)           (17)                                       (2%)
         b     stay about the same   45%            40%      -5%                                49%      am%          -6%    @
                                                                             @
                                     (649)           (12)                                       (383)     (6)
         b     worsen                 2%            3%       +1%                                10%      7%           -3%    @
                                      (32)           (1)                     @                  (86)      (1)




 Primary HMO doctor never

 failed to take beneficiary’s        88%            90%      +2%             @                  76%      69%          -7%    o

 health complaints seriously.        (1349)          (26)                                       (650)     (9)





                                                                  38




——
.        Above average           @       Average                 O   Below average           NS Not suftlcient data


HMO ID#H0563                                   Enrollees                                     Dwnrollees
                                               (N =36)                                        (N =36)
BeneficiaryResponsesto Key        All         This     %Difr.         Comp.           Aa     This     %Diff.     Comp.
&uvey    QM?StiOM4by   (kt=ory   EIWOS        HMO                                    EMos    HMO

Most important to primary
HMO doctor was:

    b      giving the best
           me&cal care            86%         93%      +7%             e             72%      73%         +1%     @
           possible              (1,197)       (26)                                  (471)     (8)

    b	     holding down the      9%            o%          -9%         o             26%      27%         +1%     e
           cost of care          (120)         (o)                                   (162)     (3)

Most important to the HMO
was:

    b      giving the best
           medical care           74%         89%      +15%            �             58%      67%         +9%     @
           possible              (1,036)       (23)                                  (387)     (8)

           holding down the      15%           4%                                    36%      25%         -11%
    b	
                                 (.213)         (1)
                                                       -11%            o             (230)     (3)
                                                                                                                  e
           cost of care




                                                            39

                                   HMO            COLORADO,                       INC.

b



              No. Enrollees: 894                   Total No. fkunpkd: 57                       Total No. Respondents: 52
                                                                                  —
                  Model ijpe IPA                          Not For-Profit                              Competitive
                                                                                      .-—



     .     Above average            63       Average                O   Below   average               NS Not sufilcient data


    HMO ID #: H 0603                               Enrollees                                          Dkenrollees
                                                   (N=@                                                (N=@
              Reaponseato Key
    Beneficiary                     Au            This       %Diff.     Comp.                All      This      % Difr.    Comp.
    Survey Questionsby Category    EMos           HMo                                       EMos      HMO

    HJMLl!H       SIXEEWVG

    Was ~t asked at application
    about health problems,
    excluding kidney failure and    63%           67%        +4%           e                58%        75%      + 17%       e
    hospice care.                   (717)          (22)                                     (430)       (3)

    Physical exam was n-            96%           97%        +1%           @                98%       100%      +2%         e
    required before joining.       (1,295)         (35)                                     (824)      (5)

    UMUIH?STAAWN(? iXHMOs

    Did know they could change
    their minds about enrolling     88%           90%        +2%           @                82%        50%      -32%        O
    after they applied.            (1,078)         (26)                                     (611)       (2)

    Did know, from the
    beginning, they must be
    referred to a specialist by     89%           93%        +4%           e                84%       40%       -44%        o
    their primary HMO doctors.     (1,444)         (42)                                     (852)      (a

    Did know, from the
    beginning, they could only
    use HMO doctors and
    hospitals (except emergent
    care and urgent care outside    96%           93%        -3%           e                93%       100%      +7%         @
    the service area.)             (1,585)         (41)                                     (958)      (3

    Did know they had the right
    to appeal an HMO’s refusal      74%           74%          o%          e                67%                            NS
    to providelpay for services.   (1,113)         (32)                                     (523)




    For scheduled appointments

    with primary HMO doctors,

    usually waited less than 13    85%           100%       +15%           �                82%                            NS

    days.                          (1,276)        (43)                                      (681)





                                                               40

.       Above average               @       Average                O   Below average           NS Not stilcient   data


HMO ID#:H0603                                     EnrolleH                                     DMenrollees
                                                  (N=@                                          (N=@
Beneficiary   ReapoKIMto Key         AU          This    % Diff.       Comp.            Au     ‘II&     %Diff.    Comp.
Survey   @lf3tiOIISby Ca@ory        EMos         HMo                                   IWos    HMO

For scheduled appointments
with specialists, usually           81%          92%     + 11%           e             75%     100%     +25%       �
waited less than 13 days.           (970)         (34)                                 (477)    (1)

When very sick, was able to
get a doctor’s appointment          93%          92%         -1%         e             89%     100%     +11%       (3
within 1 to 2 days.                 (942)         (24)                                 (453)    (1)

usually waited less than 1
hour in the office to see            95%         98%     +3%             e             87%     100%     +13%       �
primary  HMO doctor.                (1,431)       (42)                                 (704)    (1)




Primary HMO doctor never
failed to provide needed             96%         96%         O%          @             88%      80%      -8%       @
Medicare services.                  (1,475)       (42)                                 (744)     (4)

Primary HMO doctor never
failed to refer to a specialist      96%         96%         O%          e             88%      80%      -8%       e
when needed.                        (1,439)       (43)                                 (732)     (4)

Didn’t feel the need to seek
out-of-plan care, excluding
dental, routine eye, and             93%         91%         -2%         @             86%     100%     + 14%      �
emergentlurgent care.               (1,397)       (40)                                 (696)    (5)

Medical care received
through the HMO caused
beneficiaries’ health to:

    b      improve	                 53%          47%         -6%         (B            41%      40%      -1%       e
                                    (772)         (21)                                 (296)
    F      stay about the   same	   45%          47%     +2%             e
                                                                                       49%      2;%      -29%      o
                                    (649)         (21)                                 (383)     (1)
    F      worsen                    2%           7%     i-5%
                                                                         �
                                                                                       10%      40%     +30%
                                                                                                                   �
                                     (32]         (3)                                   (86)     @




Primary HMO doctor never

failed to take beneficiary’s        88%          87%     -1%             e             76%      80%      +4%       @

health complaints seriously.        (1349)        (34)                                 (650)     (4)





                                                              41
.        Above average               @        Average                 O   Below average           NS Not sufficient data


HMO ID #: H 0603                                    Enrollees                                     Dlsenrolkes
                       —                             (N=W                                           (N=O
Bem&imyResponsesto Key                Au           This     %Diff.        Comp.            Au     This     % DW.    Comp.
Survey   (&StiOlls   by (htt!$jory   EMos          HMO                                    EMos    HMO

Most important to primary
HMO doctor was:

    b      giving the best
           medkal care               86%           89%      +3%             e             72%      60%      -12%     e
           possible                  (1,197)        (32)                                  (471)     (3)

    b	     holding down the           9%            8%          -1%                       26%      40%     + 14%
                                                                            e                                        (B
           cost of care               (120)          (3)                                  (162)     (z

Most important to the HMO
wax

    b      giving the best
           me&al care                 74%          71%          -3%         %3            58%      60%      +2%      e
           possible                  (1,036)        (27)                                  (387)     (3)

    b	     holding down the          15%           18%      +3%                           36%      40%      +4%
                                                                            e                                        e
           cost of care              (213)          (7)                                   (230)     (2)




                                                                 42

        CO MPRECARE                      HEALTH               CARE        SERVICES                 (CO)

        No. Enrollees: 6,756                Total No. Sampled: 100                Total No. Respondents: 81

          Model ~pe: IPA                           For-Profit                              Competitive



�     Above average            63     Average             O     Below average            NS Not sufficient data


HMO ID #: H 0609	                           Enrollees                                    DMnrolleea
                                            (N= 42)                                       (N = 39)
Beneficiary Responsesto Key     All        This     %Diff.       Comp.           Au      This       % Difr.   Comp.
Survey Questionsby Categoq     HMos        HMO                                  EMos     EIWo

MEJ4LTH MXUWNWVG

Was ~t asked at application
about health problems,
excluding kidney failure and   63%         71%      +8%           e             58%       85%       +27%       �
hospice care.                  (717,)       (17)                                (430)      (23)

Physical exam was n-            96%        97%      +1%           e             98%      100%         +2%      e
required before joining.       (1,295)      (29)                                (824)     (34)



Did know they could change
their minds about enrolling     88%        74%      -14%          o             82%       69%       -13%       e
after they applied.            (1,078)      (17)                                (611)      (20)

Did know, from the
beginning, they must be
referred to a specialist by     89%        98%      +9%           �             84%       97%       +13%       �
their primary HMO doctors.     (1,444)      (40)                                (852)      (38)

Did know, from the
beginning, they could only
use HMO doctors and
hospitals (except emergent
care and urgent care outside    96%        100%     +4%           �             93%      100%         +7%      @
the service area.)             (1,585)      (40)                                (958)     (38)

Did know they had the right
to appeal an HMO’s refusal      74%        68%      -6%           (B            67%       77%       + 10%      e
to providelpay for services.   (1,113)      (28)                                (523)      (26)




For scheduled appointments

with primary HMO doctors,

usually waited less than 13     85%        95%     + 10%          e             82%       97%       + 15%      e

days.                          (1,276)      (38)                                (681)      (31)





                                                        43

.       Above average             @       Average                 O   Beiow average           NS Not sufficient data


HMO ID #: H 0609                                Enrollees                                     Disenrollees
                                                (N = 42)                                       (N= 39)
Beneficiary Reaponseato Key        All         Thk      %Diff.        Comp.            Au      This     %Diff.    Comp.
Survey Questionsby Category       EIblos       HMO                                    HMos     HMO

For scheduled appointments
with specialists, usually         81%          91%      + 10%           (B            75%      96%      +21%       �
waited less than 13 davs.         (970)         (32)                                  (477)     (21)

When very sick, was able to
get a doctor’s appointment        93%          100%     +7%             03            89%      96%       +7%       e
within 1 to 2 days.               (942)         (28)                                  {453)     (21)

usually waited less than 1
hour in the office to s=           95%         95%          o%          e             87%      94%       +7%       @
Pnmarv HMO doctor.                (1,431)       (35)                                  (704)     (-29)

Consistently busy telephone
lines did @ hinder bene’s         90%          100%     + 10%           e             89%      95%       +6%       e
making appointments.              (780)         (18)                                  (425)     (18)

SEWXXS

Primary HMO doctor never
failed to provide needed           96%         100%     +4%             c             88%      94%       +6%       @
Medicare services.                (1,475)       (41)                                  (744)     (32)

Primary HMO doctor never
failed to refer to a specialist    96%         95%          -1%         e             88%      91%       +3%       (B
when needed.                      (1,439)       (39)                                  (732)     (32)

Didn’t feel the need to seek

out-of-plan care, excluding

dental, routine eye, and           93%         93%          o%          e             86%      97%       +11%      �

emergenthrgent care.              (1,397)       (38)                                  (696)     (33)


Me&al care received

through the HMO eauaed

beneficiaries’ health to:


    b     improve                 53%          41%      -12%            o             41%      46%       +5%       e
                                  (772)         (16)                                  (296)     (12)
    b     stay about the same     45%          59%      + 14%                         49%      54%       +5%
                                  (649)
                                                                        �             (383)     (14)
                                                                                                                   @

    b     worsen                  2%            0%)         -2%
                                                                                      10%       o%       -lo%      @
                                   (32)         (o)                     @              (86)     (o)




Primary HMO doctor never

failed to take beneficiary’s      88%          93%      +5%             e             76%      76%           O%    0

health comphiints aerioudy.       (1349)        (37)                                  (650)     (25)

�        Above average          @       Average            0    Below average              NS Not suftlcient data


HMO ID #: H 0609                              Enrollees                                    DNenrollees
                                              (N = 42)                                      (N = 39)
                                                                           ..—
Bene-       Responsesto Key      Au           ‘n&     % M.      ~Omp              Ml        This     %IMf.     Comp.
key      @!StiOM   by Catqory   EMos         HMO                                 13TW0s    EMo

Most important to primary
HMO doctor was:

    b      giving the best
           medical care          86%         87%      +1%         03             ’72%       81%      +9%        03
           possible             (1,197)       (28)                                (.471)     (21)

    F	     holding down the     9%            3%      -6%         (--            26%        15%      -11%       e
           cost of care         (120)          (4)                               (162)       (4)

Most important to the HMO
was:

    b      giving the best
           medical care          74%         81%      +7%         03             58%        52%          -6%    e
           possible             (1,036)       (30)                               (387)       (12)

    b	     holding down the     15%          11%      ~%                         36%        39%      +3%
                                                                  e                                             e
           cost of care         (213)         (4)                                (230)       (9)




                                                          45

            QUA L- MED,              INC.          (COLORADO                  SPRINGS,              CO)


            No. Enroka:    82S                 Total No. &unpkd: 63                  Total No. Respondents: 50

            Model ~pe: IPA                            For-Profit                            Competitive



.      Above average             @       Average            O      Below average            NS Not suftlcient data


HMO ID # H 0616                                Enrollees                                    D~enrollees
                                               (N = 39)                                      (N = 11)
BenefkiaryReapoasesto Key         Au          This     %Diff.       Comp.           All      This     %Diff.     Comp.
Survey Qaeatioosby Category      EMos         HMO                                  %MOs      HMO

JIE..ll!l     SCUEENING

Was ~t asked at application
about health problems,
excluding kidney failure and     63%          84%      +21%          �             58%       50%          -8%     @
hospice care.                    (717)         W)                                  (430)      (3)

Physical exam was n-              96%         100%     +4%           @             98%      100%      +2%         e
required before joining.         (1,295)       (36)                                (824)     (lo)

Z?NDERSZ4NDAYG 0FH&fi9#

Did know they could change
their minds about enrolling       88%         97%      +9%           �             82%       63%      -19%        o
after they applied.              (1,078)       (33)                                (611)      (5)

Did know, from the
beginning, they must be
referred to a spczialist by       89%         100%     +11%          �             84%       78%          -6%     e
their primary HMO doctcms.       (1,444)       (36)                                (852)      (7)

Did know, from the
beginning, they could only
use HMO doctors and
hospitals (exeept emergent
care and urgent care outaide      96%         100%     +4%           �             93%       90%          -3%     e
the service area.)               (1,585)       (36)                                (958)      (9)

Did know they had the right
to appeal an HMO’s refhsal        74%         78%      +4%           e             67%                            NS
to providelpay for servieea.     (1,113)       C@                                  (523)




For scheduled appointments

with primary HMO doctors,

usually waited kxs than 13        85%         97%      + 12%         e             82%                            NS

days.                            (1,276)       (32)                                (681)





                                                           46

�     Above average           @        Average              O   Below average           NS Not sulllcient data


HMO ID #: H 0616	                             Enrollees                                 DMenrollees
                                              (N = 39)                                   (N= 11)
Beneficiary Responsesto Key    All          This      %Diff.    Comp.            Au     This     %DM.     Comp.
&rvey @lcstiOllS by Catqory   EMos          HMO                                 mos     HMO

Most important to primary
HMO doctor was:

  k      giving the best
         medical care          86%          91%       +5%         e             72%                        NS
         possible             (1,197)        (29)                               (471)

         holding down the      9%            3%       -6%                       26%
  b
                               (120)          (1)
                                                                  o             (162)
                                                                                                           NS
         cost of care

Most important to the HMO
Ww:

  b      giving the best
         me&al care            74%          60%       -14%        o             58%                        NS
         possible             (1,036)        (18)                               (387)

  b      holding down the     15%           20%       +5%                       36%                        NS
                                                                  @
         cost of care         (213)          (6)                                (230)




                                                          48

                          QUA L-M ED,                  INC.        (P UEBLOA                     CO)

           No. Enrollees: 1,009                 Total No. !hnpkd:      64

            Model ~pe     IPA                           For-Profit                   ~



 �      Above average              @      Average              O     Below average                     NS Not stilcient   data


HMO ID #: H 0617                                Enrollees                                              Dkenrollees
                                                (N =35)                                                 (N=7)
                                                                                ——
Benefkky  Reaponseato Key          All         This      %Diff.       Comp.           Au               Tbi.s     % M.     Comp.
Survey Questionsby CategoIY       EMos         HMO                                   W4fos             EMo

HZXLXW        SW!U?WING

Was ~t asked at application
about health problems,
excluding kidney failure and      63%          70%       +7%           @                 58%                               NS
hospice care.                     (717)         (14)                                     (430)

Physical exam was n@              96%          96%          O%         @                 98%                               NS




Did know they could change
their minds about enrolling        88%         91%       +3%           e                 82%                               NS
after they applied.               (1,078)       (21)                                     (611)

Did know, from the
beginning, they must be
referred to a specialist by       89%          97%       +8%           @                 84%                               NS
their primary HMO doctors.        (1,444)       (31)                                     (852)

Did know, from the
beginning, they could only
use HMO doctors and
hospitals (except emergent
care and urgent care outside       96%         94%       -2%           03                93%                               NS
the service area.)                (1,585)       (31)                                     (958)

Did know they had the right
to appeal an HMO’s refusal         74%         72%       -2%           @                 67%                               NS
to provide/pay for services.      (1,113)       (21)                                     (523)




For scheduled appointments

with primary HMO doctors,

usudy WtLikd kss than 13          85%          84%       -1%           e                 82%                               NS

days.                             (1,276)       (26)                                     (681)





                                                            49

 .       Above average             @       Average              O   Below average            NS Not suffkient data


HMO ID#H0617                                      Enrollees                                  DMenrollees
                                                  (N =35)                                     (N=n
Benelichry   Responsesto Key       An           ‘lllis    %Diff.    Comp.            Au      This     %Diff.   Comp.
key      @StiOIIS by cat~ory      EMos          HMO                                 EMos     HMO

For scheduled appointments
with specialists, usually          81%          91%      + 10%        e             75%                         NS
Wtlitd km than 13 C@.              (970)         (20)                               (477)

When very sick, was able to
get a doctor’s appointment         93%          96%       +3%         @             89%                         NS
within 1 to 2 days.                (942)         (26)                               (453)

usually waited less than 1
hour in the office to see          95%          97%       +2%         @             87%                         NS
primary HMO doctor.               (1,431)        (29)                               (704)

Consistently busy telephone

lines did g@ hinder bene’s        90%           93%       +3%         e             89%                         NS

making appointments.              (780)          (14)                               (425)




Primary HMO doctor never
failed to provide needed           96%          94%       -2%         (B            88%                         NS
Medicare services                 (1,47$)        (29)                               (744)

Primary HMO doctor never
failed to refer to a specialist   96%           97%       +1%         @             88%                        NS
when needed.                      (1,439)        (29)                               (732)

Didn’t feel the need to ~k
out-of-plan care, excluding
dental, routine eye, and           93%          91%       -2%         e             86%                        NS
emergentfurgent care.             (1,397)        (29)                               (696)

Me&al care received
through the HMO caused
beneficiaries’ health to:

     b     improve                53%           41%       -12%        o             41%                        NS
                                  (772)          (12)                               (296)
     b     stay about the same    45%           55%      + 10%                      49%                        NS
                                  (649)          (16)
                                                                      �             (383)
     b     worsen                 2%            3%        +1%                       10%                        NS
                                   (32)          (1)                  e             (86)




Primary HMO doctor never

failed to take beneficiary’s      88%           84%       -4%         e             76%                        NS

health conqkints   seriously.     (1349)         (26)                               (650)





                                                              50

� Above average                @        Average             O   Below average           NS Not sufficient data


HMO ID #: H 0617                              Enrollees                                 Disenrolkes
                                              (N =35)                                     (N=n
                                                                           —-
Benefi&ry Reaponseato Key      All           This     %Diff.    Comp.             Au    This      % Diff.   Comp.
Survey Questionsby Category   RMos           HMO                                HMos    HMO
                                                                                —
Most important to primary
HMO doctor was:

  b      giving the beat
         medical care         86%            85%       -1%        03            72%                          NS
         possible             (1,197)         (-22)                             (471)

  b     holding down the        9%           8%       -1%                       26%                          NS
                               (120)                              (B
        cost of care                         Q)                                 (162)

Most important to the HMO
was:

  b     giving the best
        medical care           74%           62%      -12%        o             58%                         NS
        possible              (1,036)         (18)                              (387)

  k     holding down the      15%            28%      +13%                      36%                         NS
                              @13)            (8)
                                                                  �             (230)
        cost of care




                                                          51

                  HEALTH           OPTIONS                - SOUTH                FLORIDA
                                                                                                                         -1
       No. Enrollees: 19,310                 Total No. Sampled: 100                  Total No. Respondents: 62
          Model &w: IPA                             For-Profit                                Competitive



�    Above average             @       Average              O    Below average              NS Not suftlcient data


HMO ID #: H 1026                             Enrollees                                      DEenroUees
                                             (N = 34)                                        (N= 28)
Benefkii Reapoaseato Key        Au           This    %DitY.      Comp.             All       TbkJ    %Diff.      Comp.
Survey QueatioILsby Category   EMos         HMO                                   HMos       HMO
HEALTH SCREENING

Was ~t asked at application
about health problerna,
excluding kidney failure and   63%          56%       -7%          e              58%        33%      -25%        o
hospice care.                  (717)         (14)                                 (430)       (6)

Physical exam was n@            96%         97%      +1%           @              98%       100%      +2%         @
required before joining.       (1,295)       (29)                                 (824)      @3)



Did know they could change
their minds about enrolling     88%         96%      +8%           @              82%        76%      -6%         @
after they applied.            (1,078)       (26)                                 (611)       (16)

Did know, from the
beginning, they must be
referred to a specialist by     89%         100%    +11%           �              84%        85%      +1%         e
their primary HMO doctors.     (1,444)       (32)                                 (852)       (23)

Did know, from the
beginning, they could only
uae HMO doctors and
hospitals (except emergent
care and urgent care outside    96%         100%     +4%           �              93%        96%      +3%         e
the service aria)              (1,585)       (32)                                 (958)       W)

Did know they had the right
to appeal an HMO’s refusal      74%         77%      +3%           @              67%        61%      -6%         @
to providelpay for services.   (1,113)       (24)                                 (523)      (14)




For scheduled appointment

with primary HMO doctors,

usually WSited less than 13    85%          91%      +6%           e              82%        88%      +6%         @

days.                          (1,276)       (28)                                 (681)      (21)





                                                         52

 �     Above average              @        Average                 O   Below average              NS Not sufllcient data


HMO ID # H 1026                                      Enrollees                                    D~enrollees
                                                     (N= 34)                                       (N =28)
                                                                                     ——.
          Reqxmses to Key
Beneficiary                        AU            This        %Diff.    Comp.            Au         This     % m.      Comp.
Survey Questioas by Catego~       HMos           HMo                                   HMos       mio
For scheduled appointments
with specialists, usually         81%            89%         +8%         e             75%         95%      +20%       �
waited less than 13 days.          (970)          (,23)                                (477)        (18)
                                                                                .—
When very sick, was able to
get a doctor’s appointment        93%           87%           -6%        @             $9%        100%      +11%       e
within 1 to 2 days.               (942)          (20)                                  (453)        (14)

usually waited less than 1
hour in the office to see          95%          94%          -1%         e             87%         77%      -lo%       e
primary HMO doctor.               (1,431)        (29)                                  (704)        (17)

Consistently busy telephone




Primary HMO doctor never
failed to provide needed           96%          90%          -6%         o             88%         88%          o%     e
Medicare services.                (1,475)        (28)                                  (744)        (21)

Primary HMO doctor never
failed to refer to a specialist    96%          90%          -6%         O             88%         87%          -1%    e
when needed.                      (1,439)        (28)                                  (732)        (20)

Didn’t feel the need to seek
out-of-plan care, excluding
dental, routine eye, and -         93%          97%          +4%         �             86%         91%      +5%        @
emergentiurgent care.             (1,397)        (29)                                  (696)        (20)

Med&l     care received
through the HMO caused
beneficiaries’   health to:

   b      improve                 53%           74%         +21%         �             41%         30%      -11%       @
                                  (772)          (20)                                  (296)         m
          stay about the same     45%           26%                                    49%         57%
   b
                                  (649)
                                                             -19%        o             (383)        (13)
                                                                                                            +8%        e

   b      worsen                  2%             0%          -2%                       10%         13%      +3%
                                   (32)           (o)                    @                 (86)     (3)                e




Primary HMO doctor never

failed to take beneficiary’s      88%           94%          +6%         �             76%         68%          -8%    e

health complaints seriously.      (1349)         (-29)                                 (650)        (17)





                                                                 53

�      Above average          @       Average             O   Below average           NS Not suftkient data


HMO ID #: H 1026                            Enrollees                                 DMenrollees
                                            (N = 34)                                   (N =28)
Beneficiary Responsesto Key    Au          This     %Diff.    Comp.            Au     This     %Diff.   Comp.
Survey Questionsby Catego~    EMos         HMO                                mos     HMO

Most important to primary
HMO doctor was:

  b      giving the best
         medical care         86%          96%     + 10%        c             72%      75%     +3%       e
         possible             (1,197)       (24)                              (471)     (12)

  w	     holding down the     9%            4%                                26%     25%       -1%
                              (120)          (1)
                                                    -5%         o             (162)    (4)
                                                                                                         e
         cost of care

Most important to the HMO
was:

  >      giving the best
         medkal care           74%         71%      -3%         e             58%      61%     +3%       e
         possible             (1,036)       (20)                              (387)     (11)

  b      holding down the     15%          21%      +6%                       36%     2$%       -8%      ~
                                                                e
         cost of care         (213)         (6)                               (230)    (a




                                                        54

                             HUM ANA          MEDICAL                       PLAN       (FL)

       No. EnrollePs: 209,393                     Tot$d No. hnpkd:         96           Total No. Respondents: 59

          Model &w.: Staff                              For-Profit                            Competitive



�    Above average               @      Average                O     Below average            NS Not sufilcient data


HMO ID #: H 1036                              Enrollees                                       D~enrollees
                                              (N =36)                                          (N =23)
Benelicii Reapooseato Key        An          This        %Diff.      Comp.            All      This     %Diff.    Comp,
Survey Queadonsby Category      EMos         HMO                                     EMos      HMO

HIMJX?l   SCE?MVXVG

Was @ asked at application

about health problems,

excluding kidney failure and    63%          46%         -17%          @             58%       39%      -19%
       03
hospice care.                   (717)         (13)                                   (430)      (7)





Did know they could change
their minds about enrolling      88%         91%         +3%           e             82%       85%      +3%         @
after they applied.             (1,078)       (31)                                   (611)      (17)

Did know, from the
beginning, they must be
referred to a specialist by      89%         92%         +3%           e             84%       76%          -8%     @
their primary HMO doctors.      (1,444)       (33)                                   (852)      (16)

Did know, from the
beginning, they could only
w HMO doctors and
hospitals (except emergent
care and urgent care outaide     %%          94%         -2%           e             93%       95%      +2%         e
the service area.)              (1,585)       (34)                                   (958)      (20)

Did know they had the right
to appeal an HMO’s refusal       74%         74%         -o%           e3            67%       74%      +7%         e
to providelpay for services.    (1,113)       (W                                     (523)      (14)




For scheduled appointments
with primary HMO doctors,
usually waited less than 13      85%         86%         +1%           @             82%       86%      +4%         e
days.                           (1,276)       (24)                                   (681)      (18)




                                                           55

 � Above average                   @       Average              O   Below average           NS Not sufilcient data


HMO ID # H 1036                                  Enrollees                                  DMenrolkes
                                                 (N= 36)                                     (N =23)
Beneficiary Reapoasesto Key        Au           This     % m.       Comp.            Au     ‘l’l&    %Diff.   Comp.
Survey Questioas by Category      EMos          HMO                                 EMos    HMO

For scheduled appointments
with specialists, wually          81%           71%      -lo%         @             75%     73%       -2%      @
waited less than 13 davs.         (970)          (17)                               (477)    (11)

When very sick, was able to
get a doctor’s appointment        93%           100%     +7%          @             89%      87%      -2%      @
within 1 to 2 days.               (942)          (19)                               (453)     (13)

usually waited less than 1
hour in the office to see          95%          94%      -1%          e             87%      71%     -16%      o
Pliw     HMO doctor.              (1,431)        (31)                               (704)     (15)

Consistently busy telephone
lines did ~t hinder bene’s        90%           90%          o%       03            89%      80%      -9%      e




Primary HMO doctor never
failed to provide needed           96%          97%      +1%          e             88%      65%     -23%      o
Me&care services.                 (1,475)        (30)                               (744)     (15)

Primary HMO doctor never
failed to refer to a specialist    96%          97%      +1%          e             88%      62%     -26%      o
when needed.                      (1,439)        (29)                               (732)     (13)

Didn’t feel the need to seek
out-of-plan care, excluding
dental, routine eye, and           93%          93%          o%       @             86%     68%      -18%      o
emergentlurgent care.             (1,393         W)                                 (696)    (15)

Medical care received
through the HMO caused
beneficiaries’ health to:

   b     improve                  53%           47%      -6%          03            41%     29%      -12%      @
                                  (772)          (15)                               (296)    (6)
   b     stay about the same      45%           53%      +8%                        49%     33%      -16%      O
                                                                      e
                                  (649)          (17)                               (383)
  b      worsen                   2%             o%      -2%                        10%      3?%     +28%
                                   (32)          (o)                  e3            (86)      (8)              �



Primary HMO doctor never

failed to take beneficiary’s      88%           89%      -1%          @             76%     41%      -35%      o

health complaints seriouslv.      (1349)         (25)                               (650)    (9)





                                                             56

.        Above average         @       Average             O   Below average           NS Not sufllcient data


HMO ID #: H 1036	                            Enrollees                                 DMenroUees
                                             (N= 36)                                    (N=23)
Beneficii Reaponseato Key       An          This     %Diff.     Comp.           All    This     %Difr.   Comp.
Survey Questionsby Category    RMos         HMO                                EMos    HMO

Most important to primary
HMO doctor was:

    b       giving the best
            medical care        86%         69%      -17%        o             72%     39%      -33%      o
            possible           (1,197)       (18)                              (471)    (7)

    b	      holding down the   9%           19%                                26%     56%      +30%
                               (120)         (5)
                                                     + 10%       �             (162)    (lo)
                                                                                                          �
            cost of care

Most important to the HMO
was:

    b       giving the best
            medical care        74%         71%      -3%         0)            58%     32%      -26%      O
            possible           (1,036)       (.20)                             (387)    (6)

            holding down the   15%          11%      ~%                        36%     58%      +22%
    b

                               (213)         (3)
                                                                 e
                                                                               (230)    (11)
                                                                                                          �
            cost of care




                                                         57

        No. Enrollees: 6,193                Total No. !hmpkd: 100                   Total No. Respondents: 67
                                                                                —
             Model ~pe: IPA                        For-Profit                              Competitive



�     Above average            @      Average             O     Below average              NS Not sufilcient data


HMO ID #: H 1056                            Enrollees                                      Dkenrdlees
                                            iN =40)                                         (N =27)
BeneficimyReaponseato Key       AU         This     %Ixff.      Comp.            Au        This      %m.        Comp.
Survey Quealionsby Catego~     HMos        HMO                                  EMos       HMO



Wsa at asked at application
about health problems,
excluding kidney failure and   63%         84%      +21%          �             58%         55%         -3%      e
hospice care.                  (717)        07)                                 (430)        (12)

Physical exam was n~            96%        100%     +4%           @             98%         92%         -6%      0
required before joining.       (1,295)      (34)                                (824)        (,22)



Did know they could change
their minds about enrolling     88%        92%      +4%           e             82%         91%         +9%      e
after they applied.            (1,078)      (34)                                (611)        @l)

Did know, from the
beginning, they must be
referred to a specialist by     89%        95%      +6%           @             84%         83%         -1%      e
their primary HMO doctors.     (1,444)      (38)                                (852)        (19)

Did know, from the
beginning, they could only
use HMO doctors and
hospitals (except emergent
care and urgent care outside    96%        98%      +2%           e             93%        100%         +7%      e
the service area.)             (1,585)      (39)                                (958)       @)

Did know they had the right
to appeal an HMO’s refusal      74%        81%      +7%           e             67%         65%         -2%      @
to providelpay for services.   (1,113)      (30)                                (523)        (11)




For scheduled appointments
with primary HMO doctors,
usually waited km than 13       85%        83%      -2%           e             82%         82%         O%       fl)
days.                          (1,276)      (30)                                (681)        (14)




                                                        58

� Above average                   @       Average              O   Below average           NS Not suftlcient data


HMO ID #: H 1056                                Enrollees                                  Disenrollees
                                                (N= 40)                                     (N =27)
BmeficiaryRespoasea to Key         Au          m        %Diff.     Comp.            All     This     %DitY.   Comp.
Survey Queatioasby Category       EMos         HMO                                 HMos    IllWo

For scheduled appointments
with specialists, usually         81%          79%       -2%         @             75%      72%       -3%      @
waited less than 13 days.         (970)         (23)                               (477)     (13)

When very sick, was able to
get a doctor’s appointment        93%          84%       -9%         o             89%      80%       -9%      e
within 1 to 2 days.               (942)         (21)                               (453)     (8)

Usually waited less than 1
hour in the office to see          95%         90%       -5%         (B            87%      75%       -12%     o
primary HMO doctor.               (1,431)       (35)                               (704)    (15)

Consistently busy telephone
lines dld g@ hinder bene’s        90%          94%      +4%          e             89%     100%      +11%      @
making appointments.              (780)         (29)                               (425)    (13)

S4?!?RV..C3?S
Primary HMO doctor never
failed to provide needed           96%         95%       -1%         e             88%      82%       -6%      e
Me&are services.                  (1,475)       (36)                               (744)     (14)

Primary HMO doctor never
failed to refer to a specifllst    96%         95%      -1%          (B            88%      68%       -20%     o
when needed.                      (1,439)       (36)                               (732)     (13)

Didn’t feel the need to seek

out-of-plan care, excluding

dental, routine eye, and           93%         97%      +4%          �             86%      79%       -7%      e

emergentlurgent cam.              (1,397)       (37)                               (696)     (15)


Me&cal care received

through the HMO caused

beneficiaries’ health to:


   b     improve	                 53%          49%      -4%          @             41%      12%       -29%     o
                                  (772)         (16)                               (2%)       (2)
         stay about the same	     45%          52%      +7%                        49%      71%      +22%
   b
                                  (649)         (17)
                                                                     e
                                                                                   (383)     (12)
                                                                                                               �
   b     worsen	                  2%            o%      -2%                        10%      18%       +8%
                                   (32)         (o)                  e             (86)      (3)               e




Primary HMO doctor never

failed to take beneficimy’s       88%          92%      +4%          @             76%      56%       -20%     o

health complaints seriously.      (1349)        (36)                               (650)     (9)





                                                            59

�        Above average          @      Average             O    Below average           NS Not sufllcient data


HMO ID #: H 1056                             Enrollees                                  DKenrollees
                                             (N =40)                                     (N =27)
BenefichryResponsesto Key        All        This     %Diff.      Comp.           AU     This     % DitT.   Comp.
Survey Questionsby Category     HMos        HMo                                 EWlos   HMO

Most important to primary
HMO doctor was:

    F        giving the best
             medical care        86%        79%          -7%      o             72%      62%      -lo%      e
             possible           (1,197)      (2?)                               (471)     (8)

    b	       holding down the   9%          12%      +3%                        26%      39%     +13%
                                                                  e                                         e
             cost of care       (120)        (4)                                (162)     (5)

Most important to the HMO
was:

    b        giving the best
             medical care        74%        62%      -12%         o             58%      31%      -27%      o
             possible           (1,036)      (21)                               (387)     (4)

   b	        holding down the   15%         21%      +6%          @
                                                                                36%      54%     + 18%      �
             cost of care       (.213)       (1)                                (230)     m




                                                          60

                                HUM ANA            HEALTH                 PLAN        -(IL)

         No. Enrollees: 20,817                 Total No. Sampled: 96         -~,

            Model ~:    Staff                          For-Profit



�     Above average               @      Average              O     Below average              NS Not suffkient data


HMO ID #: H 1406                               Enrollees                                       Dkenrollees
                                               (N= 35)                                          @ = 19)
                                                                                   —,.—
Wm&iaryResponsesto Key             Aa         This      %Diff.       Comp.            An       This      %DM.   Comp.
Survey Quesdonsby Catego~         EMos        HMo                                    mos       HMo

HiX&l’.’.    W?.EEVWG

Was p@ asked at application
about health problems,
excluding kidney failure and      63%         44%       -19%          o               58%                        NS
hospice care,                     (717)        (11)                                   (430)

Physid      exam was n!mJ         96%         96%          O%         e               98%                        NS




Dld know they wuld change
their minds about enrolling        88%        92%       +4%           e               82%                        NS
after they applied.               (1,078)      (22)                                   (611)

Did know, from the
beginning, they must be
referred to a specialist by        89%        82%       -7%           e               84%                        NS
their primary HMO doctors.        (1,444)      (-27)                                  (852)

Did know, from the
beginning, they could only
use HMO doctors and
hospitals (except emergent
care and urgent care outaide       96%        97%       +1%           e               93%                        NS
the service area.)                (1,585)      (33)                                   (958)

Dld know they had the right
to appeal an HMO’s refusal        74%         76%       +2%           @               67%                        NS
to providelpay for services.      (1,113)      (22)                                   (523)




For scheduled appointments

with primary HMO doctors,

usually waited less than 13        85%        73%       -12%          @               82%                        NS

days.                             (1,276)      (24)                                   (681)





                                                           61

�      Above average              @       Average                 O   Below average            NS Not suffkient data


HMO H) #: H 1406                                Enrollees                                      Dkenrolkes
                                                (N =35)                                         (N = 19)
BenefichuyRespoaseato Key          Au          This     %DM.           Comp.           All     This     %Diff.   Comp.
Survey Queatioasby Category       EMos         HMO                                    EMos     HMO

For scheduled appointments
with specialists, usually         81%          73%          -8%         e             75%                         NS
waited less than 13 days.         (970)         (-22)                                 (477)

When very sick, was able to
get a doctor’s appointment        93%          90%          -3%         @             89%                         NS
within 1 to 2 days.               (942)         (18)                                  (453)

usually waited less than 1
hour in the office to see          95%         94%          -1%         e             87%                         NS
primary HMO doctor.               (1,431)       (29)                                  (704)

Consistently busy telephone
lines did ~t hinder bene’s        90%          69%      -21%            o             89%                         NS
making appointments.              (780)         (11)                                  (425)

SJ??RVKXS
Primary HMO doctor never

failed to provide needed           96%         90%          -6%         o             88%                         NS

Medicare services.                (1,475)       (28)                                  (744)


Primary HMO doctor never
failed to refer to a specialist    96%         97%      +1%             e             88%                         NS
when needed.                      (1,439)       (31)                                  (732)

Didn’t feel the need to seek
out-of-plan care, excluding
dental, routine eye, and           93%         91%          -2%         e             86%                         NS
emergentlurgent care.             (1,397)       (29)                                  (696)

Medhl care received
through the HMO caused
beneficiaries’ health to:

   b     improve                  53%          62%      +9%             e             41%                         NS
                                  (772)         (21)                                  (296)
   b     stay about the same      45%          38%          -7%                       49%                         NS
                                                                        e
                                  (649)         (13)                                  (383)
                                                                                      10%                         NS
                                                                                       (86)




Primary HMO doctor never

failed to tske beneficiary’s      88%          79%          -9%         o             76%                         NS

health complaints seriously.      (1349)        (23)                                  (650)





                                                             62

�       Above average         @       Average                 O   Below average           NS Not suffkient data


HMoxD#H          1406                       Enrollees                                     DMenrollees
                                            (N =35)                                        (N = 19)
          Reaponseato Key
Beneficiary                    All         This     %Diff.        Comp.            Au     W        %DifK   Comp.
Survey Questiom by Category   HMos         HMo                                    EMos    HMO

Most important to primary
HMO doctor was:

    b     giving the best
          medical care         86%         93%      +7%             �             72%                       NS
          possible            (1,197)       (28)                                  (471)

          holding down the    9%            o%                                    26%
    b
                              (120)         (o)
                                                        -9%         o             (162)
                                                                                                            NS
          cost of care

Most important to the HMO
was:

   b	     giving the best
          medical care        74%          88%      + 14%           �             58%                       NS
          possible            (1,036)       (28)                                  (387)

   b      holding down the    15%           9%          -6%                       36%                       NS
                                                                    e
          cost of care        (213)          (3)                                  (230)




                                                         63

    HE AL THSOURCE                       INDIANA                 MANAGED                   CARE       PLAN


          No. Enrollees: 399                Total No. Sampled: 55                   Total No. Respondents: 52

              Model ~pe: IPA                        For-Profit                             Non-Competitive



�       Above average           @     Average              O     Below average               NS Not stilcient   data


HMO ID #: H 1551	                            Enrollees                                      Dkenrollees
                                             (N =47)                                         (N .5)
         Responsexto Key
Beneficiary                     All        This      %Diff.      Comp.             Au        This     %Diff.    Comp.
Smvey Queslionsby Category     HMos        HMO                                   IIrVlos     HMO

JZJ!MLX?? XYU?EJWNG

Was ~t asked at application
about health problems,
excluding kidney failure and   63%         85%      +22%           �             58%         75%       + 17%     e
hospice care.                  (717)        (28)                                 (430)        (3)

Physical exam was n-            96%        100%      +4%           @             98%         100%      +2%       @
required before joining.       (1,295)      (43)                                 (824)        (5)



Did know they could change
their minds about enrolling     88%        95%       +7%           e             82%         100%     + 18%      �
after they applied.            (1,078)      (38)                                 (611)        (5)

Did know, from the
beginning, they must be
referred to a specialist by     89%        80%       -9%           o             84%         60%      -24%       o
their primary HMO doctors.     (1,444)      (3?)                                 (852)        (3)

Did know, ffom the
beginning, they could only
Use HMO doctom and
hospitals (except emergent
care and urgent care outside    96%        91%       -5%           o             93%         60%      -33%       o
the service area.)             (1,585)      (42)                                 (958)        (3)

Did know they had the right
to appeal an HMO’s refusal      74%        67%       -7%           @             67%         33%      -34%       o
to providelpay for services.   (1,113)      (28)                                 (523)        (1)




For scheduled appointments

with primary HMO doctors,

usually waited less than 13    85%         91%       +6%           @             82%         100%     + 18%      �

days.                          (1,276)      (40)                                 (681)        (4)





                                                         64

.       Above average             @        Average                 O   Below average            NS Not stilcient   data


HMO ID #: H 1551                                 Enrollees                                      DKenrolleea
             —                                   (N=4’7)                                         (N =5)
Beneficiary Rqxmsea to Key         Au           This     %BW.          Comp.            Au      This     % Biff.   Comp
Sarvey Questioasby Category       HMos          HMO                                    EIIWos   HMo

For scheduled appointments
with specialists, usually         81%           74%          -7%         e             75%                          NS
waited less than 13 davs.         (970)          (20)                                  (477)

When very sick, was able to
get a doctor’s appointment        93%           97%      +4%             @             89%                          NS
within 1 to 2 days.               (942)          (32)                                  (453)

I-hmaUyWtited less than 1
hour in the office to see         95%           86%          -9%         o             87%                          NS
primary HMO doctor.               (1,431)        (36)                                  (704)

Consistently busy telephone
lines did @ hinder bene’s         90%           100%     + 10%           e             89%                          NS
making appointments.              (780)          (23                                   (425)



Primary HMO doctor never
failed to provide needed           96%          93%          -3%         o             88%       75%      -13%      o
Medkam services.                  (1,475)        (42)                                  (744)      (3)

Primary HMO doctor never
failed to refer to a specialist    96%          95%          -1%         e             88%      100%     + 12%      �
when needed.                      (1,439)        (39)                                  (732)     (4)

Didn’t feel the need to seek
out-of-plan care, excluding
dental, routine eye, and           93%          95%      +2%             e             86%       75%      -11%      o
emergentlurgent care.             (1,397)        (38)                                  (696)      (3)

Medical care received
through the HMO caused
beneficiaries’ health to:

    b     improve                 53%           52%          -1%         e             41%      100%     +59%       �
                                  (772)                                                (296)      (2)
    b     stay about the same     45%           L&i          ()%                       49%                          NS
                                                                         e
                                  (649)          (19)                                  (383)
    b     worsen                                                                       10%
                                                                                                                    NS
                                                                                        (86)




Primary HMO doctor never

failed to take beneficiary’s      88%           86%      -2%             03            76%      100%     +24%       �

health COIUPhinta .9twioudv.      (1349)         (38)                                  (650)     (4)





                                                              65

.        Above average        @        Average             O    Below average           NS Not sufllcient data


HMO ID #: H 1551                             Enrollees                                  Disenrollees
                                             (N =47)                                      (N.~

Beneficiary Reapoasesto Key     An          This     %Diff.      Comp.           All     ‘lllis   %Diff.   Comp.
Survey Questionsby Cakgory    IInlos        HMO                                 mos      HMO

Most important to primary
HMO doctor was:

    b      giving the best
           mexlkal care       86%           85%          -1%      e             72%     100%       +28%     �
           possible           (1,197)        (34)                               (471)     (4)


    b	     holding down the    9%            10%     +1%                        26%                         NS
                                                                  (I)
           cost of care        (120)          (4)                               (162)

Most important to the HMO
was:

    b      giving the best
           medical care        74%           66%         -8%      @             58%      75%       + 17%    e
           possible           (1,036)         w)                                (387)     (3)

                               15%          24%          +9%                    36%      25%       -11%
    b      holding down the
                               (.213)        (9)
                                                                  �             (230)     (1)
                                                                                                            e
           cost of care




                                                          66

       No. Enrollees: 3,010                 Total No. Sampled: 99                 Total No. Respondents: 74

          Model &x      IPA                        For-Profit                           Non-Competitive



�    Above average             @      Average             O     Below average             NS Not sufficient data


HMO ID #: H 1890                            Enrollees                                    Dfienrolkes
                                            (N = 41)                                      (N = 33)
WmtkisryReaponseato Key         All        This    %Diff.       Comp.            All      Tb.is    %DM.       Comp.
Survey Questionsby Category    HMos        HMo                                  EMos      HMO



Was n@ asked at application
about health problems,
excluding kidney failure and   63%         38%      -25%          0             58%       55%          -3%     (II
hospice care.                  (717)        (9)                                 (430)      (11)

physical exam was n?I          96%         94%      -2%           e             98%       92%          -6%     O
required before joining.       (1,295)      (30)                                (824)      (23)



Did know they could change
their minds about enrolling     88%        94%      +6%           e             82%       90%      +8%         (B
after they applied.            (1,078)      (29)                                (611)      (17)

Did know, from the
beginning, they must be
referred to a specialist by     89%        83%      -6%           03            84%       83%          -1%     e
their primary HMO doetocs.     (1,444)      (33)                                (852)      (25)

Did know, from the
beginning, they could only
use HMO doctors and
hospitals (except emergent
cam and urgent care outside     96%        100%     +4%           �             93%       94%      +1%         e
the service area.)             (1,585)      (39)                                (958)      (29)

Did know they had the right
to appeal an HMO’s refusal      74%        68%      -6%           @             67%       86%      + 19%       �
to providelpay for services.   (1,113)      (26)                                (523)      (19)




For scheduled appointments

with primary HMO doctors,

usually waited less than 13     85%        92%      +7%           e             82%       84%      +2%         e

days.                          (1,276)      (35)                                (681)      (21)





                                                        67

 .       Above average             @       Average                 O   Below average           NS Not stilcient     data


 HMO H) #: H 1890                                 Enrollees                                    Dwnrolkes
                                                  (N= 41)                                       (N = 33)
 Beneficiary Responsesto Key       An           This      %DM          Comp.            Au     This        %Diff.   Comp.
 Survey Qaeatioas by Category     EMos          HMo                                    KMos    HMO

 For scheduled appointments
 with specialists, usually         81%          87%          +6%         e             75%     69%          -6%      @
 waited less than 13 days.         (970)         (20)                                  (477)    (9)

When very sick, was able to
get a doctor’s appointment         93%          100%         +7%         03            89%     86%          -3%      @
within 1 to 2 days.                (942)         (27)                                  (453)    (12)

usually waited less than 1
hour in the office to see         95%           97%       +2%            @             87%     86%          -1%      %3
primary HMO doctor.               (1,431)        (36)                                  (704)    (19)

Consistently busy telephone

lines did ~t hinder bene’s        90%           92%       +2%            e             89%     86%         -3%       e





Primary HMO doctor never
failed to provide needed           96%          95%          -1%         e             88%     96%         +8%       @
Medicare aervicea.                (1,475)        (37)                                  (744)    (23)

Primary HMO doctor never
failed to refer to a specialist    96%          97%       +1%            e             8!3%    92%         +4%       @
when needed.                      (1,439)        (35)                                  (732)    (3

Didn’t feel the need to seek
out-of-plan care, excluding
dental, routine eye, and           93%          90%          -3%         e             86%     95%         +9%       �
emergent/urgent care.             (1,397)        (3s)                                  (696)    (18)

Me&al care received
through the HMO caused
beneficiaries’ health to:

     b    improve                 53%           63%      +    10%       �	             41%     44%         +3%       03
                                                                                       (2%)     (8)
                                                                                       49%     50%         +1%       e
                                                                                       (383)     (9)
                                                                                       10%      6%         ~%
                                                                                       (86)     (1)                  @




Primary HMO doctor never

failed to take beneficiary’s      88%          82%        -6%           o              76%     76%         O%        o

health complaints seriously.      (1349)        (32)                                   (650)    (19)





                                                              68

�        Above average        @      Average             O    Below average            NS Not suftlcient data


HMO ID #: H 1890                           EnrollePs                                   Disenrollees
                                           (N= 41)                                      (N = 33)
Beneficiary Responsesto Key    Au         This    %Dim.        Comp.            Alt     ‘Ilk     %Diff.     Comp.
&rvey @?stiOllS by Catqory    EMos        HMO                                 IllWos    HMO

Most important to primary
HMO doctor was:

    F      giving the best
           medical care       86%         78%      -8%          o             72%       84%       + 12%      e
           possible           (1,197)      (28)                               (471)      (16)


           holding down the   9%           14%     +5%                        26%       16%       -lo%
    b	
                              (120)         (5)
                                                                �             (162)      (3)
                                                                                                             e
           cost of care

Most important to the HMO
was;

    b       giving the best
            medkal care       74%          82%     +8%          @             58%       72%       + 14%      e
           possible           (1,036)      (28)                                (387)     (13)

    b	     holding down the   15%          15%         ()%                    36%       28%           -8%
                                                                e                                            @
           cost of care       (213)         (a                                 (230)     (1)




                                                        69

  HE AL THCARE                       CORP.                OF     THE           MID-ATLANTIC
                                                                                    —                          (MD)

          No. Enrollees: 697                        Total No. Sampled: 53

          Model ~-~: Group                                 For-Profit
                                                                                 ‘~



�     Above average                 @        Average                 O   Below average           NS Not sufficient data


HMO ID #: H 2101                                    Enrollees                                    DMenrollees
                                                    (N= 44)                                       (N. q
                                                                                      ——
          Respow to Key
Beneficiary                         All           This      %Diff.       Comp.            AU     This     % Diff.   Comp.
Survey Questionsby Category        EMos           HMO                                    mos     HMo

HEALTH SCRi?lEAIING
Wss ~ asked at application
about health problems,
excluding kidney failure and        63%           76%      +13%            e             58%     50%       -8%        0
hospice care.                       (713           (22)                                  (430)     (1)

Physical exam was n-                96%           97%          +1%         @             98%     100%     +2%         @
required before joining.           (1,295)         (33)                                  (824)     (3)

WVWMSTMDAW “l?FHMOS
Did know they could change
their minds about enrolling         88%           82%          -6%         e             82%     100%     + 18%       �
after they applied.                (1,078)         (22)                                  (611)    (2)

Did know, from the
beginning, they must be
referred to a specialist by         89%           86%          -3%         e             84%     100%     + 16%       �
their primary HMO doctors.         (1,444)         (38)                                  (852)    (4)

Did know, from the
beginning, they could only
use HMO doctors and
hospitals (except emergent
me and urgent care outside          96%           91%          -5%         o             93%     100%     +7%         e
the service area.)             ‘   (1,585)         (40)                                  (958)    (4)

Did know they had the right
:0 appeal an HMO’s refusal          74%           76%       +2%            e             67%     50%      -17%        o
LOprovidelpay for services.        (1,113)         (32)                                  (523)    @




For scheduled appointments

with primary HMO doctors,

Mually waited less than 13          85%           73%      -12%            @             82%     50%      -32%        o

iays.                              (1,276)         (29)                                  (681)    (?)





                                                                70

 .       Above average             @       Average                 O   Below average           NS Not sufilcient data


HMO ID #: H 2101                                  Enrollees                                    Dkenrokes
                                                  (N= 44)                                       (N =5)
Beaefkimy Responsesto Key          Au           This     %DifK         Comp.            Au     This        %Diff.   Comp.
Survey Questionsby Category       EMos          HMO                                    HMos    HMo

For scheduled appointments
with qmcialists, usually           81%          76%       -5%            e             75%                           NS
waited less than 13 days.          (970)         (29)                                  (477)

When very sick, was able to
get a doctor’s appointment        93%           93%           o%         @             89%                           NS
within 1 to 2 days.               (942)          (,25)                                 (453)

Usually waited less than 1
hour in the office to see          95%          95%           o%         e             87%                           NS
primary HMO doctor.               (1,431)        (38)                                  (704)

Consistently busy telephone
lines did ~t hinder bene’s        90%           89%       -1%            @             89%                           NS
making appointments.               (780)         (23)                                  (425)

Si!mlmxs

Primary HMO doctor never
failed to provide needed           %%           95%       -1%            e             88%     100%     + 12%        �
Medicare services.                (1,475)        (39)                                  (744)    (4)

Primary HMO doctor never
failed to refer to a specialist    96%         100%       +4%            �             88%     100%     + 12%        �
when needed.                      (1,439)       (40)                                   (732)    (4)

Didn’t feel the need to seek

out-of-plan care, excluding

dental, routine eye, and           93%          97%       +4%            �             86%     100%    + 14%         �

emergentfurgent care.             (1,397)        (38)                                  (696)    (4)


Medical care received

through the HMO caused

beneficiaries’ health to:


     b     improve	               53%           70%      + 17%           �             41%     75%     +34%          �
                                  (772)          (28)                                  (296)
     b     stay about the same	   45%           30%                                    49%     2?%
                                  (649)         (12)
                                                         -15%            o             (383)    (1)
                                                                                                           -24%      o
     b     worsen                                                                      ioti
                                                                                       (86)                         NS




Primary HMO doctor never

failed to take beneficiary’s      %a%           93%      +5%            e              76%     100%    + 24%         �

health complaints SeliOUSly.      (1349)         (39)                                  (6S0)    (4)

.        Above average        @       Average                 O   Below average           NS Not suffkient data


HMO H) #: H 2101                            Enrollees                                     Dkenrolkes
                                            (N =44)                                        (N=~
Beneficiary Reapoaseato Key    All          This    % m.          Comp.            An      ‘IIlk   % Diff.   Comp.
Survey QIK40as by Categoq     HMos         mo                                     mlos    HMo
Most important to primary
HMO doctor was:

    b	     giving the best
           medical care        86%         87%      +1%             e             72%     100%     +28%       g
           possible           (1,197)       (32)                                  (471)    (3)

    b      holding down the    9%          11%      +2%                           26%                         NS
                               (120)        (4)                     e
           cost of care                                                           (162)

Most important to the HMO
was:

    b      giving the best
           medkal care        74%          80%      +6%             e             58%     100%     +42%       �
           possible           (1,036)       (31)                                  (387)     (3)

    b      holding down the   15%          13%          -2%                       36%                         NS
                                                                    @
           cost of care       (213)         (5)                                   (230)




                                                         72

HARVARD                    COMMUNITY                     HEALTH               PLAN            - URBAN            (MA)


         No. Enrollees     8,432                 Total No. %trnpkd: 98                  Total No. Respondents: 76

              Model ~pe: SW                             Not For-Profit                          Competitive



�      Above average               @       Average                O   Below average             NS Not sti]cient    data


HMO ID #: H 2206                                 Enrolkea                                       Dkenrolleea
                                                 (N = 41)                                        (N =35)
Beneficiary   Responsesto Key       Au          ‘II&       %DM.       Comp.            An        lllis    %IxfT.    Comp.
kvey   @StiOllS    by Category     EMos         IWO                                   EMos      HMO
HEALTH SCREMVWYG

Was ~t asked at application
about health problems,
excluding kidney failure and       63%          54%         -9%          @            58%        25%      -33%       o
hospice care.                      (717)         (7)                                  (430)       (3)

Physical exam was n-                96%         100%       +4%           e            98%        92%      -6%        0
required before joining.           (1,295)       (19)                                 (824)       (12)



Did know they could change
their minds about enrolling         88%         83%         -5%          e            82%        60%      -22%       o
after they applied.                (1,078)       (lo)                                 (611)       (6)

Did know, from the
beginning, they must be
referred to a specialist by         89%         76%        -13%          o            84%        77%      -7%        03
their primary HMO doctors.         (1,444)       (28)                                 (852)       (24)

Did know, from the
beginning, they could only
use HMO doctors and
hospitals (except emergent
care and urgent care outside        96%         93%         -3%          @            93%        94%      +1%        03
the service area.)                 (1,585)       (3-0                                 (958)       (31)

Did know they had the right
to appeal an HMO’s refusal          74%         54%        -20%          C)           67%        54%      -13%       @
to providelpay for services.       (1,113)       (20)                                 (523)       (14)




For scheduled appointments

with primary HMO doctors,

usually waited km than 13           85%         78%        -7%           @            82%        69%      -13%       @

days.                              (1,276)       (28)                                 (681)       (18)





                                                             73

 �       Ahove average             @       Average            O   Below average           NS Not suffkient data


HMO ID #: H 2206                                 Enrolkes                                 DEenro11ee5
                                                 (N = 41)                                  (N =35)
Benefkky Rqonses to Key            Au           This    %Diff.    Comp.            All    This     %Diff.   Comp.
!kwvey @StiOIIS by Catqov         mos           HMO                               EMos    HMO

For scheduled appointments
with specialists, usually         81%           85%     +4%         @             75%      68%      -7%      e
Waited less than 13 dilJW.        (970)          (29)                             (477)     (17)

When very sick, was able to
get a doctor’s appointment        93%           100%    +7%         03            89%     %%       +7%       @
within 1 to 2 days.               (942)          (31)                             (453)   (23)

usually waited less than 1
hour in the office to see         95%           100%    +5%         e             87%      96%     +9%       @
P-         HMO doctor.            (1,431)        (40)                             (704)     W’)

Consistently busy telephone
lines dld ~t hinder bene’s        90%           88%     -2%         @             89%     71%      -18%      0
making appointments.              (780)          (15)                             (42s)    (lo)



Primary HMO doctor never
failed to provide needed           96%          95%     -1%         e             88%     93%      +5%       e
Me&am services.                   (1,475)        (36)                             (744)    (28)

Primary HMO doctor never
failed to refer to a specialist    96%          100%    +4%         �             88%     100%     + 12%     �
when needed.                      (1,439)        (38)                             (732)    (V

Didn’t feel the need to seek
out-of-plan care, excluding
dental, routine eye, and           93%          97%     +4%         �             86%     96%      + 10%     �
emergenthrgent care.              (1,397)        (35)                             (696)    (27’)

MedkA care received
through the HMO caused
beneficiaries’ health to:

     b     improve                53%           65%     + 12%       �             41%     47%      +6%       @
                                  (772)          (24)                             (296)    (14)
     b     stay about the same    45%           35%     -lo%        (-J           49%     53%      +4%       @
                                  (649)          (13)                             (383)    (16)
     b     worsen                                                                 10%      o%      -lo%      ~
                                                                                  (86)      (o)




Primary HMO doctor never

failed to take beneficiary’s      88%           94%     +6%         �             76%     85%      +9%       e

health COm@inta    seriously.     (1349)        (33)                              (650)    (23)





                                                            74

� Above average             @        Average                O   Below average           NS Not suftlcient data


HMO ID#:H2206                              Enrollees                                    Dkenrollees
                                           (N = 41)                                      (N =35)
Bene&ky Responsesto Key      All          m        %Diff.       Comp.            All    This      %Diff.   Comp.
&uvey @@iOllS by Ca@ory     EMos          HMO                                   EMos    HMO

Most important to primary
HMO doctor was:

  b     giving the best
        medical care        86%           92%      +6%            �             72%      93%      +11%      @
        possible            (1,197)        (33)                                 (471)    (26)

                             9%            8%                                   26%      7%
  b	    holding down the
                             (120)          (3)
                                                   -1%            @
                                                                                (162)     (2)
                                                                                                  -19%      o
        cost of care

Most important to the HMO
was:

  b    giving the best
       medical care          74%          74%          o%         03            S8%      83%      +25%      �
       possible             (1,036)        (26)                                 (387)    (19)

       holding down the     15%           17%                                   36%      13%
  b	
                            (213)          (6)
                                                   +2%            @
                                                                                (230)     (3)
                                                                                                  -23%      o
       cost of care




                                                       75

               HEALTH             ALLIANCE                      PLAN            OF      MICHIGAN

           No. Enrollees: 2,822                    Total No. fkunpkd: 98                   Total No. Respondents: 57

           Model ~-~. Group                              Not For-Profit                           Competitive



� Above average                    @        Average                 O   Below average             NS Not suffkient data


HMO ID #: H 2312	                                  Enrollees                                      Disenrolkes
                                                   (N = 31)                                        (N =26)
Benetkky  Reqmnsea to Key          All           This       %Diff.      Comp.            Au       ‘I@       %Diff.     Comp.
Snrvey Questionsby Category       EMos           HMO                                    EMos      HMo

lJIML?%f      SIXEE~ZVG

Was p@ asked at application
about health problems,
excluding kidney failure and       63%           88%       +25%           �             58%       39%       -19%        03
hospice care.                      (717)          (15)                                  (430)      (5)

Physical exam was n-               96%           96%           O%         @             98%        95%          -3%     (B
required before joining.          (1,295)         (25)                                  (824)       (19)

tJiWJERST’ANIMNGUFHAfOS

Did know they could change
their minds about enrolling        88%           88%           o%         (B            82%       64%       -18%        o
after they applied.               (1,078)         (15)                                   (611)      (7)

Did know, from the
beginning, they must be
referred to a specialist by        89%           87%        -2%           e             84%       71%       -13%        o
their primary HMO doctors.        (1,444)         (26)                                  (852)      (15)

Did know, from the
beginning, they wuld only
use HMO doctors and
hospitals (except emergent
care and urgent care outside       96%           97%        +1%           @             93%       87%           -6%     @
the service area.)                (1,585)         (30)                                  (958)      w)

Did know they had the right

to appeal an HMO’s refiwal         74%           76%        +2%           @             67%       53%       -14%        @

to providelpay for services.      (1,113)         w)                                    (523)      (lo)





For scheduled appointments

with primary HMO doctors,

JSUdly waited kss than 13          85%           52%        -33%          o             82%       59%       -23%        o

hys.                              (1,276)         (13)                                  (681)      (13)





                                                               76

 � Above average                  @        Average             O   13elow average           NS Not suftlcient data


HMOlD#:H2312                                      Enrolka                                   Disenrolleea
                                                  (N = 31)                                   (N=26)
Beneficiary Rasponseato Key       Au            This     %Dirf.    Comp.             All    This      %Diff.   Comp.
Survey Queslionsby Category      EMos           HMo                                 RMos    HMo

For scheduled appointments
with specialists, usually         81%           68%      -13%        o              75%      60%      -15%      e
waited less than 13 days.         (970)          (13)                               (477)     (9)

When very sick, was able to
get a doctor’s appointment        93%           92%      -1%         e              89%      81%       -8%      e
within 1 to 2 days.               (942)          (12)                               (453)     (13)

usually waited less than 1
hour in the office to see         95%           96%      +1%         e              87%      94%       +7%      03
primary HMO doctor.              (1,431)         (27)                               (704)     (17)

Consistently busy telephone




Primary HMO doctor never
failed & provide needed           96%           93%      -3%         o              88%     100%      + 12%     �
Medicare services.               (1,475)         @n                                 (744)    (19)

Primary HMO doctor never
failed & refer to a specialist    96%           93%      -3%         e              88%     100%      +12%      g
when needed.                     (1,439)         (28)                               (732)    (20)

Didn’t feel the need to seek
out-of-plan care, excluding
dental, routine eye, and -        93%           85%      -8%         o              86%     88%       +2%       @
emergentlurgent care.            (1,397)         @3)                                (696)    (14)

Me&al care received
through the HMO caused
beneficiaries’ health to:

                                                                                    41%     63%       +22%      �
                                                                                    (2%)     (lo)
                                                                                    49%     38%       -11%      @
                                                                                    (383)    (6)
  b     wonsen                                                                      10%      o%       -lo%
                                                                                    (86)     (o)                e



Primary HMO doctor never

failed to take beneficiary’s     88%            86%      -2%         @              76%     74%        -2%      e

health comphints SeliOUSly.      (1349)          (25)                               (650)    (14)





                                                             77

.        Above average        @        Average             O   Below average           NS Not suffkient data


HMO ID #: H 2312                             Enrollees                                 DMenrollees
             —                               (N= 31)                                    (N =26)
Benetkky Reapoasesto Key       All          This     %Dit’f.   Comp.            All    This     %Diff.   Comp.
fkrvey Questionsby Category   HMos          HMO                                EMos    HMO

Most important to primary
HMO doctor was:

    F      giving the best
           medical care        86%          70%      -16%        o             72%     83%      +11%      03
           possible           (1,197)        (19)                              (471)    (lo)

    b	     holding down the    9%           15%      +6%                       26%      17%      -9%      @
                               (120)         (4)
                                                                 �             (162)
           cost of care                                                                  (2

Most important to the HMO
Wss:

    F      giving the best
           medical care        74%          81%      +7%         @             58%     90%      + 32%     �
           possible           (1,036)        (21)                              (387)    (9)

           holding down the   15%           12%                                36%     10%
    b
                              (213)          (3)
                                                     -3%         e
                                                                               (230)    (1)
                                                                                                -26%      o
           cost of care




                                                         78
                          PRIME            HEALTH                  KANSAS               CITY             (MO)

             No. Enrollees: 6,320                          Total No. tkrnpled: 99                     Total No. Respondents: 62
               ModeI ~pe: SW
                                                                 For-Profit                                  Competitive



     �     Above average                @       Average                  o    Below average                  NS Not sufficient data

     HMO ID #: H 2649
                                                       Enrollees                                            Disenrolkes
                                                       (N = 42)                                              (N = 20)
     Benefiby Reapo~     to Key
                                        An           This         %Dify.      Comp.             Au
     Survey (hmationsby Category                                                                             T&       %xMr.   Comp.
                                       HMos          HMO
                                                                                               EMos          HMO
 HIMLz!!        XXWENING

 Was ~t asked at application
 about health problems,
 excluding kidney failure and          63%           32%          -31%            o            58%
 hospice care.                                                                                               17%      -41%         o
                                       (717)          (8)                                      (430)          (1)
 Physical exam was n-                  96%
 ~uired before joining.               (1,295)
                                                     85%         -11%             o            98%          100%      +2%         e
                                                      (22)                                      (824)         (8)
 VAUJEWT!iD~G              UF HMOS

 lid know they could change
 heir minds about enrolling            88%          96%          +8%              e            82%
 ,fter they applierl.                 (1,078)                                                               75%       -7%         @
                                                     (22)                                      (611)         (6)
 )id know, from the
 qginning, they must be
 >ferred to a specialist by           89%           92%          +3%              @            84%
 leir primary HMO doctors.                                                                                  77%      -7%          @
                                     (1,444)         (34)                                      (852)         (lo)
 ~idknow, from the
 e-g,      they could only
 w HMO doctors and
 wpitals (except emergent
 ue and urgent care outaide          96%           100%          +4%          �               93%          100%
 ~eService area.)                    (1,585)                                                                         +7%       e
                                                    (41)                                      (958)         (14)
 id know they had the right
.0appeal ~ HMO’S ~f&                  74%          72%           -2%          @               67%
o providelpay for services.          (1,113)                                                               88%      +21%      g
                                                    (26)                                      (523)         (7)




vith primary HMO doctors,

Lwlallywaited less than 13           85%           89%          +4%           e               82%
ays.                                (1,276)                                                                90%      +8%       @

                                                    (32)                                      (681)         (9)




                                                                  79

       � Above aveqe                   @       Average                o   Below average                NS      Not sufficient data

   ~0      ID #: H 2649
                                                         Enrollees                                    D:senrollees
                                                         (N = 42)
                                                                                                       N = 20)
   Bene_     Reapoass to Key
                                        All           This      %~.           Comp.
   tkrvey Questioasby Category                                                               Au         This        %DM      Comp.
                                      IIMos          IIIWo                                  EMos       HMO
   For Scheduld appotitments
   with specialists, usually
   Wtited 1.sssthan 13 diiyS.
                                      81%           97%         + 16%             �         75%        67%          -8%
                                      (970)          (32)	                                                                       e
                                                                                            (477)       (4)
   When very sick, was able to
   get a doctor’s appointment
                                      93%          100%         +7%
   within 1 to 2 tiys.                                                            @         89%       100%         +11%
                                      (942)         (34)                                                                         03
                                                                                            (453)      (4)
  Usually Wtited less than 1
  hour in the office to see
                                      95%           97%         +2%
  primary HMO doctor.                                                         @             87%       91%          +4%
                                     (1,431)         (38)                                                                        03
                                                                                            (704)      (lo)
  c onsistently busy telephone
   mes did w hinder bene’s
  1“
                                     90%           100%        +10%           @
  making appointments.                                                                      89%       100%         +11%          @
                                     (780)          (29)                                    (425)      (4)
  s ERV.CjRY

  m “V      HMO doctor never
 fal“led to provide needd
                                     96%          100%
 M edicare service.q.               (1,475)
                                                                +4%           �            88%        90%          +2%          ~
                                                   (41)                                    (744)       (9)
 Prl“miuY HMO doctor never
 failed to refer to a specialist
                                     96%           98%         +2%            e            88%       100%
 when need~.                        (1,439)         (39)                                                          + 12%      �
                                                                                           (732)      (lo)
 Di &’t f~l the nd to s~k

 out -of-plan care, excludhg

 denM, routine eye, and
                                    93%           95%          +2%
 emergentiurgent care.                                                    e                86%       89%          +3%        @

                                   (1,397)         (35)                                    (696)      (8)

Med ical care received

through the HMO caused

beneficitim’ health to:


   b      improve                  53%            51%          -2%        @               41%       56%          + 15%      @
                                   (772)           (18)
   b                                                                                      (296)       (5)
          stay about the same      45%            46%         +1%                         49%       44%
                                   (649)           (16)                   @                                       -5%
                                                                                          (383)      (4)                    e
   b      Worsen                   2%             3%
                                                              +1%                         10%       o%
                                    (32)           (1)                    e                                      -lo%       @
                                                                                           (86)      (o)
PERS Ohuu TWP’ENT

Primary HMO doctor never

failed to take beneficiq’s
                                   88%           85%          -3%
health compltik    seriously.                                             @               76%       85%          +9%        ~

                                   (1349)         (34)                                    (650)      (11)





                                                                80

.        Above average           @       Average             ()   Below average            NS Not sufficient data


HMO ID #: H 2649                               Enrollees                                   DMenrollees
                                               (N= 42)                                      (N = 20)
                                                                             ——
Bm@iary ReapoIuesto Key          All           This    %DW.       Comp.             &l     This     %DM.    Comp.
Survey Questionsby Category     EMos          II&lo                               Ic&fos   HMo

Most important to     primary
HMO doctor was:

    b      giving the best
           medical care         86%           87%      +1%          03            72%      78%      +6%       @
           possible             (1,197)        (34)                               1471)     (7)

    b	     holding down the       9%          13%      +4%                        26%      22%       ~%       *
                                 (120)                              @
           cost of care                        (5)                                (162)     (2

Most important to the HMO
was:

    b	     giving the best
           me&al care           74%           87%     +13%          �             58%      60%      +2%       @
           possible             (1,036)       (32)                                (387)     (6)

    b      holding down the     15%           14%      -1%                        36%      40%      +4%       @
                                                                   e
           cost of care         (213)          (5)                                (230)     (4)




                                                           81

                                      TOTAL           HEALTH                CARE           (MO)
T


                 No. Enrollees: 7,233                   Total No. %znpkd: 99                   Total No. Respondents: 71

                  Model ~pe: IPA                              Not For-Profit                          Competitive



     �     Above average                 @       Average               O   Below average              NS Not suftlcient data


    HMO ID #: H 2652	                                   Enrollees                                     Dkmrollees
                                                        (N= 43)                                        (N =28)
    Beneficiary
              Reaponsesto Key            An           This      %I!MY.     Comp.             All      This     %DitT.      Comp.
    key     QIIWfiOIIS   by Catqory     EUWOS         E&lo                                  HIWs      HMO

    IflWjl!if#     SCJU!?ZNW$TG

    Was p@ asked at application
    about health problems,
    excluding kidney failure and         63%          25%       -38%           o            58%        16%         -42%     o
    hospice care.                        (717)         (8)                                  (430)       (3)

    Physical exam was n-                 96%          95%        -1%           @            98%       100%      +2%         e
    required before joining.            (1,295)        (35)                                 (824)      (27)

    uNDE@iW14A!JXNG 0$’ JJMUS

    Did know they could change
    their minds about enrolling          88%          78%       -lo%         o              82%       75%          -’1%     C13
    after they applied.                 (1,078)        (21)                                 (611)      (15)

    Did know, from the
    beginning, they must be
    referred to a specialist by          89%          95%       I-6%         03             84%       100%     + 16%        �
    their primary HMO doctors.          (1,444)        (35)                                 (852)      (27’)

    Did know, from the
    beginning, they could only
    use HMO doctors and
    hospitals (except emergent
    care and urgent care outside         96%         100%       +4%         e               93%       100%     +7%          @
    the service area.)                  (1,585)       (41)                                  (958)      (28)

    Did know they had the right
    to appeal an HMO’s refbsal           74%          74%       -o%         e               67%       75%      +8%          e
    to providelpay for services.        (1,113)        (29)                                 (523)      (’0




For scheduled appointments
with primary HMO doctors,
usually Wtited 1sss than 13              85%         97%       + 12%        03             82%        100%     + 18%       �
days.                                   (1,276)       (37)                                 (6S1)       @a




                                                                    82

 .       Above average              @       Average                 O   Below average           NS Not suffkient data


 HMO ID # H 2652	                                  Enrollees                                    DMenrolkes
                                                   (N= 43)                                       (N= 28)
 Beneficiary
           Responsesto Key          Au           This      %Diff.       Conlp.           An     This     %DM.    Comp.
 Survey Quest.ioIIsby Category     EMos          En’lo                                  EMos    HMO

 For scheduled appointments
 with specialists,   usually        81%          81%           0%         @             75%     96%      +21%     �
Wd(d      kSS   than 13   dllyS.    (970)         (6)                                   (477)    (-23)

When very sick, was able to
get a doctor’s appointment          93%          100%      +7%            @             89%     100%     + 11%    @
within 1 to 2 days.                 (942)         (32)                                  (453)    (17)

usually Wilitd kss than 1
hour in the office to see           95%          98%       +3%            e             87%     93%      +6%      e
primmy HMO doctor.                 (1,431)        (40)                                  (704)    (25)

Consistently busy telephone
lines dld @ hinder bene’s          90%          100%      + 10%           e             89%     94%      +5%      03
making appointments.               (780)         w)                                     (425)    (16)

Awm?M2Es

Primary HMO doctor never
failed to provide needed            96%          93%       -3%            o             88%     96%      +8%      @
Medkare services.                  (1,475)        (37,)                                 (744)    (26)

Primary HMO doctor never
failed to refer to a specialist     96%          87%       -9%            o             88%     92%      +4%      @
when needed.                       (1,439)        (33)                                  (732)    (24)

Didn’t feel the need to seek

out-of-plan cam, excludiig

dental, routine eye, and            93%          95%      +2%            03             86%     96%      + 10%    �

emergentJurgent care.              (1,397)        (37)                                  (696)    (26)


Medical care received

through the HMO caused

beneficiaries’ health to:


     b    improve                  53%          56%       +3%            @	             41%     29%      -12%     gl
                                                                                        (296)
                                                                                        49%     6?%      + 18%
                                                                                        (383)   (16)
                                                                                                                  �
                                                                                        10%     4%       ~~
                                                                                        (86)     (1)              e




Primary HMO doctor never

failed to take beneficiary’s       88%          87%        -1%           e              76%     88%      + 12%    �

health complaints seriously,       (1349)        (34)                                   (650)    (22)





                                                               83

 .        Above averqe          @       Average             o   Mow     average            NS Not suf’flcient data

 ~01D#H2652
                                              Enrollees                                   Disenrolkes
                      —
                                              (N= 43)                                      (N = 28)
Beneficiary Reapoms to Key
                                All          This    %Diff.     Comp.
key    (kx.ioas by Category                                                         Au    This      %mff.    Comp.
                               HMos          HMO                                  EMos    HMO
Most impotit       to pri~
HMO doctor      W=:


     b	    giving the best
           medical care        86%          84%       -2%        e                72%     73%       +1%
           possible           (1,197,)       (31)                                                             e
                                                                                  (471)    (16)
     b	    holding down the     9%          11%      +2%                          26%
                                                                 @                        18%       -8%       ~
           cost of care        (120)         (4)                                  (162)    (4)
Most impo~t       ~ the HMO
was;

     b	    giving the best
           medical care        74%          74%       ()%       03                58%
           possible           (1,036)                                                     61%      +3%        ~
                                             (28)                                 (387)    (14)
 b	        holding down the   15%           16%      +1%                          36%     22%
           cost of w          (X3)           (6)                e3                                 -14%       ~
                                                                                  (230)    (3




                                                     84

                     SHARE           HEALTH                     PLAN               OF   NEBRASKA

         No. Enrollecs: 3,256
                                                    Total No. &unpkd: 100                             Total No. Respondent:         75
           Model &e: IPA
                                                            For-Profit                                     Non-Competitive


  � Above average                    @       Average                  O   IMOWaverage                        NS Not .sUfKcientdata

 ~0     ID #: H 280z
                                                    Enrollees
                                                                                                            Disenrollees
                                                    (N=    38)
                                                                                        —..                   (N =37)
 Benefjc& Respoaws to Key
                                     Au            This         %~.
 %ey    Que&.ioasby Category                                              Comp.                All           This          %Diff.
                                    EMos           HMo                                                                               Comp.
                                                                                              EMos           HMO
HWZW        Scl?J?jIINWG

Was ~t asked at application
rnbouthealth problems,
>xcluding kidney failure and
                                    63%           74%       +11%               ~
lospice care.                                                                                 58%            73%        + 15%            @
                                    (717)          (17)
                                                                                              (430)           (16)
?hysical exam was not
                                    96%          100%       +4%
equired before job-g.                                                      @                  98%           100%        +2%              ~
                                   (1,295)        (32)
                                                                                              (824)          (25)
7NDlHw’.’.B~G          UF.HiUOS

)id know they could chrume
leir minds about enrolling
                                    88%          85%        -3%            @
fter they applied.                 (1,078)                                                    82%           67%         -15%             o
                                                  w)                                          (611)          (14)
~idkUOW,from the
egirming, they must be
:fermd to a s&ialist by
                                   89%           89%        o%
[eir primary HMO doctors.                                                  e              84%               82%         -2%
                                  (1,444)        (31)                                                                                e3
                                                                                              (852)          (28)
 id know, from the
 :ginning, they could only
se HMO doctirs ~d

ospitals (except emergent

are and urgent care outside
                                   96%          94%        -2%
le service ~.)                                                            03              93%              89%          -4%          @

                                  (1,585)        (34)                                     (958)             (31)

lid know they had the right

} appeal an HMO’s refbaal
                                 74%            85%       +11%            �
Iprovidelpay for services.      (1,113)                                                   67%              66%          -1%          @

                                                 (29)                                     (523)             (19)


mMN?’MEm
x scheduled appointments

ith primary HMO doctors,

ually waited less than 13        85%
ys.
                                               100%       + 15%           �
             82%              100%       + 18%          �
                                (1,276)         (35)	                                    (681)             (29)



                                                            85

 � Above average                   @       Average              O   Below average            NS Not suffkient data


HMOlD#H2802                                       Enrollees                                  Disenrdees
                                                  (N = 38)                                    (N=37)
Benefi&uyResponsesto Ksy            An           m        %DM.       Comp.           All      This        %Diff.   Comp.
Survey Questioosby Categow        EMos          HMO                                 EMOS     HMO
                                                                              —.
For scheduled appointments
with .qxXialkts, usually           81%          97%      + 16%        �             ’75%      92%     + 17%         �
Wtited kss than 13 &yS.            (970)         (29)                                (477)     (24)

When very sick, was able to
get a doctor’s appointment        93%           100%      +7%         @             89%       91%         +2%       03
within 1 to 2 days.               (942)          (23)                               (453)      (19)

usually waited leas than 1
hour in the office to see          95%          97%       i-2%        e             87%       97%     +10%          e
primary HMO doctor.               (1,431)        (35)                               (704)      (29)

Consistently busy telephone
lines dld ~t hinder bene’s        90%           100%     + 10%        e             89%      94%          +5%       e
making appointments.              (780)          (15)                               (425)     (17)



Primary HMO doctor never
failed to provide needed           96%          94%       -2%         e             88%      91%          +3%       @
Medieare services.                (1,475)        (34)                               (744)     (29)

Primary HMO doctor never
failed to refer to a specialist   96%           97%       +1%         @             88%      91%          +3%       @
when needed.                      (1,439)        (35)                               (732)     (29)

Didn’t feel the need to seek
out-of-plan care, excluding
&ntal, routine eye, and           93%          100%       +7%         �             86%      82%          -4%       @
emergentiurgent care.             (1,397)        (34)                               (696)     (V

Medical care received
through the HMO caused
beneficiaries’ health to:

  b      improve                  53%           69%      + 16%        �             41%      39%          -2%       @
                                  (772)                                             (296)     (12)
  b      stay about the same      45%           3?;      -14%         (-J           49%      58%          +9%       @
                                  (649)          (lo)                               (383)     (18)
  b      women                                                                      10%       3%          -7%
                                                                                    (86)       (1)                  e




Primary HMO doctor never

failed to take beneficiary’s      88%           89%       +1%         e             76%      70%          -6%       @

health coqdaints seriously.       (1349)         (32)                               (650)     @l)





                                                              86

                               HEALTH               PLAN           OF       NEVADA

        No. Enrollees: 13,794                    Total No. Sampled: 99

         Model ~’~.    (kqI                             Fw-IW%
                                                              ——
                                                               ‘-”E


 .    Above average               @       Average              0     Be&’ avcmqge                NS Not sufllcient data


 HMO ID #: H 2931                                Enrollees                                       Disenrollees
                                                 (N= 42)                                          (N = 34)
                                                                   ..——               ,— -
BenefkisrgResponsesto Key          An           m       %Wf.          Comp.                  M   This      %Diff.   Comp.
SurveyQuestionsby Category       EMos          HMO                                      YfBlos   HMO
                                                                            ——
HJA4LTH SCRZ?ZWEVG
                                                                                 .—
Was g@ asked at application
about health problems,
excluding kidney faihne and       63%          68%       +5%            @                58%      63%       +5%      e
hospice care.                     (717)         (23)                                     t430)     (17)
                                                                      —     —..s




Did know they could change
their minds about enrolling       88%          94%       +6%            e                82%     93%       +11%      @
after they applied.              (1,078)        (29)                                     (611)    (27)

Did know, from the
beginning, they must be
referred to a specialist by       89%          90%       +1%           @                 84%     97%       +13%      �
their primary HMO doctors.       (1,444)        (36)                                     (852)    (31)

Did know, from the
beginning, they could only
use HMO doctors and
hospitals (except emergent
care and urgent care outaide     96%           98%      +2%           e                  93%     100%      +7%       e
the service area.)               (1,585)       (39)                                      (958)    (32)

Dld know they had the right
to appeal an HMO’s refksal        74%          81%      +7%           e3                 67%     65%        -2%      03
to provide/pay for services.     (1,113)        (30)                                     (523)    (17)




For scheduled appointments
with primary HMO doctors,
usually waited less than 13      85%
                                (1,276)
                                              58%       -27%          O                 82%      59%       -23%      o
days.                                          (=)                                      (681)     (17)




                                                             88

�       Above average             @        Average             O    Below average           NS Not suflkient data


HMO ID #: H 2931                                 Enrollees                                  Duenrollees
                                                 (N = 42)                                    (N = 34)
Beneficiary Reaponseato Key        Au            This    %DifT.      Comp.           All    ‘llIis     %DifT.    Comp.
Survey Queatioasby Catego~        mos           IUWo                                HMos    HMo

For scheduled appointments
with specialkts, usually          81%           67%      -14%         o             75%      55%       -20%       o
waited less than 13 days.         (970)          (20)                               (477)    (11)

When very sick, was able to
get a doctor’s appointment        93%           71%      -22%         o             89%      72%       -17%       o
within 1 to 2 days.               (942)          (17)                               (453)     (13)

usually waited less than 1
hour in the office to see          95%          97%      +2%          @             87%      86%          -1%     %3
primary HMO doctor.               (1,431)        (36)                               (704)     (24)




Primary HMO doctor never
failed to provide needed           96%          97%      +1%          @             88%      85%          -3%     e
Medicare services.                (1,475)        (36)                               (744)     (22)

Primary HMO doctor never
failed to refer to a specialist    96%          95%          -1%      @             88%      89%          +1%     @
when needed.                      (1,439)        (36)                               (732)     (-,?5)

Didn’t feel the need to seek
out-of-plan care, excluding
dental, routine eye, and           93%           95%     +2%          e             86%      85%          -1%     @
emergentiurgent care.             (1,397)         (36)                              (696)     (23)

Medkal care received
through the HMO caused
beneficiaries’ health to:

    b      improve	               53%            47%         -6%      e             41%      56%       + 15%       @
                                   (772)          (17)                              (296)     (14)
    b                             45%            44%                                49%      32%
           stay about the same	
                                  (649)           (16)
                                                             -1%      e
                                                                                    (383)      (8)
                                                                                                          -17%     o
    b      worsen	                2%              8%     +6%                        io%      Ii%          +2%
                                   (32)            (3)                 �             (86)     (3)                  e




Primary HMO doctor never

failed to take beneficiary’s      88%            82%         -6%       o            76%      54%          -12%     o

health cmnolainta seriouslv.      (1349)          (31)                              (650)     (13)





                                                              89

.        Above average        @      Average            O    Below average               NS Not sufficient data


HMO ID #: H 2931                           Enrollees                                     DMenrollees
             —                             (N = 42)                                       (N = 34)
                                                                          ——.
Benefk&ry Reapoasesto Key      Au         This     %DH.       Comp.              Au      This     %Diff.   Comp.
!krvey Qwstioas by Category   EMos        HMO                                  ‘&UVIOs   HMO
                                                                      .—. .—
Most important to primary
HMO doctor WSS:

    b      giving the best
           medkal care        86%         90%      -4%         @               72%        71%      -1%      e
           possible           (1,197)      (28)                                (471)      (12)

           holding down the    9%          o%                                  26%        24%      -2%
    b	
                              (120)         (o)
                                                   -9%         o               {162)       (4)
                                                                                                            e
           cost of care

Most important to the HMO
was:

    b      giving the best
           medical care        74%        79%      +5%         e               58%        61%      +3%      @
           possible           (1,036)      (V                                  (387)       (11)

           holding down the   15%          6%                                  36%        28%      -s%      ~
    b	
                              (213)        e)
                                                   -9%         o               (230)       (5)
           cost of care




                                                       90

                                          FHP,        INC.          (NV)           ——

        No. Enrollees: 4,341                 Total No. Sampled: 99

          Model &M: IPA                                FoAhwflt
                                                    “-7                       ~



.     Above average              @     Average               0    Below average                   NS Not stilcient    data


HMO ID # H 2949	                             Enrollees                                            Disenrolkes
                                             (N = 32)                                              (N =26)
                                                                          —        !—
BenefkiaryResponsesto Key        Au         This       %Diff.      Uolq                  Au       This      %Diff.    Comp.
flurvey Questioas by Category   EMos        HMO                                         HMos      HMo
                                                                  .——     ——.
HEALTH SCREENING
                                                                   ——.
Was ~t asked at application
about health problems,
excluding kidney failure and    63%         76%        +13%         @                    58%       74%      + 16%      e
hospice care.                   (717)        w)                                           {430)     (14)
                                                                   .—         —~        .
Physical exam was @              96%        97%        +1%          @                   98%       100%      +2%        03
required before joining.        (1,295)      @s)                                        (824)      (23)



Did know they could change
their minds about enrolling      88%        93%        +5%          e                   82%        83%      +1%        @
after they applied.             (1,078)      (28)                                       (611)       (19)

Did know, from the
beginning, they must be
referzed to a specialist by      89%        100%       +11%         �                   84%        84%          O%     61
their primary HMO doctors.      (1,444)      (30)                                       (852)       (21)

Did know, from the
beginning, they could only
use HMO doctors and
hospitals (exeept emergent
care and urgent care outside     96%        97%        +1%          @                   93%        89%          -4%    @
the serviee area.)              (1,585)      (29)                                       (958)       (23)

Did know they had the right
to appeal an HMO’s refusal       74%        89%        + 15%        �                   67%        73%      +6%        @
to providelpay for services.    (1,113)      W                                          (523)       (11)




I?or scheduled appointments

with primary HMO doctors,

usually Wtited less than 13      85%        89%        +4%          @                   82%       71%       -11%       @

hys.                            (1,276)      m                                          (681)      (lo)





                                                         91

 .       Above average             @      Average             O   Below average             NS Not suffkient data


HMO JD #: H 2949                                Enrollees                                   DEenrollees
                                                (N = 32)                                     (N =26)
                                                                              —.
Benefi&ry Responsesto Key          AU          This     %Difx      Comp.            An       This     % Diff.   Comp
SluveyQuestionsby Catqory         HMos         HMO                                 W$los    HMO
For scheduled appointments
with specialists, usually         81%          75%      -6%         @              ’75%      50%      -25%       0
waited less than 13 days.         (970)         (12)                                (477)     (5)

When very sick, was able to
get a doctor’s appointment        93%          100%     +7%         e              $9%       56%      -33%       c)
within 1 to 2 days.               (942)         (12)                               (453)      (5)

Uswdly WSited less than 1
hour in the office to see          95%         100%     +5%         e              87%       73%      -14%       o
primary HMO doctor.               (1,431)       (26)                               (704)      (11)

Consistently busy telephone

lines did g@ hinder bene’s        90%          100%    + 10%        e              89%       80%       -9%       e





Primary HMO doctor never
failed to provide needed           96%         100%     -t 4%       �              88%       88%          o%     e
Medkare services.                 (1,475)       (28)                               (1’44)     (15)

Primary HMO doctor never
failed to refer to a specialist    96%        100%      +4%         �              88%      88%           o%     @
when needed.                      (1,439)      (28)                                (732)     (15)

Didn’t feel the need to seek
out-of-plan care, excludiig
dentd, routine eye, and            93%        100%      +7%         �              86%      87%       +1%        (B
emergentlurgent care.             (1,397)      (V                                  (696)     (13)

Medkal care received
through the HMO caused
beneficiaries’ health to:

     b     improve                53%          48%      -5%         @	             41%      29%       -12%       e
                                                                                   (.2%)     (4)
                                                                                   49%      64%      + 15%       @
                                                                                   (383)     (9)
     b     worsen                                                                  10%       7%       -3%        @
                                                                                    (86)     (1)



Primary HMO doctor never

failed to take beneficiary’s      88%          96%      +8%         �              76%      71%       -5%       e

health complaints seriously.      (1349)        (27)                               (650)     (12)





                                                            92

.        Above average        @       Average             O   Below average              NS Not suftlcient data


HMO ID #: H 2949                            Enrollees                                    Dkenrollees
                                            (N= 32)                      ..-              N=m
Bene&ii Responses to Key       Au           This    %DifY.     Comp.              m       This     %rm.      Comp.
&uveyQuestionsby Category     EMos         EIMo                                  mos     HMO
                                                                               ..—.
Most important to primary
HMO doctor was:

    b      giving the best
           medical care        86%         92%      +6%         �                72%      83%      +11%       @
           possible           (1,197)       (23)                                 (471)     (5)

    b      holding down the   9%            8%      -1%                          26%      17%          -9%    @
                                                                @                          (1)
           cost of care       (120)          (2)                                 (162)

Most important to the HMO
was:

    b	     givingthe best
           medkzd care         74%         82%      +8%         @                58%      33%      -25%       o
           possible           (1,036)       Q2)                                  (387)     (3)

                              15%           4%                                   36%      44%
    b	     holding down the
           cost of care       (213)          (1)
                                                    -11%        o                (230)     (4)
                                                                                                   +8%        @




                                                        93

                                         FHP,      INC.          (NM)                .


       No. Enrollees: 16,234                Total No. fkmpkd: 97

         Model ~pe: IPA                            For-Profit
                                                                         ‘:-    ‘=



.    Above average             @      Average             O     Below average                NS Not suffkient data


HMO ID #: H 3204                            Enrollea                                         DMenrollees
                                            (N= 31)                                           (N =28)
                                                                               ——
Beneficiary
          Reapomwto Key         Au         This     %Xliff.      Coaqk            Au         This      %Diff.   Comp.
Survey Questioasby Category    EMos        HMO                                   mm          HMO



Was ~t asked at application

about health problems,

excluding kidney failure and   63%         48%      -15%          @                  58%      48%      -lo%      e

hospice care.                  (717)        (11)                                     (430)     (11)





Dld know they could change
their minds about enrolling     88%        89%      +1%           @                  82%      71%      -11%      e
after they applied.            (1,078)      (25)                                     (611)     (15)

Did know, from the
beginning, they must be
referred to a specialist by     89%        93%      +4%           e                  84%     85%       +1%       @
their primary HMO doctors.     (1,444)      (26)                                     (S52)    m)

Did know, from the
beginning, they could only
use HMO doctors and
hospitals (except emergent
care and urgent care outside    96%        97%      +1%           e                  93%      96%      +3%       @
the service area.)             (1,585)      (28)                                     (958)     (27)

Dld know they had the right
to appeal an HMO’s refusal     74%         56%      -18%          o                  67%      76%      +9%       @
to providelpay for services.   (1,113)      (14)                                     (523)     (16)




For scheduled appointments

with primary HMO doctors,

usually Wllitd k  than 13       85%        78%      -7%           e                  82%      83%      +1%       @

days.                          (1,276)      (18)                                     (681)     (19)





                                                       94
 .        Above average           @       Average              O   Below average            NS Not suftlcient data


HMOlD#H3204                                     Enrollees                                   D~llees
                      —                         (N = 31)                                     (N = 28)
                                                                              .——.
Btnefkimy Responsesto Key          Au          This     %Diff.     Comp.             Au     This        %DitY.   Comp.
hey    Questionsby Category       EMos         HMo                                 IIMos    HMO

For scheduled appointments
with specialists, usually         81%          84%      +3%          e             75%      63%         -12%      e
waited less than 13 days.         (970)         (16)                               (477)     (12)

When very sick, was able to
get a doctor’s appointment        93%          94%      +1%          e             89%       93%        +4%       e
within 1 to 2 days.               (942)         (15)                               (453)      (14)

usually Wtitd   kSS than 1
hour in the office to see         95%          96%      +1%          e             87%      100%        +13%      �
primary HMO doctor.               (1,431)       (.23)                               (704)    (3

Consistently busy telephone
lines did ~t hinder bene’s        90%          92%      +2%          @             89%       92%        +3%       e
making appointments.              (780)         (12)                               (425)      (11)



Primary HMO doctor never
failed to provide needed           96%         89%       -7%         o             88%       91%        +3%       e
Medicare services.                (1,475)       (24)                                (744)    (21)

_         HMO doctor never
failed to refer to a specialist    96%         100%     +4%          �             88%       86%         -2%      e
when needed.                      (1,439)       (26)                               (732)     (19)

Didn’t feel the need to seek
out-of-plan care, excluding
dental, routine eye, and          93%          88%      -5%          o             86%       64%        -22%      o
emergenthrgent care.              (1,397)       (21)                               (696)     (14)

Medical care received
through the HMO caused
beneficiaries’   health to:

     b      improve               53%          62%      +9%          e             41%       26%        -15%      e
                                  (772)         (16)                               (296)
     b      stay about the same   45%          39%      -6%                        49%       5:%        +9%       @
                                                                     @
                                  (649)         (lo)                               (383)      (11)
     b      worsen                2%           o%       -2%                        10%       16%        +6%       ~
                                   (32)          (o)                 e              (86)       (3)




Primary HMO doctor never

failed to take beneficiary’s      88%          96%      +8%          �             76%       85%        +9%       e

health complaints seriously.      (1349)        (25)                               (6S0)      (17)





                                                            95
�       Above average        @      Average                o   B&&wWvm-age            NS Not suffkient data


HMO ID #: H 3204                          Enrollees                                   Dkenrollees
                                          (N = 31)                                     (N = 28)
                                                               ——.        —
Bene&iary Reaponseato Key     Au         This     %M.           Comp.          All     This     %Biff.    Comp.
Survey Questionsby Catqory   HMos        HMO                                  Iw40s   HMO
                                                                -——--.   -—
Most important to primary
HMO doctor was:

    b     giving the best
          medkal care         86%        86%          0%         e            7’2%     67%          -5%    03
          possible           (1,197)      (19)                                (471)     (lo)

    b     holding down the   9%           5%      ~%             @            26%      33%      +7%        ~
          cost of care       (120)         (1)                                (162)     (5)

Most important to the HMO
was:

  b       giving the best
          medical care        74%        73%      -1%            e            58%      59%      +1%        e
          possible           (1,036)      (19)                                (387)     (lo)

  b       holding down the   15%          8%      -7%                         36%      41%      +5%
                                                                 e                                         e
          cost of care       (213)         (2                                 (230)     m




                                                      96

                                QUA L-MED                      INC.      (NM)

        No. Enrollees: 279                   Total No. Sampled: 51                 Total No. Respondents: 39

         Model &e:     IPA                          For-Profit                            Competitive



.    Above average             @       Average             O     Below average            NS Not sufilcient data


HMO ID #: H 3249                             Enrollees                                    DMenrollees
                                             (N = 39)                                      (N=O)
Beneficiary
          Reaponsea
                 to Key         All          This    %DitY.      Comp.            .$      This     %Diff.      Comp.
&mvey Quealionsby Category     EMos         HMo                                  EMos     HMo

HEALTH SCREENING
Was @ asked at application
about health problems,
excluding kidney failure and   63%          91%     +28%           g             58%                            NS
hospice care.                  (717)         (29)                                (430)

Physical exam was n-           96%          97%      +1%           @             98%                            NS




Did know they could change
their minds about enrolling     88%         88%          o%        e             82%                            NS
after they applied.            (1,078)       (30)                                (611)

Did know, from the
beginning, they must be
referred to a specialist by     89%         92%      +3%           @             84%                            NS
their primary HMO doctors.     (1,444)       (33)                                (852)

Dld know, flom the
beginning, they could only
use HMO doctors and
hospitals (except emergent
care and urgent care outaide    96%         95%      -1%           @             93%                            NS
the service area.)             (1,585)       (35)                                (958)

Did know they had the right
to appeal an HMO’s Aid          74%         80%      +6%           03            67%                            NS
to providelpay for services.   (1,113)       (28)                                (523)




For scheduled appointment
with primary HMO doctors,
usually Wtiti less than 13      85%         97%     + 12%          e             82%                            NS
days.                          (1,276)       (31)                                (681)




                                                         97

 �     Above average                @         Average             O   Below average              NS   Not suffkient data


HMOlD#H3249                                         Enrollees                                    DMenrollees
                    —                               (N = 39)                                      (N=O)
                                                                                  .-—
Beneficii Responsesto Key             An           This     %Diff.     Comp.             All      This     % Diff.   Comp.
Survey Questionsby Catego~          HMO?           Imlo                                 KMos     HMo

For scheduled appointments
with specialists, usually           81%            87%      +6%         @               -75%                          NS
waited less than 13 days.           (970)           (20)                                (477)

When very sick, was able to
get a doctor’s appointment          93%            88%      -5%         e               89%                           NS
within 1 to 2 days.                 (942)           (14)                                (453)

usually Wd3d     km than 1
hour in the office to see            95%           97%      +2%         @               87%                           NS
primary HMO doctor.                 (1,431)         (30)                                (704)

Consistently busy telephone
lines dld ~t hinder bene’s          90%            100%    + 10%        @               89%                           NS




Primary HMO doctor never
ftiled to provide      needed        96%           97%      +1%         @               88%                           NS
Me&xre     services.                (1,475)         (33)                                (744)

_         HMO doctor never
failed to refer to a specialist      96%           100%     +4%         �               88%                           NS
when needed.                        (1,439)         (34)                                (732)

Didn’t feel the need to seek
out-of-plan care, excluding
dental, routine eye, and             93%           86%      -7%         o               86%                           NS
emergent.lurgentcare.               (1,397)         (30)                                (696)

Me&cal care receiwxl
through the HMO caused
beneficiaries’ health to:

   b      improve                   53%            55%      +2%         e               41%                           NS
                                    (772)           (18)                                (2%)
   b      stay about the same       45%            46%      +1%                         49%                           NS
                                                                        e
                                    (649)           (15)                                (383)
   b      worsen                    2%             o%       -2%                         10%                           NS
                                     (32)           (o)                 e                (86)



Primary HMO doctor never

failed to take beneficiary’s        88%            80%      -8%         o               76%                           NS

health conqdainta      seriously.   (1349)          (28)                                (6S0)





                                                                98

�      Above average           @       Average                  O   Below average               NS Not sufficient data


HMOlD#H3249                                   Enrollees                                         DNenrollees
                                              (N = 39)                                           (N=O)
                                                                               .—.
Beneficiary
          Reaponsea
                  to Key       Au           This      %Diff.        Comp.              All       This    %DW.     Comp.
!krvey Questionsby Category                 mwo
                                                                                    —.ifrfwos   HMO
                              EMos

Most important to primary
HMO doctor was:

  b	     giving the best
         me&cal care          86%           85%       -1%             e               72%                          NS
         possible             (1,197)        Q8)                                      {471)

  b      holding down the      9%            9%           ()%                         26%                          NS
                               (120)                                  e
         cost of care                         (3)                                     (162)

Most importaut to the HMO
was:

  b      giving the best
         medical care         74%           64%       -lo%            o               58%                          NS
         possible             (1,036)        (21)                                     (387)

  b      holding down the     15%           15%           ()%                         36%                          NS
                                                                      03
         cost of care         (213)          (5)                                      (230)




                                                          99

         No. Enrollees: 43,921                    Total No. Sampie& 99

         Model ty’-~: Group                             Not For?rofit
                                                                                :~



 �      Above average             @        Average               o   Below WWr’age                NS Not sufficient data
                                                                     ——                —.
HMO ID #: H 3330                                  EnroUeea                                        Dkenrollees
                                                  (N =40)                                          (N = 32)
                                                                 ————.-              .——..
BeneficiaryResponsesto Key         Au            This      %Diff.       Comp”               All    This     % Biff.   Comp.
&rvey   QllE@iODS by   Catqory   HMos           HMO                                     WOS       HMO

MWLT@ SCREENING
                                                                                -—
Wss =t asked at application
about health problems,
excluding kidney failure and      63%           50%        -13%           @             58%        67%      +9%        03
hospice care.                     (717)          (5)                                    (430)       (lo)

Physid    exam was n@             96%           100%       +4%            e             98%        87%      -11%       o
requiredbefore joining.          (1,295)         m                                      (824)       (13)

UA!BRRSXMAUMNG@FHMOs

Did know they could change
their minds about enrolling       88%          100%       + 12%           �             82%       86%       +4%        @
dler they applied.               (1,078)        (11)                                    (611)      (12)

Did know, from the
beginning,they must be
referred to a specialist by       89%           87%        -2%            @             84%       86%       +2%        @
heir primary HMO doctors.        (1,444)         (32)                                   (852)      (25)

Did know, from the
wginning, they could only
Me HMO doctors and
lospitals (except emergent
:are and urgent care outside      96%           97%        +1%            @             93%       90%       -3%        e
he service area.)                (1,585)         (37)                                   (958)      @n

 Didknow they had the right
 o appeal an HMO’s retisal        74%           82%        +8%            �             67%       67%           O%     e
co providelpay for services.     (1,113)         (27)                                   (523)      (16)




For scheduled appointments

with primary HMO doctors,

usually waited less than 13       85%           68%       -17%            o             82%       46%       -36%       o

days.                            (1,276)         (X)                                    (681)      (11)





                                                             100

 .       Above average             (B     Average                 O   Below average           NS Not stilcient   data


HMO ID #: H 3330                                Enrollees                                     DKenrollees
             —                                  (N =40)                                        (N = 32)
Beneficiary
          Reaponsea
                  to Key           Au          This     %Diff.        Comp.            All    This     %Diff.    Comp.
SurveyQueatioas
              by Category         HMos         HMO                                    EMos    HMo
For scheduled appointments
with specialists, usually         81%          58%      -23%            o             75%      54%      -21%      o
waited kws than 13 &VS.           (970)         (19)                                  (473     (14)

When very sick, was able to
get a doctor’s appointment        93%          94%      +1%             (1)           89%      75%      -14%      o
within 1 to 2 davs.               (942)         (30)                                  (453)    (12)

Usudy Wi&d       km than 1
hour in the office to see          95%         75%      -20%            o             87%      48%      -39%      o
primary HMO doctor.               (1,431)       Q-o                                   (704)    (13)

Consistently busy telephone
lines did g@ hinder bene’s        90%          67%      -23%            o             89%      52%      -37%      o
making   appointments.            (780)         (18)                                  (425)    (13)



Primary HMO doctor never
failed to provide needed           96%         97%      +1%             03            88%      82%      -6%       e
Medicare services.                (1,475)       (34)                                  (744)     (22)

Primary HMO doctor never
failed to refer to a specialist    96%         94%          -2%         e             88%      89%          +1    e
when needed.                      (1,439)       (32)                                  (732)     Q3)

Didn’t feel the need to seek
out-of-plan care, excluding
dental, routine eye, and           93%         83%          -lo         0             86%      79%          -7    Q3
emergentlurgent care.             (1,397)       (29)                                  (696)     (19)

Medkal care received
through the HMO caused
beneficiaries’   health to:

     b     improve	               53%          65%     +12%             �             41%     25%       -16%      @
                                  Cn)           (22)                                  (296)
     b     stay about the same	   45%          32%      -13%            o             49%     St%       +1%       (B
                                  (649)        (11)                                   (383)    (lo)
     b     worsen	                2%           3%       +1%                           10%     25%      +15%       �
                                   (32)         (1)                     e             (86)      (5)




Primary HMO doctor never

failed to take beneficiary’s      88%          91%      +3%             03            76%     83%       +7%       e

health complaints seriously.      (1349)        (32)                                  (650)    (19)





                                                             101

�        Above average        @      Average             o     Belovrllverage               NS Not sufficient data



HMO ID #: H 3330                           Enrollees                                        D~enrollees
                                           (N= 40)                                           (N = 32)
                                                                            —-----
Beoeficiary Respo~ to Key      All        This     %Diff.       Comp.                 An    This      %DitY.    Comp.
&mvey @@iOOS by Ca@ory        HMos        HMO                                       IIMos   HMo
                                                                       ——       .
Most important to primary
HMO doctor was:

    b      giving the best
           medical care       86%         87%      +1%            03                72%      77%      +5%        (B
           possible           (1,197)      (26)                                     (471)     (13)

    b	     holding down the   9%          10%      +1%                              26%      24%          -2%
                                                                  03                                             @
           cost of care       (120)        (3)                                      (162)     (4)

Most important to the HMO
was:

    b      giving the best
           medical care        74%        82%      +8%            @                 58%      47%      -11%       @
           possible           (1,036)      @m                                       (387)     (13)

    b	     holding down the   15%         15%          ()%                          36%      53%      + 17%
                                                                  e                                              e
           cost of care       @3)          (3                                       (230)     (4)




                                                        102

     SANUS             HEALTH                 PLAN         OF         GREATER                      NEW        YORK
                                                                               ——
        No. Enrollees: 5,794                      Total No. !bIpkd:      100                  Total No. Respondents: 70
                                                                                      I
          Model ~pe: IPA                                  For-Profit                                 Competitive



 .    Above average                @        Average              O     Below awrage                  NS Not sufilcient data


HMO ID #: H 3354                                   Enrollees                                         Disenrollees
                                                   (N = 41)                                           (N = 29)
                                                                                  —.
Wm&iarYResponsesto Key             Aa            ‘n&       %Diff.      Comp.               .All      This      %Diff.     Comp.
SurveyQuestionsby Category        EM(3S          HMO                                      Wos        HMO
                                                                                          —
HZXLTH S4X?.EEIWJYG
                                                                                  —.
Was ~t asked at application
about health problems,
excluding kidney failure and       63%           71%       +8%           e                58%         63%       +5%        e
hospice care.                      (717)          (24)                                    (430)        (12)

Physical exam was n~               96%           90%       -6%           o                98%        91%        -7%        o
required before joining.          (1,295)         (34)                                     (824)      (21)

UN~l!H?WWWl?$G         OF’J&&JS

Did know they could change
their minds about enrolling        88%           92%       +4%           @                82%        73%        -9%        al
alter they applied.               (1,078)         (34)                                     (611)      (16)

Did know, from the
beginning, they must be
referred to a specialist by        89%           90%       +1%           e                84%        78%        -6%        (B
their primary HMO doctors.        (1,444)         (35)                                    (S52)       (18)

Did know, from the
beginning, they could only
use HMO doctors and
hospitals (except emergent
care and urgent care outside       96%           97%       +1%          @                 93%        83%       -lo%        o
the service area.)                (1,585)         (37)                                    (958)       w)

Did know they had the right
to appeal so HMO’s refusal         74%           69%       -5%          @                 67%        80%       +13%        e
to providefpay for services.      (1,113)         @a                                      (523)       (8)




I?or scheduled appointments
with primary HMO doctors,
usually waited less than 13        85%           88%      +3%           e                 82%        86%       +4%        03
days.                             (1,276)         (29)                                    (681)       (12)




                                                               103

 .        Above average            @      Average            O    Beiow average           NS Not sufllcient data


HMO ID #: H 3354                                Enrolkea                                  Dmenrollees
             —	                                 (N = 41)                                   (N = 29)
                                                                             ——
BeneficialResponsesto Kq           Au           This   %DitT.     tip.             AIi     This    % Diff.   Comp,
SmVey QueatioIMby Category        EMos         HMO                            . —-HMos    HMO
For scheduled appointments
with specialists, usually         81%          86%     +5%          @             75%      80%      +5%       e
waited less than 13 days.         (970)         (12)                              (477)     (8)

When very sick, waa able to
get a doctor’s appointment        93%          75%     -18%         0             $9%     100%     + 11%      e
within 1 to 2 days.               (942)         (9)                               {453)    (5)
                                                                             ,—
usually waited lem than 1
hour in the office to see          95%
                                  (1,431)
                                               81%
                                                (26)
                                                       -14%         Q             87%      75%      -12%      o
primary HMO doctor.                                                               (704)     (12)
                                                                          ——.
Consistently busy telephone
lines did ~t hinder bene’s        90%          86%     -4%          @             89%      67%      -22%      o
making   appointment.             (780)         (6)                               (425)     G)



Primary HMO doctor never
failed to provide needed           96%         97%     +1%          e             88%      92%      +4%       e
Medkxue services.                 (1,475)       (36)                              (744)     (12)

Primary HMO doctor never
failed to refer to a specialist    96%         94%     -2%          e             aa%      86%      -2%       e
when needed.                      (1,439)       (29)                              (732)     (12)

Didn’t feel the need to seek
out-of-plan care, excluding
dental, routine eye, and           93%         94%     +1%          e             86%      92%      +6%       @
emergent.furgentcare.             (1,397)       (32)                              (696)     (12)

Medical care received
through the HMO caused
beneficiaries’ health to:

     k      improve	              53%          47%     -6%          @             41%      8%      -33%       c)
                                  (772)         (16)                              (296)     (1)
     *	     stay about the same   45%          50%     +5%                        49%      62%     +13%       @
                                  (649)         (17)
                                                                    e
                                                                                  (383)     (8)
                                                                                  io%     3ik      +21%       g
                                                                                  (86)     (4)



Primary HMO doctor never

failed to take beneficiary’s      /38%         91%     +3%          e             76%     71%       -5%       e

health complaints seriously.      (1349)        (32)                              (650)    (lo)





                                                           104

�      Above average          @       Average            ~      %ek)w smwswge            NS      Not suffkient   data



HMO ID # H 3354                             Enrollm                                      DMenrollees
            —                               (N = 41)                                      (N = 29)
                                                                           .——. .
Beneficiary Reaponseato Key    Au          This    % ~mm         Comp.             All   This         %Diff.     Comp.
Survey Questionsby Category   EMos         HMO                                  WWs      HMO
                                                             .. —.——.       —..”..
Most important to primary
HMO doctor was:

  b      giving the best
                                                                  ~
         medical care          86%         77%     -9%                          ‘?2%      50%          -22%       o
         possible             (1,197)       (24)                                 @71)      (4)

  b	     holding down the      9%          16%     +7%                          26%       50%         +24%         g
                                                                  *
         cost of care         (120)         (5)                                 {162)      (4)

Most important to the HMO
was:

  b      giving the best
         medical care         74%          67%     -7%            (B            58%      50%           -8%        @
         possible             (1,036)       (20)                                {387)      (4)

  b      holding down the     15%          17%     +2%                          36%      50%          + 14%       ~
                                                                  @
         cost of care         (213)         (5)                                 (,230)     (4)




                                                       105

            KAISER             FOUNDATION                              HEALTH           PLAN         (OH)

       No. Enrollees: 13,842                        Total No. %mpkd: 98                   Total No. Respondents: 70

        Model t@x Group                                 Not For-Profit                         Non-Competitive



 �   Above average               03       Average                 O    Below average             NS Not suftlcient data


HMO ID #: H 3607                                    Enrollees                                   DKenrolleea
                                                    (N = 38)                                     (N= 32)

Beneficiq Respoases tn Key       Au             This        %Diff.      Comp.           Au       This     % Diff.     Comp(
Survey Quealioasby Ca@gory      HMos            IllWo                                  EMos      HMo

JWIILIX.? S~lUJENllVG

Was ~t asked at application
about health problems,
excluding kidney failure and     63%           48%          -15%         e             58%       44%        -14%       e
hospice care.                    (717)          (lo)                                   (430)      m




Did know they could change
their minds about enrolling      88%           84%          -4%          @             82%       50%      -32%         o
after they applied.             (1,078)         (16)                                   (611)      (8)

Did know, from the
beginning, they must be
referred to a specialist by      89%           80%          -9%          o             84%       73%      -11%         @
their primary HMO doctors.      (1,444)         (28)                                   (852)      (22)

Did know, from the
beginning, they could only
use HMO doctors and
hospitals (except emergent
care and urgent care outside     96%           94%          -2%          e             93%       80%      -13%         o
the service area.)              (1,585)         (34)                                   (958)      (24)

Did know they had the right
to appeal an HMO’s refusal       74%           76%          +2%          @             67%       40%      -27%         o
b  providelpay for services.    (1,113)         (25)                                   (523)      (lo)

                                                                                                                              I

For scheduled appointments

with primary HMO doctors,

usually waited less than 13      85%           30%         -55%          o             82%       32%      -50%         o

days.                           (1,276)         (lo)                                   (681)      (8)





                                                                106

�       Above average             @       Average                O   Below average           NS Not suftlcient data


HMO ID # H 3607                                 Enrollees                                    DNenrollees
                                                (N = 38)                                      (N = 32)
                                                                                —
Beneficii Responsesto Key          Au           This      %Diff.      Comp.           Au      This     %DifF.    Comp.
Survey Questionsby Category       EMos         HMo                                   m’los   HMO
For scheduled appointment
with specialists, usually         81%          35%        -46%         o             75%      28%      -47%       o
waited less than 13 days.         (970)         (9)                                  (477)     (5)

When very sick, was able to
get a doctor’s appointment        93%          93%          o%         e             89%      84%          -5%    e
within 1 to 2 days.               (942)         (26)                                 (453)     (16)

Usually waited less than 1
hour in the office to see          95%         97%        +2%          @             87%      83%          -4%    @
primary HMO doctor.               (1,431)       (32)                                 (704)     (19)

Consistently busy telephone
lines did ~t hinder bene’s        90%          68%        -22%         o             89%      74%      -15%       o      II
Primary HMO doctor never
failed to provide needed
Medkare services.

Primary HMO doctor never
                                   %%
                                  (1,475)
                                               100%
                                                (35)
                                                          +4%          �             88%
                                                                                     (744)
                                                                                              79%
                                                                                               (-23)
                                                                                                           -9%    o
                                                                                                                         II
failed to refer to a specialist    96%         97%        +1%          e             88%      86%          -2%    e
when needed.                      (1,439)       (34)                                 (732)     (24)

Didn’t feel the need to seek
out-of-plan care, excluding
dental, routine eye, and          93%
                                  (1,397)
                                               89%
                                                (32)
                                                            -4%        o             86%
                                                                                     (696)
                                                                                              70%
                                                                                               (19)
                                                                                                       -16%       0
emereentiurgent care.

Medkal care received
through the HMO caused
beneficiaries’ health to:

          improve                 53%                     +5%                        41%      32%          -9%
                                                                                                                         II
    b                                          58%                                                                 e
                                                                       e
                                  (772)         (21)                                 (2%)      (8)
    b     stay about the same	    45%          36%          -9%                      49%      40%          -9%
                                                                       e                                           e
                                  (649)         (13)                                 (383)     (lo)
    b     worsen                   2%
                                   (32)
                                                6%
                                                    (2)
                                                          +4%
                                                                       �
                                                                                     10%
                                                                                      (86)
                                                                                              23%
                                                                                               0)
                                                                                                       +18%        �



Primary HMO doctor never

failed to take beneficiary’s      88%          92%        +4%          @             76%      68%          -8%     63

health complaints seriously.      (1349)        (34)                                 (650)     (19)





                                                             107

�        Above average        @      Average             ~       BE40WWfW?$&                  NS Not sufilcient data



HMO ID #: H 3607                           Enrollees                                          Disenrollees
             —                             (N = 38)                                            (N = 32)
                                                             —                 .,-—
Beneficiary Responsesto Key    Au         This       %Dim.        Comp.             All        This     % Din.     Comp.
Survey Questionsby Catfgory   HMos        mo                                       mos         HMO
                                                               .——         .. .   . .
Most important to primsry
HMO doctor was:

    b      giving the best
           medcsl care        86%         91%        +s%           63                 72%      65%           -7%    e
           possible           (1,197)      (29)                                       (471)     (11)

    b	     holding down the   9%           6%          -3%                            26%      35%       +9%
                                                                   @                                                6!3
           cost of care       (120)         (2)                                       (162)     (6)

Most important to the HMO
Wss:

    b      giving the best
           medical care        74%        84%        +10%          �                  58%      53%           -5%    e
           possible           (1,036)      (26)                                       (387)     (lo)

    b      holding down the   15%          10%         -5%                            36%      47%       +11%
                                                                   e                                                @
           cost of care       (213)            (3)                                    (230)     (9)




                                                        108

                              PA CIFICARE                    OF      OKLAHOMA

            No. Enrollees: 5,077                Total No. Sampled: 100                      Total No. Respondents: 80
                                                                                     .-
            Model t@x Group                             For-Profit                                Non-Competitive



�      Above average               @      Average              O     Below average                  NS Not sufficient data


HMO ID #: H 3749                                 Enrollees                                         D~enrollees
                                                 (N = 41)                                           (N= 39)
                                                                                .—
Beneficii  Responsesto Key          All        This      %M.          Comp.           Au            This      %Diff.    Comp.
fkrvey (&l@iOliS by Catqory        EMos        HMo                                   E&K%           HMO

H&U!JW         SCIWMWNG

Was ~t asked at application

about health problems,

excluding kidney failure and       63%         63%           o%        e              58%            78%      +20%       �

homice care.                       (717)        (z                                    (430)           (25)





Did know they could change
their minds about enrolling         88%        87%        -1%          e                  82%        82%         O%      03
after they applied.                (1,078)      (32)                                      (611)       (28)

Dld know, from the
beginning, they must be
referred to a specialist by         89%        98%        +9%          �                  84%        78%         -6%     @
their primary HMO doctors.         (1,444)      (39)                                      (852)       @5)

Did know, from the
beginning, they could only
use HMO doctors and
hospitals (except emergent
care and urgent care outside        96%        100%       +4%          �                  93%        94%         +1%     e
the service area.)                 (1,585)      (40)                                      (958)       (31)

Did know they had the right
to appeal an HMO’s refusal          74%         76%       +2%          e                  67%        48%         -19%    o
to providelpay for services.       (1,113)       (28)                                     (523)       (11)




For scheduled appointments

with primary HMO doctors,

USllldlyWilitd km than 13          85%          92%       +7%          e                  82%        81%         -1%      (B

days.                              (1,276)       (33)                                     (681)       (2$





                                                             109

�     Above average              @       Average              O   Below average           NS Not sfilcient    data


HMO ID #: H 3749                               Enrollees                                  DEenrolleeS
                                               (N= 41)                                     (N = 39)
Bene&iary Responsesto Key         Au          This     %Diff.     Comp.            Au     This      % Diff.   Comp,
LJurveyQuestionsby Category      EMos         EMo                                 EMos    HMO

For scheduled appointments
with specialists, usually        81%          83%      +2%          e             75%      71%       -4%       @
Wtited less than 13 dilYS.       (970)         (20)                               (477)     (15)

When very sick, was able to
get a doctor’s appointment       93%          100%     +7%          e             89%      81%       -8%       @
within 1 to 2 &Ys.               (942)         (19)                               (453)     (13)

Usually waited less than 1
hour in the office to see         95%         100%     +5%          e             87%      84%       -3%       03
primary HMO doctor.              (1,431)       (34)                               (704)     (26)

Consistently busy telephone
lines dld ~t hinder bene’s       90%          94%      +4%          e             89%      85%       -4%       e




Primary HMO doctor never
failed to provide needed          96%
                                 (1,475)
                                              97%      +1%          e             88%      68%      -20%       o
Medicare services.                             (34)                               (744)     (21)

Primary HMO doctor never
failed to refer to a specialkt    96%
                                 (1,439)
                                              97%
                                               (35)
                                                       +1%          @             88%
                                                                                  (732)
                                                                                           66%
                                                                                            (19)
                                                                                                    -22%       o
when needed.

Di&’t feel the need to seek
out-of-plan care, excluding
dental, routine eye, and          93%         92%       -1%         @             86%      89%      +3%        e
emergenthrgent care.             (1,397)       (33)                               (696)     (23)

Medkal care nxeived
through the HMO cased
beneficiaries’ health to:

  b      improve                 53%
                                 (772)
                                              37%
                                               (13)
                                                       -16%         o             41%
                                                                                  (296)
                                                                                           28%
                                                                                             (8)
                                                                                                    -13%       @

  b      stay about the same     45%          54%      +9%                        49%      48%       -1%
                                                                    @                                          e
                                 (649)         (19)                               (383)     (14)
  b      worsen                  2%           9%                                  10%      24%
                                                       +7%                                          + 14%
                                  (32)          (3)                 �              (86)      m                 �


Primary HMO doctor never

failed to take beneficiary’s     88%          91%      +3%          e             76%      69%       -7%       e

health cornP1aintsSeIiOUSIY.     (1349)        (32)                               (650)     (20)





                                                           110

.        Above average        @       Average             o     Below average                     NS Not stilcient   data


HMO ID #: H 3749                            Enrollees                                             DMnroUees
                                            (N= 41)                                                (N= 39)
                                                               ——                 ... .
Benefkiary Respons~ to Key     Au          This     % mm.       Comp.                  J&U        This     %Biff.    Comp.
Survey Quealionsby Category   EMos         3JM0                                      lIMOs        HMO
                                                        —.—.—           . .. ..
Most important to primary
HMO doctor was:

    b      giving the best
           medical care        86%         79%      -7%           o                   72%         58%       -14%      e
           possible           (1,197)       (23)                                      (471)        (14)

    b	     holding down the   9%           17%      -M%           e                   26%         38%      + 12%      e
           cost of care       (120)         (5)                                       (162)        (9)

Most important to the HMO
was:

    b      giving the best
           medical care        74%         64%      -lo%          o                   .58% 44%              -14%      @
           possible           (1,036)       w)                                        P87)         (12)

           holding down the   15%          28%      +13%                              36%          48%     + 12%
    b	
                              (213)         (10)
                                                                  �                       (230)    (13)
                                                                                                                       e
           cost of care




                                                        111

    U.S.        HEALTH              CARE            SYSTEMS                 OF     P!3NNSYLVANIA


         hio.Enrollees:   20,354                Total No. Sampkd: 99
                                                                            .,—    .—
                                                                                        Total No. Respondents: 71
           Model ~ptx IPA                              For-Profit                              Competitive
                                                                            —



�       Above average              @      Average             O     Below avemge               NS Not suftlcient data


HMO ID #: H 3931                                Enrollees                                      Dkenrollees
                                                (N= 39)                                         (N = 32)
                                                                                  —.—
Benetkiary Responsesto Key          Au         This     %Ditr.      Comp.            All       This      %DM.       Comp.
&uvey @16tiOIIS by Catqory         EMos        HMO                                  mos        HMo

HEALTH SCREENING

Was @ asked at application
about health problems,
excluding kidney failure and       63%         69%      +6%           e             58%         86%      +28%        �
hospice care.                      (717)        (11)                                (430)        (12)

Physical exam was n@               96%         91%      -5%           e             98%        100%      +2%         03




Dld know they could change
their minds about enrolling         88%        85%      -3%           e             82%         92%      + 10%       e
afler they applied.                (1,078)      (17)                                (611)        (11)

Did know, from the
beginning, they must be
referred to a specialist by         89%        92%      +3%           @             84%         93%      +9%         e
their primary HMO doctors.         (1,444)      (34)                                (852)        (26)

Did know, from the
beginning, they could only
use HMO doctors and
hospitals (except emergent
care and urgent care outside        96%        95%      -1%           e3            93%         96%      +3%         @
the service area.)                 (1,585)      (36)                                (958)        (27)

Dld know they had the right
to appeal an HMO’s refusal          74%        77%      +3%           e             67%         91%      +24%        �
to provide/pay for services.       (1,113)      (27)                                (523)        (19)




For scheduled appointments

with primary HMO doctors,

usually waited less than 13         85%       100%     + 15%          �             82%         92%      + 10%       03

days.                              (1,276)     (34)                                 (681)        (23)





                                                            112

�     Above average               @      Average             O    Below average           NS Not sufllcient data


HMO ID #: H 3931                               Enrollees                                  Dwnrollees
             —                                 (N = 39)                                    (N = 32)
Benelicii Responsea
                  to Key           Au          This    %Diff.     Comp.            Au      This     %Diff.    Comp.
SIUVeyQuestionsby Category        EMos        HMo                                 HMos    HMo
For scheduled appointments
with specialists, usually         81%         90%      +9%          e             75%      86%      +11%       e
Wtited km than 13 &yS.            (970)        (26)                               (477)     (18)

When very sick, was able to
get a doctor’s appointment        93%         100%     +7%          e             89%      94%         +5%     03
within 1 to 2 days.               (942)        w)                                 (453)    (17)

usually waited less than 1
hour in the office to see          95%        100%     +5%          e             87%      S3%         -4%     @
Pti      HMO doctor.              (1,431)      (33)                               (704)     (20)

Consistently busy telephone
lines dld @ hinder bene’s         90%         M%       -2%          e             89%     100%      +11%       03
making appointments.              (780)       (14)                                (425)    (12)



Primary HMO doctor never
failed to provide needed           96%        97%      +1%          e             88%      88%         o%      e
Medicare services.                (1,475)      (33)                               (744)     (22)

Primary HMO doctor never
failed to refer to a specialist    96%        94%      -2%          e             88%      88%         o%      e
when needed.                      (1,439)      (32)                               (732)     (21)

Didn’t feel the need to seek
out-of-plan care, excluding
dental, routine eye, and           93%        94%      +1%          e             86%      91%         +5%     e
emergenthrgent care.              (1,397)      (34)                               (696)     (21)

Medical cam received
through the HMO caused
beneficiaries’ health to:

  b      improve                  53%         68%     + 15%         �             41%      64%      +23%       �
                                  (772)                                           (296)     (16)
  b      stay about the same      45%         2?;      -16%         O             49%      36%         -13%    e
                                  (649)        (lo)                               (383)      (9)
  b      worsen                                                                   10%       o%         -lo%
                                                                                  (86)      (o)                @




Primary HMO doctor never

failed to take beneficiary’s      88%         94%      +6%          �             76%      84%         +8%     e

health comphinta seriously.       (1349)       (34)                               (650)     (21)





                                                           113

�       Above average        @       Average             O    .Belowaverage           NS Not sufficient data


HMO ID #: H 3931                           Enrollees                                  Dlsenrolkes
                                           (N = 39)                                    (N = 32)
                                                                        .—
Beneticky Responses to Key    AU          This     %DM.        Comp.           Ml     This      %Diff.   Comp.
Smvey Questionsby Ca&gory    HMos         HMo                                 HtWos   HMO
                                                                       —.—.
Most important to primary
HMO doctor was:

    b     giving the best
          medical care       86%          86%          o%       e             72%      86%      + 14%     (J)
          possible           (1,197)       (24)                               (471)    (19)

    b     holding down the
          cost of care
                              9%
                             (120)
                                           7%
                                            (2)
                                                   -2%          @
                                                                              26%
                                                                              (162)
                                                                                       9%
                                                                                       (2)
                                                                                                -17%      o
Most important to the HMO
was:

  b	      giving the best
          medical care        74%         69%      -5%          (1)           58%      78%      +20%      �
          possible           (1,036)       (22)                               (387)     (19)

  b	      holding down the
          cost of care
                             15%
                             (213)
                                          13%
                                           (4)
                                                   -2%          @
                                                                              36%
                                                                              (230)
                                                                                       13%
                                                                                        (3)
                                                                                                -23%      o




                                                       114

HUM ANA                HEALTH                PLAN      OF         TEXAS    —. (CORPUS                 CHRISTI)
                                                                                 .—
       No.Enrollees:       5,486                Total No. !knpkd:     95
                                                                     —..—    -
                                                                                            Total No. Respondents: 54

          Model ~pe: IPA                               For-Profit                                 Non-Competitive
                                                                                      —



�    Above average                 @      Average             0     Below average                   NS Not suftlcient data


HMOlD#H4504	                                    Enrollees                                          Disenrollees
                                                (N= 30)                                             (N = 24)
                                                                     — .—            ——
BenefkkuyReapomesto Key             Au          ‘m&     %m.          ~om~                 .J$ll      This     %nW.      Comp.
Survey QuestioILsby Category       EMos        HMo                                    HMos          HMo
HEALTH SCREENING
                                                                                 .
Wss ~t asked at application
about health problems,
excluding kidney failure and       63%         4’7%     -16%          03                  58%       41%       -17%       @
hospice care.                      (717)        (9)                                       (430)      (?)

Physical exam was n@                %%         93%       -3%          @                   98%        96%          -2%    e
required before joining.           (1,295)      (26)                                      (824)       (21)

UVDERST@lMVG           OF HMOS

Did know they could change
their minds about enrolling         88%        87%          -1%       e                   82%        95%      +13%       e
after they applied.                (1,078)      (20)                                      (611)       (18)

Did know, from the
beginning, they must be
referred to a specialist by         89%        82%          -7%       @                   84%        91%      +7%        e
their primary HMO doctors.         (1,444)      w)                                        (852)       (21)

Did know, from the
beginning, they could only
use HMO doctors and
hospitals (except emergent
care and urgent care outside        96%        93%          -3%       @                   93%        96%      +3%        e
the service area.)                 (1,585)      @m                                        (958)       w)

Dld know they had the right
to appeal an HMO’s refusal          74%        71%          -3%       e                   67%        75%      +8%        e
to providelpay for services.       (1,113)      @)                                        (523)       (12)




For scheduled appointments

with primary HMO doctors,

usually Wtited less than 13         85%        100%     + 15%         �                   82%       100%      +18%        �

davs.                              (1,276)      (28)                                      (681)      @)





                                                             115

�       Above average             @       Average             O     Below average            NS Not sufllcient data


HMO ID #: H 4504                                Enrollees                                    Dknrollees
             —                                  (N= 30)                                       (N= 24)
Beneficiary
          Respoasesto Key          An           ‘nlk    %lxfr.       Comp.           All      This        %Biff.   Comp.
Survey Queatioasby Category       HMos         HMo                                  mios     HMO
For scheduled appointments
with specialists, usually         81%          82%      +1%           (13           75%       73%          -2%      @
waited less than 13 days.         (970)         (18)                                ,(477)     (11)

When very sick, was able to
get a doctor’s appointment        93%          96%      +3%           @             89%       88%          -1%      e
within 1 to 2 davs.               (942)         (21)                                (453)      (7)

Usually Wilitd   k-as than 1
hour in the office to see          95%
                                  (1,431)
                                               87%
                                                (26)
                                                            -8%       o             87%
                                                                                    (704)
                                                                                              79%
                                                                                               (15)
                                                                                                           -8%      03
primary HMO doctor.

Consistently busy telephone

lines dld ~t hinder bene’s        90%          100%     + 10%         03            89%      100%         +11%      e

making appointments.              (780)         (15)                                (425)     (11)




Primary HMO doctor never
failed to provide needed           96%         100%     +4%           �             88%       90%         +2%       e
Medkare services.                 (1,475)       (29)                                (744)      (18)

Primary HMO doctor never
failed to refer to a specialist    96%
                                  (1,439)
                                               86%
                                                (25)
                                                        -lo%          o             88%
                                                                                    (732)
                                                                                              90%
                                                                                               (17)
                                                                                                          +2%       e
when needed.

Didn’t feel the need to seek
out-of-plan care, excluding
dental, routine eye, and           93%         93%          o%        e             86%       79%          -7%      @
emergentlurgent care.             (1,397)       W)                                  (696)      (15)

Medical care received
through the HMO caused
beneficiaries’ health to:

    b     impmve                  53%          48%          -5%       e             41%       28%         -13%       03
                                                                                     Q%)
                                                                                    49%       6?%         + 12%      ~
                                                                                     (383)     (11)
                                                                                    10%       11%          +1%
                                                                                     (86)       (2)                  e




Primary HMO doctor never

failed to take beneficiary’s      88%          90%      +2%           @             76%       75%          -1%       @

health co~hinta seriously.        (1349)        (26)                                (650)      (15)





                                                             116

.        Above average        @       Average             O     Below average           NS Not stilcient     data


HMO ID#:H4504                               Enrollees                                   Dlsenrollees
                                            (N = 30)                                     (N =24)
Beneficiary Reapoasesto Key    Au          ‘Ink     %Diff.       Comp.           Au       This    %Diff.     Comp.
Smvey Queatioasby Category    HMos         HMo                                  EIWos    IIIWo

Most important to primary
HMO doctor was:

    b      giving the best
           medical care        86%         85%          -1%       03            72%      77%       +5%        e
           possible           (1,197)       (23)                                (471)     (lo)

    b      holding down the   9%            7%          -2%                     26%      23%           -3%
                                                                  @                                           @
           cost of care       (120)          Q)                                 (162)     (3)

Most important to the HMO
was:

    b      giving the best
           medical care        74%         89%      + 15%         �             58%      69%       + 11%      e
           possible           (1,036)       (23)                                (387)     (9)

    F	     holding down the   15%           8%          -7%                     36%      31%           -5%
                                                                  @                                           e
           cost of care       (213)         Q)                                  (230)     (4)




                                                         117

 HUM ANA                 HEALTH            PLAN           OF      TEXAS —. (SAN              ANTONIO)


         No. Enrollees: 9,584                 Total No. Sampled: 98

           Model ~pe: IPA                            For-Profit
                                                                                  -=



�       Above average            @      Average             O     Below average             NS Not suftlcient data


HMO ID #: H 4510	                             Enrollees                                     Dwnrollees
                                              (N =23)                                        (N = 19)
Beneficiary
          Responsato Key          All         This    %Diff.      Comp.                Au    ‘n&     %m.      Comp.
%uvey Qoeationsby Category      HMos         HMo                                   HMos     HMO


Was at asked at application
about health problems,
excluding kidney failure and    63%
                                (717)
                                             40%
                                              (6)
                                                      -23%          o              58%                         NS
hospice care.                                                                      (430)

Physical exam was @             96%          100%     +4%           e              98%                         NS




Dld know they could change
their minds about enrolling      88%         89%      +1%           @              82%                         NS
after they applied.             (1,078)       (16)                                 (611)

Did know, from the
beginning, they must be                                                                                        NS
referred to a specialist by      89%
                                (1,444)
                                             73%      -16%          o              84%
their mimarv HMO doctors.                     (16)                                 (852)

Did know, from the
beginning, they could only
use HMO doctors and
hospitals (except emergent
care and urgent care outside    96%
                                (1,585)
                                             91%      -5%           o              93%                         NS
the service area.)                            (20)                                 (958)

Did know they had the right
to appeal an HMO’s refusal      74%
                                (1,113)
                                             63%      -11%          o              67%                         NS
LOprovidelpay for services.                   (12)                                 (523)




For scheduled appointments
with primary HMO doctors,
usually WSited less than 13     85%
                                (1,276)
                                             70%
                                              (14)
                                                      -15%          o              82%                         NS
days.                                                                              (681)



                                                          118

�      Above average             @       Average             O     IMOWaverage              NS Not suffkient data


HMO ID #: H 4510                               Enrollees                                    Dwnrollees
                                               (N= 23)                                       (N = 19)
                                                                             —..
Beneficiary Responsesto Key        All        This     %DitY.      Comp.            An       This    %Diff.   Comp.
&uvey Questionsby Category       lnW)s        HMO                                  WW3s     131Wo

For scheduled appointments
with specialists, usually        81%          71%      -lo%          @             75%                         NS
waited less than 13 davs.        (970)         (12)                                (477)

When very sick, was able to
get a doctor’s appointment       93%          85%      -8%           e             89%                         NS
within 1 to 2 davs.              (942)         (11)                                (453)

Usually Wtittd kss than 1
hour in the office to see         95%
                                 (1,431)
                                              85%
                                               (17)
                                                       -lo%          o             87%
                                                                                   (704)
                                                                                                               NS
Dnrnarv HMO doctor.


Consistently busy telephone
lines did Wt hinder bone’s       90%          56%      -34%          o             89%                         NS




Primary HMO doctor never
failed to provide needed          96%         94%      -2%           (B            88%                         NS
Medicare services.               (1,475)       (17)                                (744)

Primary HMO doctor never
failed to refer to a specidlst    96%         100%     +4%           �             88%                         NS
when needed.                     (1,439)       (17)                                (732)

Didn’t feel the need to seek
out-of-plan care, excluding
dental, routine eye, and          93%
                                 (1,397)
                                              89%
                                               (16)
                                                       -4%           o             86%
                                                                                   (696)
                                                                                                               NS
emergent/urgent care.

Medical care received
through the HMO caused
beneficiaries’ health to:

   b     impmve                  53%          78%      +25%          o             41%                         NS
                                 (772)         (14)                                (296)
   b     stay about the same     45%          22%      -23%          o             49%                         NS
                                 (649)          (4)                                (383)
   b     worsen                  2%            o%                                  10%                         NS
                                                           -2%
                                  (32)         (0)                   @              (86)




Primary HMO doctor never

failed to take beneficiary’s     88%
                                 (1349)
                                              81%
                                               (17)
                                                           -7%       o             76%
                                                                                   (650)

                                                                                                               NS

health COrn@3intS seriously.




                                                            119

�       Above average        @       Average             O    Below    average                NS Not sulllcient data


HMO ID #: H 451O                           Enrollees                                          DKenrollees
                   —                       (N =23)                                             (N = 19)
                                                                                 —
Beneficiary
          Respoasesto Key      Au          This    %Diff.      Comp.                  Au       ‘Illis   %Diff.   Comp.
Survey Questionsby Catego~   QWOS         HMO                                     mvios       HMO
                                                                     . .. ..—— -----
Most important to primary
HMO doctor was:

    b     giving the best
          medical care        86%         88%      +2%           03                  72%                          NS
          possible           (1,197)       (15)                                      [’471)

  b       holding down the    9%          12%      +3%                               ~~%                          NS
                                                                 e
          cost of care        (120)        (2)                                       (162)

Most important to the HMO
was:

  b       giving the best
          medkal care        74%
                             (1,036)
                                          53%
                                           (9)
                                                   -21%         o                    58%
                                                                                     (387)
                                                                                                                  NS
          possible

  b       holding down the   15%          35%     +20%                               36%                          NS
                             (213)         (6)
                                                                �                    (,230)
          cost of care




                                                       120

                               PA CIFICARE                      OF      TEXAS

       No. Enrollees: 16,833                 Total No. fkwnpkd: 98                 Total No. Respondents: 54
         Model ~pe: IPA                             For-Profit                              Competitive



�    Above average             @       Average             O     Below average            NS Not sufllcient data


HMO ID #: H 4590	                            Enrollees                                    Dkenrolkws
                                             (N = 34)                                      (N = 20)
Beneficiary
          Reaponseato Key       AU          This     %DM.         Comp.           Au       This    %LW.        Comp.
tkrvey Questionsby Catqory     EMos         HMO                                  HIWos     HMO

HEUTH      SCRIUW.NG

Was p@ afdcedat application
about health problems,
excluding kidney failure and   63%          69%      +6%           @             58%       53%         -5%      e
hospice care.                  (717)         (20)                                (430)      (8)

Physical exam was n-            96%         100%     +4%           03            98%      100%      +2%         e
required befo~ joining.        (1,295)       (31)                                (824)     (19)



Did know they could change
their minds about enrolling     88%         97%      +9%           �             82%       82%         O%       @
after they applied.            (1,078)       (28)                                (611)      (14)

Did know, from the
beginning, they must be
referred to a specialist by     89%         94%      +5%           @             M%       100%     + 16%        �
their primary HMO doctors.     (1,444)       (31)                                (852)     (17)

Did know, from the
beginning, they could only
use HMO doctors and
hospitals (except emergent
care and urgent care outside    %%          100%     +4%           �             93%      100%      +7%         @
the service area.)             (1,585)       (34)                                (958)     (19)

Did know they had the right
to appeal an HMO’s &usal        74%         81%      +7%           e             67%       89%     +22%         �
to providelpay for services.   (1,113)       (25)                                (523)      (8)




For scheduled appointments

with primary HMO doctors,

usually WSiti kss than 13       85%         87%      +2%           @             82%       75%      -7%         e

days.                          (1,276)       W)                                  (681)      (9)





                                                         121

�       Above average            @       Average             O     Below average            NS Not suftlcient data


HMOlD#H4590                                    Enrollees                                    Dkenrolks
                    —                          (N = 34)                                      (N = 20)
Beneficiary Reaponseato Key       All         This     %Biff.       Comp.           Au       This       % Dim.   Comp.
&wvey Qoestionsby Category       HMos         HMo                                  EMos     IIIWo

For scheduled appointments
with specialists, usually        81%          87%      +6%           e             ’75%      71%        -4%       e
waited less than 13 davs.        (970)         (20)                                 (477)     (5)

When very sick, was able to
get a doctor’s appointment       93%          100%     +7%           e             89%       71%        -18%      o
within 1 to 2 davs.              (942)         (14)                                (453)      (5)

usually waited less than 1
hour in the office to see         95%         97%      +2%           e             87%       82%        -5%       e
primary HMO doctor.              (1,431)       (28)                                (704)      (9)

Consistently busy telephone
lines did ~t binder bene’s       90%          100%     + 10%         @             89%       83%        -6%       (B




Primary HMO doctor never
failed to provide needed          96%         97%      +1%           e             88%       82%         -6%      @
Medkare services.                (1,475)       (28)                                (744)      (9)

primary HMO doctor never
failed to refer to a specialht    96%         97%      +1%           @             88%       91%        +3%       e
when needed.                     (1,439)       (29)                                (732)      (lo)

Didn’t feel the need to seek
out-of-plan care, excluding
dental, routine eye, and          93%         93%          o%        @             86%       83%        -3%       (I3
emergentfurgent care.            (1,397)       (26)                                (696)     (10)

Medical care received
through the HMO caused
beneficiaries’ health to:

    b     improve                53%          64%      +11%          �	            41%       83%        +42%      �
                                                                                   (2%)       (lo)
                                                                                   49%
                                                                                   (383)
                                                                                             17%
                                                                                               (2)
                                                                                                        -32%      o
    b     worsen                                                                   10%       o%         -lo%
                                                                                    (86)      (o)                 @




Primary HMO doctor never

failed to take beneficiary’s     88%          87%          -1%       @             76%       67%         -9%      @

health complaints seriously.     (1349)        W)                                  (650)      (8)





                                                            122

.        Above average        03      Average             O    Below mwrage                 NS Not suffkient data


HMO ID#H4590                                Enrollees                                       Dlsenrolk?s
                                            (N = 34)                                         (N= 20)
                                                                             .—.—
Beneficiary Reapoasesto Key    Au          Tbk      %Diff.     Comp.                All     This      %Diff.   Comp.
Survey Questionsby Category   HMos         HMo                                    IitRlos   HMo
                                                                       ,——    —
Most important to primary
HMO doctor was:

    b      giving the best
           medical care        86%         72%      -14%         o                72%        91%      + 19%     �
           possible           (1,197)       (18)                                  (471)       (lo)

    b	     holding down the
           cost of care
                              9%
                              (120)
                                           12%
                                            (3)
                                                    +3%          e
                                                                                  26%
                                                                                  (162)
                                                                                             9%
                                                                                              (1)
                                                                                                      -17%      o
Most important to the HMO
was:

    b      giving the best
           medkal care        74%          65%      -9%          @                58%        90%      +32%      �
           possible           (1,036)       (17)                                  (387)       (9)

    b	     holding down the
           cost of care
                              15%
                              (213)
                                           23%
                                            (6)
                                                    +8%          �                36%
                                                                                  (230)
                                                                                             10%
                                                                                              (1)
                                                                                                      -26%      o




                                                        123

                        SE NTARA                HEALTH            PLANS_              (VA)

        No. Enrollees: 259                  Total No. &unpkd: 54

         Model @pe: Staff                          For-Profit
                                                                         ‘E-e



.    Ahove average             @      Average              O    Below average                NS Not suftlcient data


HMO ID #: H 4949                            Enrollees                                        Dkenrollees
                                            (N= 44)                                           (N =3)
                                                                                ——.
Beneficiary
          Reapoasea
                  to Key        Au          This    %Diff.       Comp.              Au       This      % DW.     Comp.
&uvey Queafioasby Category     EMos        HMO                                    IIMOS      HMo



Was ~t asked at application

about health problems,

excluding kidney failure and   63%
                               (717)
                                           17%
                                            (6)
                                                    -46%          o               58%         67%          +9%    e

homice care.                                                                      (430)        0





Did know they could change
their minds about enrolling     88%        94%      +6%           e               82%        100%      + 18%      �
after they applied.            (1,078)      (31)                                  (611)       (3)

Did know, from the
beginning, they must be
referred to a specidlst by      89%        98%      +9%           �               84%        100%      + 16%      �
their urimarv HMO doctors.     (1,444)      (43)                                  (852)        (3)

Did know, from the
beginning, they could only
use HMO doctors and
hospitals (except emergent
care and urgent care outside    96%        100%     +4%           �               93%        100%      +7%        e
the serviee area.)             (1,585)      (43)                                  (958)       (3)

Did know they had the right
to appeal an HMO’s ret%sal      74%        81%      +7%           e               67%        100%      +33%       �
to providelpay for services.   (1,113)      (33)                                  (523)       (3)




For scheduled appointment

with primary HMO doctors,

usually waited less than 13     85%        83%       -2%          e               82%        100%      + 18%      �

davs.                          (1,276)      W)                                    (681)       @





                                                        124

.       Above average             @      Average                O   Below average           NS Not sufficient data


HMO ID #: H 4949                               Enrollees                                    Dwnrolleea
             —	                                (N =44)                                       (N =3)
                                                                               —.
JknefiiaryReapoawsto Key           Au         This     %mff.         Comp.           All     This    %DilY.    Comp.
Wey     Queatioasby Category      EMos        HMO                                   laws    HMO
                                                                                —
For scheduled appointments
with specialists, usually         81%         85%      +4%            e             75%     100%     +25%       �
waited less than 13 days.         (970)        (29)                                 {477)    (3)

When very sick, was able to
get a doctor’s appointment        93%         91%          -2%        e             89%     100%     + 11%      e
within 1 to 2 days.               (942)        (21)                                 (453)    (1)

usually waited less than 1
hour in the office to see          95%        95%          o%         @             87%     100%     +13%       �
primary HMO doctor.               (1,431)      (40)                                 (704)    (3)




Primary HMO doctor never
failed to provide needed           96%        93%          -3%        e             88%     100%     + 12%      �
Medkare services.                 (1,475)      (40)                                 (744)    (3)

Primary HMO doctor never
failed to refer to a specialist    96%        95%          -1%        e             88%     100%     +12%       �
when needed.                      (1,439)      (38)                                 (732)    (3)

Didn’t feel the need to seek
out-of-plan care, excludiig
dental, routine eye, and           93%
                                  (1,397)
                                              88%
                                               (38)
                                                           -5%        o             86%
                                                                                    (696)
                                                                                            100%
                                                                                              (3)
                                                                                                     + 14%      �
emergentiurgent care.

Medical care wived
through the HMO caused
beneficiaries’   health to:

    b     improve                 53%         35%      -18%           0	            41%      33%         -8%    @
                                                                                    (2%)      (1)
                                                                                    49%      67%     + 18%
                                                                                    (383)
                                                                                                                �
                                                                                              (2)
                                                                                    10%
                                                                                     (86)                       NS



Primary HMO doctor never

failed to take beneficiary’s      88%         95%      +7%            �             76%      67%         -9%    @

health complaints seriously.      (1349)       (39)                                 (650)     (2)





                                                            125

�        Above average        @       Average              o   Below average            NS Not sufilcient data


HMO ID #: H 4949                            Enrollees                                   DisenroUees
                                            (N= 44)                                       (N =3)
                                                                             —..—
Beneficiary Reapoaseato Key    Au          This     %Diff.     Comp.             All    This     % Diff.   Comp.
Survey Queatioasby Category   mos          HMO                                 Jlnlos   HMO
                                                                       —..
Most important to primary
HMO doctor was:

    b      giving the best
           medical care        86%         90%      +4%          e              72%      33%      -39%      o
           possible           (1,197)       (34)                                (471)     (1)

    �	     holding down the   9%            3%       -6%
                                                                 o              26%      67%     +41%       �
           cost of care       (120)          (1)                                (162)     (2)

Most important to the HMO
was:

  b        giving the best
           medical care        74%
                              (1,036)
                                           76%      +2%          e              58%      33%      -25%      o
           possible                         (28)                                (387)     (1)

  b	       holding down the   15%          16%                                  36%      67%     +31%
                              (213)         (6)
                                                    +1%          (B
                                                                                (230)
                                                                                                            �
           cost of care                                                                   @




                                                        126

                           NETWORK               HEALTH                 PLAN       (WA)

        No. Enrollees: 12,136                Total No. &Ullpkd: 99                  Total No. Respondents: S4
          Model ~pe: IPA                             For-Profit                              Competitive



�    Above average               @     Average              O     Below average            NS Not suftlcient data


HMO ID#H5005                                 Enrollees                                     DMenrolkes
                                             (N= 43)                                        (N = 41)
Ben&.iarYReaponsea
                 to Key           Au        ‘rllis   %mff.        Comp.            Au       Tllk    %Diff.      Comp.
Sbrvey Questionsby Category     HMos        HMo                                   Jmlos    HMo
H..TH      SC.UJW%WW

Was at asked at application
about health problems,
excluding kidney failure and    63%         80%      + 17%          @             58%      85%       +27%        �
hospice care.                   (717)        (-0                                  (430)     (28)

Physical exam was n@             96%        100%      +4%           @             98%      100%      +2%         e
required before joining.        (1,295)      (19)                                 (824)     (37)



Did know they could chaoge
their minds about enrolling      88%        97%       +9%           e             82%      88%       +6%         @
after they applied.             (1,078)      (lo)                                 (611)     (30)

Dld know, from the
beginning, they must be
referred to a specialist by     89%         86%       -3%           e             84%      95%      +11%         �
their primary HMO doctors.      (1,444)      (28)                                 (852)     W)

Did know, from the
beginning,they wuld only
use HMO doctors and
hospitals (except emergent
:are and urgent care outside     96%        95%       -1%           e             93%      97%       +4%         e
the service area.)              (1,585)      (37)                                 (958)     (38)

Did know they had the right
to appeal an HMO’s refhsal       74%        82%       +8%           �             67%      81%      + 14%        @
to providelpay for services.    (1,113)      @o)                                  (523)     (.26)




For scheduled appointments
with primary HMO doctors,
.L9Uallywaited less than 13      85%        97%      + 12%          @             82%      97%      + 15%        (B
tiys.                           (1,276)      (28)                                 (681)     (34)




                                                         127

 � Above average                   @      Average                  O   Below average               NS Not suftlcient data


HMO ID #: H 5005                                 Enrollees                                         DEenrollees
                                                 (N =43)                                            (N = 41)
                                                                                    ..
Beneficiary
          Reaponsea
                  to Key            All        This      %Wf.          Comp.              All      This      %m.     Comp.
 fkrvey Questionsby Category      EMos         HMO                                       mios      HMO
For scheduled appointments
with specialists, usually          81%         94%      +13%             �               75%        9’7%     +22%     �
waited less than 13 &yS.           (970)        (28)                                     [.4-77)     (29)
                                                                               —,
When very sick, was able to
get a doctor’s appointment        93%          100%      +7%             @               89%        96%      +7%      e
within 1 to 2 days.               (942)         (31)                                     (453)       (22)

Usually waited less than 1
hour in the office to see          95%         100%      +5%             @               87%        91%      +4%      (13
primary HMO doctor.               (1,431)       (40)                                     (704)       (31)

Consistently busy telephone

lines did ~t hinder bene’s        90%          94%       +4%             @               89%        94%      +5%      e

making appointments.              (780)         (15)                                     (425)       (16)




Primary HMO doctor never
failed to provide needed           96%         95%       -1%             e               M%         95%      +7%      e
Me&are services.                  (1,475)       (36)                                     (744)       (36)

Primary HMO doctor never
failed to refer to a specialist    96%         95%       -1%             e               88%       92%       +4%      e
when needed.                      (1,439)       (38)                                     (732)      (35)


out-of-plan care, excluding
dental, routine eye, and           93%         90%       -3%             @               86%       89%       +3%      @
emergent.lurgentcare.             (1,397’)      (35)                                     (696)      (33)

Medkal care received
through the HMO caused
beneficiaries’ health to:

   b     improve                  53%          55%       +2%             @               41%       39%       -2%      03
                                  (772)         (-24)                                    (296)      (12)
   b     stay about the same      45%          45%           ()%                         49%       55%       +6%      @
                                                                         e
                                  (649)         (13)                                     (383)      (17)
   b     worsen                    2%          0%        -2%                             10%        7%       -3%
                                   (32)         (o)                      e                (86)      (3                @



Primary HMO doctor never

failed to take beneficiary’s      88%          92%       +4%             e               76%       89%       +13%     �

health conqdaints seriously.      (1349)        (35)                                     (650)      (32)





                                                             128

.       Above average          @      Average              O     Below average            NS Not suffkient data


HMO ID#H5005                                 Enrollees                                    Dlsenrollees
                                             (N =43)                                       (N = 41)
                                                                         —---—
Beneficii Respomesto Key        All        This      %Diff.       Comp.      AN            This      %M.    Comp.
Survsy Questionsby Category    HMos        HMO                              mu%            HMO
                                                                     —-—   —..
Most important to primary
HMO doctor was:

    b     giving the best
          medical care          86%        90%       +4%           e             72’%      78%       +6%     03
          possible             (1,197)      (33)                                 (471)      (23

    b     holding down the     9%           5%           Af%                     ’26%      16%       -lo%    @
                                                                   03             (162)
          cost of care         (120)         (3)                                            (5)
                                                                           —.
Most important to the HMO
was:

    b      giving   the best
          medical care          74%
                               (1,036)
                                            64%
                                             (26)
                                                     -lo%          o             58%
                                                                                 (387)
                                                                                           61%
                                                                                            (19)
                                                                                                     +3%     @
          possible

    b     holding down the     15%         22%           +7%                     36%       23%       -13%    ~
                                                                   e
          cost of care         (213)        (6)                                  (230)      m




                                                          129

        GROUP                  HEALTH         CO-OP               OF     PtJGET’               SOUND         (WA)

         No. Enrollees: 43,585                  Total No. %unpkk 98

           Model &pe: Staff                            Not For-Profit
                                                                             ‘:         --:=



�       Above average              @      Average                 ~    Below average.              NS Not sufficient data


HMO ID #: H 5050	                               Enrollees                                          Dkenrollees
                                                (N=36)                                              (N = 32)
Beneficiary
          Responses
                  to Key            Au          This      %Dilr.        Comp.              Au      This      %DitT.    Comp.
&uvey   @leStiOIIS   by Catqory    EMos        HMO                                        HMOS     HMO



Was @ asked at application
about health problems,
excluding kidney failure and       63%
                                   (717)
                                               32%
                                                (6)
                                                          -31%           o                58%
                                                                                           (430)
                                                                                                    46%
                                                                                                     (6)
                                                                                                              -12%      (B
hospice care.

Physid     exam      was n!@       96%         81%        -15%           o                98%      100%       +2%       @




Did know they could change
their minds about enrolling         88%
                                   (1,078)
                                               79%
                                                (11)
                                                            -9%          o                82%
                                                                                           (611)
                                                                                                   100%
                                                                                                    (12)
                                                                                                             + 18%      �
after they applied.

Did know, from the
beginning, they must be
referred to a specialist by        89%         81%          -8%          o                84%       75%          -9%    @
their DrimarvHMO doctors.          (1,444)      (26)                                       (852)     (21)

Did know, fmm the
beginning, they could only
use HMO doctors and
hospitals (except emergent
care and urgent care outside        96%        97%        +1%            @                93%       93%          o%     @
the service area.)                 (1,585)      (34)                                      (958)      (26)

Did know they had the right
to appeal an HMO’s refusal          74%        61%        -13%           o                67%       64%          -3%    e
to providelpay for servicxw.       (1,113)      (19)                                      (523)      (18)




For scheduled appointments

with primary HMO doctors,

usually waited less than 13         85%        82%         -3%           e                82%       81%          -1%    e

days.                              (1,276)      W)                                        (681)      (26)





                                                             130

 � Above average                   @       Average              O    Below average             NS      Not suffkient   data



HMO ID #: H 5050                                  Enrollees                                    Dkenrollees
                                                  (N =36)                                       (N = 32)
Beneficky Responses
                  to Key            All         This      %mfr.       Comp.             All     This        %DiH.      Comp.
Survey QIKstionsby Categoq        EMos          HMO                                   lmos     HMo
                                                                                     —.—
For scheduled appointments
with specialists, usually          81%          48%       -33%         o               75%      89%         + 14%       @
waited less than 13 days.          (970)         (14)                                  (477)     (23)

When very sick, was able to
get a doctor’s appointment        93%           100%      +7%          e               89%      82%          -7%        @
within 1 to 2 days.               (942)          (26)                                  (453)     (22)

Usually waited less than 1
hour in the office to see          95%          100%      +5%          e               87%     100%         +13%        �
primary HMO doctor.               (1,431)        (31)                                  (704)    (29)

Consistently busy telephone
lines did ~t hinder bene’s        90%           96%       +6%          Q1              89%     100%         +11%        e
making appointment.               (780)          (22)                                  (425)    (21)

LwwwxS
Primary HMO doctor never
failed to provide needed           96%         100%       +4%          �               88%     90%           +2%        e
Medicare services.                (1,475)       (32)                                   (744)    (26)

Primary HMO doctor never
failed to refer to a specialist   96%           94%       -2%          @              88%      81%           -7%        e
when needed.                      (1,439)        (32)                                  (732)    (26)

Didn’t feel the need to seek
out-of-plan care, excluding
dental, routine eye, and           93%          97%       +4%          �              86%      83%           -3%        @
emergentlurgent care.             (1,397)        (31)                                  (696)    (24)

Medkal care received
through the HMO caused
beneficiaries’ health to:

   b     improve	                 53%           58%       +5%          @              41%      56%          + 15%       e
                                  (772)          (18)                                 (296)     (15)
   b     stay about the same	     45%
                                  (649)
                                                39%
                                                 (12)
                                                          ~%
                                                                       e
                                                                                      49%
                                                                                       (383)
                                                                                               ti%          -23%        o
   b     women	                   2%
                                  (32)
                                                3%
                                                 (1)
                                                          +1%
                                                                       @
                                                                                      10%
                                                                                       (86)
                                                                                               1P%           +9%
                                                                                                                        @
                                                                                                (5)



Primary HMO doctor never

failed to take beneficiary’s
health compkinta    seriously.
                                  88%
                                  (1349)
                                                75%
                                                 (-24)
                                                         -13%          o              76%
                                                                                      (650)
                                                                                               69%
                                                                                                (22)

                                                                                                             -7%        @





                                                              131

.        Above average          @       Average              O    Below mwmgF            NS Not sufllcient data


HMO ID #: H 5050                               Enrollees                                 DMenrollees
                                               (N= 36)                                    (N = 32)
                                                                             ..-. ——
Beneficiary
          Reapoases
                  to Key         All          ‘lllis   %JXfK      Comp.           AU     This     %Diff.   Comp.
Survey QIWStioasby Category    HMos          HMO                                HMOS     HMO
                                                                       .—.—.————.
Most important to primary
HMO doctor was:

    b      giving   the best
           medical care         86%          94%       +8%         e            ’72%     83%      +11%      e
           possible            (1,197)        p 1)                               [47i)    (20)

    b      holding down the     9%           6%        -3%                      ’26%      17%      -9%
                                                                   e                                        e
           cost of care         (120)         @                                  (162)     (4)

Most important to the HMO
was:

    b      giving the best
           medical care         74%          87%       +13%        �            58%      76%      + 18%     �
           possible            (1,036)        (W                                (387)     (22)

                               15%                                                       21%
    b	     holding down the
           cost of care        (213)
                                             3%
                                              (1)
                                                       -12%        o            36%
                                                                                (230)     (6)
                                                                                                  -15%      e




                                                           132

.       Above average             @      Average              O   Below average           NS Not suftlcient data


HMO ID #: H 9016                               Enrollees                                  DMenrollees
                                               (N = 29)                                    (N= 30)
                                                                             ——
Beneficii Respoasesto Key          Au         This     %Diff.      Comp.           Au      ‘Ill&    %DifF.   Comp.
Survey Questionsby Category       EMos        HMO                                 lmios   Info
For scheduled appointments
with specialists, usually         81%         73%      -8%          e             75%      4’7%     -28%      o
waited less than 13 days.         (970)        (16)                               (477)     (7)

When very sick, was able to
get a doctor’s appointment        93%         92%      -1%          e             89%      56%      -33%      o
within 1 to 2 days.               (942)        (12)                               (453)     ($

Usually Wtited less than 1
hour in the office to see          95%        84%      -11%         o             87%      70%      -17%      o
primary HMO doctor.               (1,431)      (21)                               (704)    (16)

Consistently busy telephone
lines did g@ hinder bene’s        90%         85%      -5%          e             89%      53%      -36%      o
making   appointments.            (780)        (11)                               (42S)     (8)



Primary HMO doctor never
failed to provide needed           96%        100%     +4%          e             88%      70%      -18%      o
Medicare services.                (1,47s)      (22)                               (744)     (14)

primary HMO doctor never
failed to refer to a specialist    96%
                                  (1,439)
                                              81%
                                               (17)
                                                       -15%         o             88%
                                                                                  (732)
                                                                                           67%
                                                                                           (14)
                                                                                                    -21%      o
when needed.

Didn’tfeel the need to seek
out-of-plan care, excluding

dental, routine eye, and           93%        94%      +1%          03            86%      80%      -6%       @

emergentiurgent care.             (1,397)      (17)                               (696)     (16)


Medical care received

through the HMO caused

beneficiaries’ health to:


    b     improve                 53%         60%      +7%          03            41%      32%       -9%      e
                                                                                  @96)
                                                                                  49%      em%       -3%      e
                                                                                  (383)     (lo)
                                                                                  10%      23%      +13%
                                                                                   (86)     (5)               �


Primary HMO doctor never

failed to take beneficiary’s      88%         7R%      .Ina         n             ‘lkcz    Le w.     1107.    m





                                                           132

.        Above average            @      Average            O     Below average           NS      Not sufficient   data



HMO ID #: H 9016                               Enrollees                                  DMenrolkes
                                               (N= 29)                                     (N = 30)
BenefickuyResponses
                  to Key           Au          This    %Diff.      Comp.           Ml     This          % Diff.    Comp.
&uvey    @KStiOIIS   by CatqoIY   HMos        HMO                                 Wos     HMO
                                                                                   .-
Most important to primary
HMO doctor was:

    b       giving the best
            medkal care            86%        85%      -1%          @             72%      38%          -34%         o
           possible               (1,197)      (17)                               (471)     (6)

            holding down the      9%          10%                                 26%      63%          +37%
    b	
                                  (120)
                                                       +1%          e
                                                                                  (162)     (lo)
                                                                                                                     �
            cost of care                       Q)

Most important to the HMO
Wm:

    b       giving the best
            medkal care           74%
                                  (1,036)
                                              60%
                                               (12)
                                                       -14%         o             58%
                                                                                  (387)
                                                                                           42%
                                                                                            (8)
                                                                                                        -16%         @
            possible

    b	     holding down the       15%         25%     +10%          g             36%      58%          +22%         �
           cost of care           (213)        (5)                                (230)     (11)




                                                           135

              QUA L-MED                  CALIFORNIA                     ‘% ’A ---LLI!YPLAN

       No. Enrok!es: 7,143                  Total No. Sampled 99
                                                                          :~1
        Model ~–~. Group                           For-Profit



.    Above average             @      Average                o   Below average               NS Not suftlcient data


HMO ID # H 9037                             Enrollees                                        DMenrollees
                                            (N = 41)                                          (N = 34)
                                                                     —.         .. . ..
Beneficiary
          Reapoases
                  to Key        Au          This    %DifK         camp.                All    This    %mff.    Comp.
Survey Quealionsby Category    EMos        HMO                                      mms      HMO


Was ~t asked at application
about health problems,
excludiig kidney failure and   63%         59%       -4%           e                 58%      68%     + 10%     (B
hospice care.                  (717)        (19)                                     (430)     (15)

Physical exam was n-            96%        92%       -4%           @                 98%     100%     +2%       @
required before joining.       (1,295)      (33)                                     (824)    (29)

UWJERSTX/WJl/?@ U#’IiMOS

Did know they could change
their minds about enrolling     88%        93%      +5%            e                 82%      67%     -15%      o
after they applied.            (1,078)      (28)                                     (611)     (16)

Did know, from the
beginning, they must be
referred to a specialist by     89%        92%      +3%            e                 84%      86%     +2%       e
their urimary HMO doctors.     (1,444)      (36)                                     (852)     (25)

Did know, from the
beginning, they could only
use HMO doctors and
hospitals (except emergent
care and urgent care outside    96%        97%      +1%            (B                93%      93%      o%       e
the service area.)             (1,585)      (38)                                     (958)     (26)

Did know they had the right
to appeal an HMO’s rei%aal      74%        74%          o%         e                 67%      59%      -8%      @
to providelpay for services.   (1,113)      (28)                                     (523)     (13)




For scheduled appointments

with primary HMO doctors,

usually waited less than 13     85%        92%      +7%            (B                82%      89%      +7%      @

days.                          (1,276)      (34)                                     (681)     @)





                                                        136

 � Above average                   @      Average             o    Below average             NS Not stilcient   data


HMO ID #: H 9037                                Enrollees                                    Dnenrolkes
                                                (N= 41)                                       (N = 34)
                                                                              ..—.
Beneticii Reapooaes
                  to Key            Au          This    %Diff.     Comp.              All     This    %Diff.    Comp.
Survey Questionsby Catego~        HMos         Imo                                   mos     HMO
For scheduled appointments
with specialists, usually         81%          93%     + 12%         @               75%      88%     +13%       @
waited less than 13 days.         (970)         (28)                                 {477)     (15)

When very sick, was able to
get a doctor’s appointment        93%          91%      -2%          63              $9%      94%         +5%    @
within 1 to 2 days.               (942)         (21)                                 (453)     (16)

usually waited leas than 1
hour in the office to see         95%          100%     +5%          @               87%      92%         +5%    e
primary  HMO    doctor.           (1,431)       (36)                                 (704)    (-22)

Consistently busy telephone
limesdld ~t hinder bene’s         90%          100%    + 10%         @               89%     100%     +11%       e




Primary HMO doctor never
failed to provide needed           96%         100%     +4%          �               88%      91%         +3%    (B
Me&care services.                 (1,475)       (38)                                 (n4)      (20)

Primary HMO doctor never
failed to refer to a specialist    96%         100%     +4%          �               88%      91%         +3%    e
when needed.                      (1,439)       (38)                                 (732)     (21)

Didn’t feel the need to seek
out-of-plan care, excluding
dental, routine eye, and           93%         97%      +4%          �               86%     83%          -3%    e
emergenthrgent care.              (1,397,)      (36)                                 (696)    (19)

Medical care received
through the HMO caused
beneficiaries’ health to:

  b      improve                  53%          50%      -3%          e               41%      47%         +6%    @
                                  (772)         (1s)                                 (296)     (8)
  b      stay about the same      45%          50%      +5%                          49%      47%         -2%
                                                                     e                                           e
                                  (649)         (18)                                 (383)     (8)
  b      worsen                   2%           o%       -2%                          10%      6%          ~%
                                   (32)         (o)                  @                (S6)    (1)                e



Primwy HMO doctor never

failed to take beneficiary’s      88%          92%      +4%          e               76%     82%          +6%    e

health complaints seriously.      (1349)        (34)                                 (650)    (18)





                                                            137

.        Above average        @       Average             O    Below average                 NS Not stilcient    data


HMO ID#H9037                                Enrollees                                        Dkenrollees
            —                               (N = 41)                                          (N= 34)
Beneficiary
          Reapoasea
                  to Key       An          This     %Diff.     Comp.                  AM     This      %Diff.    Comp.
Survey Queatioasby Category   HMos         HMO                                       IWlos   HMo
                                                                           .... ..
Most important to primary
HMO doctor was:

    b      giving the best
           medical care        S6%         85%      -1%          e                   -72%     63%          -9%    e
           possible           (1,197)       (28)                                     {471)     (lo)

    b	     holding down the    9%          6%       -3%                              26%      19%          -7%
                                                                 e                                                @
           cost of care       (120)        (2)                                       (162)     (3)

Most important to the HMO
was:

    b      giving the best
           medical care       74%          77%      +3%          (B                  58%     39%       -19%       o
           possible           (1,036)       (2?                                      (387)     (T

                              15%
    b      holding down the
           cost of care       (-213)
                                           9%
                                            (3)
                                                    -6%
                                                                 o                   36%
                                                                                     (230)
                                                                                             50%
                                                                                              (9)
                                                                                                       + 14%      (e




                                                        138

                       SHARE         HEALTH                 PLAN              OF   ILLINOIS

         No. Enrollees: 30,518                     Total No. !knpkd:     100              Total No. Respondents: 78

             Model ~pe: IPA                                Fo@rofit                              Competitive
                                                                                                                              .



 �    Above average                 @        Average              O    Below average             NS Not sufficient data


HMo      ID # 9045	                                 Enrolleea                                    Disenrcdkes
                                                    (N=44)                                        (N = 34)
Bem&imyResponsesto Key               All           This    %Diff.      Comp.             An      This     %Ditr.      Comp.
Survey   Qll@iOIM   by Ca@ory      EMos           EMo                                  IJMos     EMo

JW&#XIW       S@EEA?kVG

Was p@ asked at application
about health problems,
excluding kidney failure and        63%           77%      + 14%         e             58%       55%           -3%     e
hospice care.                       (717)          (23)                                (430)      (11)

Physical exam was @                 96%           95%       -1%          e             98%       100%      +2%         @
required before joining.           (1,295)         (39)                                (S24)      (27)

UNIZ?JRiSp!lXi??G         @FllM@

Did know they could change
their minds about enrolling         88%           85%       -3%          e             82%       86%       +4%         e
after they applied.                (1,078)         (-29)                               (611)      (18)

Did know, from the
beginning, they must be
referred to a specialist by         89%           83%       -6%          03            84%       82%       -2%         @
their primary HMO doctors.         (1,444)         (34)                                (S52)      (z)

Did know, from the
beginning, they could only
use HMO doctom and
hospitals (except emergent
care and urgent care outside        96%
                                   (1,585)
                                                  86%      -lo%          o             93%       93%
                                                                                                  (26)
                                                                                                           o%          @
the service area.)                                 (37)                                (958)

Did know they had the right
to appeal an HMO’s refhaal          74%           71%       -3%          e             67%       59%       -8%         e
to providelpay for services.       (1,113)         (29)                                (523)      (13)




For scheduled appointments

with primary HMO doctors,

usually waited less than 13         85%           83%       -2%         @              82%       96%      + 14%        @

days.                              (1,276)         (35)                                (681)      (22)





                                                                139

 .       Above average             @       Average              O    Below average           NS Not sufficient data


HMo ID#:        9045                              Enrollees                                  DMenrollees
                      —                           (N= 44)                                     (N = 34)
Beneficii Responsesto Key          Au           This      %DM.       Comp.            Au     This     %DitT.   Comp.
Survey Queatioosby Category       EMos          HMO                                  HMos    HIWo

For scheduled appointments
with specialists, usually          81%          80%       -1%          @             75%      88%     +13%      e
waited less than 13 &yS.           (970)         (24)                                (477)     (14)

When very sick, was able to
get a doctor’s appointment         93%          96%       +3%          e             89%     100%     +11%      @
within 1 to 2 days.                (942)         (26)                                (453)    (to)

usually waitedless than 1
hour & the office to see           95%          95%           o%       (B            87%      86%      -1%      e
primary HMO doctor.               (1,431)        (38)                                (704)    (19)

Consistently busy telephone
lines did @ hinder bene’s         90%           96%       +6%          e             89%     94%      +5%       e
making appointment.               (780)          (22)                                (425)    (15)



Primary HMO doctor never
failed to provide needed           96%          95%       -1%          @             88%     88%       o%       e
Medicare services.                (1,475)        (37)                                (744)    (21)

Primary HMO doctor never
failed to refer to a specialist    96%          95%       -1%          @             88%     79%       -9%      e
when needed.                      (1,439)        (37)                                (732)    (38)

Didn’t feel the need to -k
out-of-plan care, excluding
dental, routine eye, and           93%          93%       o%           e             86%     83%       -3%      @
emergenthrgent care.              (1,397)        (38)                                (696)    (4)

Medka.1 care received
through the HMO caused
beneficiaries’ health to:

     F     improve	               53%           59%       +6%          e             41%     46%      +5%       @
                                  (772)          (24)                                (296)    (lo)
     �     stay about the same    45%           39%       ~%                         49%     46%       -3%      @
                                  (649)                                e
                                                 (16)                                (383)    (lo)
     b     worsen	                                                                   10%      9%       -1%
                                                                                     (86)      @                e




Primary HMO doctor never

failed to take beneficimy’s       88%           83%       -5%          e             76%     78%      +2%       (B

health complaints seriously.      (1349)         (34)                                (6S0)    (18)





                                                              140

� Above average              @      Average                Cl   Mow .Wemlge                NS Not sufficient data


HMo ID #: 9045                            Enrollees                                        Dlsenrollet?s
             —                            (N =44)                                           (N = 34)
                                                                  ——       .-.—
Bene&iary Reaponseato Key     Aa          This    %Diff,        Comp.               All     This      %Diff.   Comp.
Survey Questionsby Catego~               HMo
                             HMos
                                                                 .——.-—_.— ErMos           HMo
Most important to primary
HMO doctor WSS:

  b	    giving the best
        medical care          86%        86%          0%         @                 ~~%      71%        -1%      e
        possible             (1,197)      (30)                                     {471)    (12)

  b     holding down the      9%         11%      +2%                              26%      18%        -8%
                                                                 @                                              @
        cost of care          (120)       (4)                                      {162)     (3)
                                                                        . ..-— .
Most important to the HMO
was:

  b     giving the best

        medical care          74%        85%      +9%            @                 58%      45%       -13%      e
        possible             (1,036)      (29)                                     (387)     (9)

  b	    holding down the     15%          9%      +5%                              36%      45%       +9%
                                                                 @                                              e
        cost of care         (,213)       (3)                                      (230)     (9)




                                                      141

                  HEALTH            MAINTENANCE                           OF        OREGON

       No. Enrollees: 11,400                  Total No. !%mpkxk 99

          Model ~.     IPA                           For-Profit
                                                                            ..=



.    Above average              @       Average             O     Below average             NS Not suf13cient data

                                                                               ——
HMO ID#H9049                                  Enrollees                                     Dlsenrollees
                                              (N = 39)                                       (N =37)
                                                                               —.
Beneficiary
          Responsesto Key       Au           This     %Diff.      Comp.              m       This      %Difr.   Comp.
SurveyQuestionsby Category     Eblos         mklo                                   EMos     HMo
HEALTiY l!XXEENWG
Was g@ asked at application
about health problems,
excluding kidney failure and    63%          76%     +13%           @               58%      a3%       +25%      �
hospice care.                   (717)         w)                                    (430)     w)

Physical exam was n~           96%           100%     +4%           @               98%      97%       -1%       e
required before joining.       (1,295)        (31)                                  (824)     (29)

uNDIHLSTllNIMjYGOF HMOS

Did know they could change
their minds about enrolling    88%
                               (1,078)
                                             79%      -9%           o               82%      93%      + 11%      @
after they applied.                           @)                                    (611)     (’W
Did know, from the
beginning, they must be
referred to a specialist by    89%           92%      +3%           @               84%      91%       +7%       (B
their primary HMO doctors.     (1,444)        (35)                                  (852)    (30)

Did know, from the
beginning,they could only
use HMO doctors and
hospitals (except emergent
xire and urgent care outaide    %%           97%      +1%           e               93%      97%       +4%       @
the service area.)             (1,585)        (36)                                  (958)     (32)

Did know they had the right
LOappeal an HMO’s refiuud       74%          90%     + 16%          e               67%      82%      + 15%      e
to providelpay for services.   (1,113)        (28)                                  (523)     (23)




Por scheduled appointments

with primary HMO doctors,

.m.udlyWtited km than 13        85%          97%     + 12%          e               82%     80%        -2%       e

iays.                          (1,276)        (33)                                  (681)    (24)





                                                          142

 �    Above average                @      Average            O    Below average           NS Not stilcient   data


HMO ID #: H 9049                                 Enrolk                                   DMenrollees
                                                 (N= 39)                                   (N =37)
                                                                             .—
BenefieisqResponsesto Key           Au          This   %Diff.     Compa            An      This    %DitK     Comp.
Survey Queafionsby Category       EMos         HMO                        —.      HMos    HMO
For scheduled appointments
with specialists, usually         81%          95%     + 14%        �             7s%      90%     +15%       @
waited less than 13 days.         (970)         (20)                              {477)     (17)

When very sick, was able to
get a doctor’s appointment        93%          100%    +7%          e             89%     100%     + 11%      03
within 1 to 2 days.               (942)         (19)                              (453)    (17)

usually waitedless than 1
hour in the office to see          95%         100%    +5%          e             87%     100%     +13%       �
primary HMO doctor.               (1,431)       (31)                              (704)    (30)

Consistently busy telephone
lines did ~t hinder bene’s        90%          95%     +5%          @             89%     73%      -16%       o
making   appointments.            (780)         (18)                              (425)    (16)



Primary HMO doctor never
failed to provide needed           96%         94%     -2%          @             88%     93%       +5%       @
Medkare services.                 (1,475)       (31)                              (744)    (26)

Primary HMO doctor never
failed to refer to a specialist    96%         97%     +1%          @             88%     96%       +8%       @
when needed.                      (1,439)       (32)                              (732)    07)

Didn’t feel the need to seek
out-of-plan care, excluding
dental, routine eye, and           93%         91%     -2%          e             86%     90%      +4%        e
emergentlurgent care.             (1,397)       (30)                              (696)    (28)

Medical care received
through the HMO caused
beneficiaries’ health to:

  b      improve                  53%          42%     -11%         o             41%     31%      -lo%       @
                                                                                  (296)    (20)
                                                                                  49%     62%      + 13%      @
                                                                                  (383)    (18)
                                                                                  10%      7%       -3%
                                                                                  (86)      (2)               e




Primary HMO doctor never

failed to take beneficiary’s      88%          94%     +6%         �              76%     74%       -2%       @

health complaints seriously.      (1349)        (30)                              (6S0)    (23)





                                                           143

.        Above average         @       Average             o    Below $.ww?age            NS Not suffkient data


HMO ID#:H9049                                Enrollees                                    Disenrollees
                                             (N = 39)                                      (N =37)
                                                                             -.. —--
BmefkiaryResponses to Key       All          This    %Diff.     Comp               All     This     %DM.    Comp.
survey@?StiODS by Catqory     mos           HMO                                mm         HMo
                                                                 .—..—        —.—
Most important to primary
HMO doctor was:

    k	     giving the best
           medical care        86%          87%      +1%          @              ’72%      67%       -5%     03
           possible           (1,197)        (26)                                 (471)     (18)

    b      holding down the     9%          7%       -2%                         .2!%      33%       +7%
                                                                  e                                          e
           cost of oare        (120)        (2                                    (162)     (9)
                                                                      —-—.
Most important to the HMO
was:

    b      giving the best
           medical care        74%          79%      +5%          e              58%      73%       + 15%    e
           possible           (1,036)        (23)                                (387)     (19)

                              15%           7%                                   36%       19%
    b      holding down the
           cost of care       (X3)           @)
                                                     -8%          o              (-230)     (5)
                                                                                                    -17%     @




                                                         144

                                           ENDNOT.EM                                 —.... .


1.	   Wg selected a stratifkl            random sample           from      H(XA’S      Group       Health    Plan (GHP)
      data base.      First,   we sampled           45 HMOS         from    the 87 HMOS           under a risk contract
      with HCFA          as of February          1993.     Beginning        with the GHP          data, we counted        the
      number of enrollments    occurring within calendar years J 991 and 1992. For this
      cohort, we then calculated the proportion of disenrolhnents   within the following 12
      months. Based on this disenrolhnent rate, we divided the 87 risk HMOS into three
      strata of 29 HMOS each.               Within        each strata, we sekxted 15 HMOS by                     simple
      random      sampling.      Second,         from     each samplti        HMO,      we mndomly           selected    50
      Medicare       beneficiaries      who were enrolled            as of February         28,    1993 and 50 who had
      disenrolled     between        November        1992 and Februq                1993 inclusive.         When    the total
      number      per HMO       for either group            was less thari 50, we selected              them all.       Using
      HCFA’S        ~llrnent         Data Base,         we excluded,        from    the ~pling          universe,
      beneficiaries      who had died or who appeared                      as ~tmrent enrollees,        but had acttmlly
      disenrolled     since the last update to the GHP f~e,,                       This process       resulted   in 2,217
      enrollees     and 1,915        disenrollees        for a total of 4,132        beneficiaries.         A total of 2882
      surveys     were    deemed       usable,    yielding     an unweighed           return rate of 70 % overall,
      77%   for enroll~s        (N=      1,705)     and 61 % for disenrollees            (N=      1,177).



2.	   “Complaints against Medicare HMOS show large variances                                   nationwide,       ” Modem
      HeaWzcare, February 13, 1995, p. 17.

3.	   Modem Healihcare, iJ& “The absolute number of reconsiderations      fded with an
      HMO may not be indicative of quality issues related to the provision of medical
      care. In some instances it may indicate a need for education of beneficiaries as to
      what Medicare covers or other operational issues . . . .Conversely, a low rate of
      appeals may indicate that the (plan) is not providing appeal rights to its members, ”




                                                             145

                        HMO    Means      and Standard       Deviations      By Survey   Question


                                             HMOSby Enrollees                              HMOS by Dwnrollees
Benel%iaryResponsesto Key       Mean of        S. D.   Lowest      Eigheat           Meao of     S. D.   Lowest   E@&
Survey Questionsby Category     Ml nMos                HMo          HMO             All HMos             HMO       HMO
         m W#lnmmmrr*Ym

Was ~t asked at application
about health problems,
excluding kidney failure and      63%          18%     17%          94%               58%        20%     16%      93%
hospice care.                   (45I-mlos)                                          (41Hh’los)

Physical exam was n~              96%           6%     73%         100%               98%        4%      87%      100%
required before joining.        (45HMos)                                            (41lmlos)



Did know they could change

their minds about enrolling       88%          9%      46%         100%               82%     14%        50%      100%

after they applied.             (45HMos)                                            (41HMO,)


Dld know, from the
~ghming, they must be
referred to a specialist by       89%          8%      55%         100%              84%         11%     40%      100%
their primary HMO doctors.      (45HMos)                                           (41HMO,)

Did know, ffom the
beginning, they could only
use HMO doctors and
hospitals (emergent care and
urgent care outaide the           96%          4%      85%         100%              93%         8%      60%      100%
service area.)                  (45Hb40s)                                          (41HMO,)

Did know they had the right
to appeal an HMO’s refusal        74%          8%      54%          90%              67%         16%     33%      100%
to providelpay for services.    (45HMO,)                                           (39HMos)



For scheduled appointments
with primary HMO doctors,
usually waited less than 13       85%         14%      30%         100%              82%         16%     32%      100%
days.                           (45mos)                                            (39HMos)

For scheduled appointments
with specialists, usually         81%         13%      35%         100%              75%         17%     28%      100%
waited leas than 13 days.       (45Hb’ios)                                         (39HMos)




                                                          A -1
                                             HMOS by Enrollees                       HMOS by Dkenrollees
                                                                        —— ,.
BenefkiaryResponsesto Key          MeaIsof     S. D.   Lowest    I@bt      M-     of    S. D.   Lowest     f@best
Survey @tiOSIS by Category        Au EMos              HMO        HMO     All llwfos            HMo         HMO

When very sick, <ss     able to
get a doctor’s appointment          93%         9%     67%       100%       89%         12%     56%        100%
within 1 to 2 days.               (45HMO,)                               (3$mos)
                                                                        —-.
Usually Wilited less than 1
hour in the office to see           95%         6%     75%       100%      87%          12%     48%        100%
primary HMO doctor.               (45HMos)                               (38Imfos)

Consistently busy telephone
lines dld g@ hinder bene’s          90%        11%     56%       100%      89%          13%     52%        100%
making appointments.              (45HMos)                               (36 HMos)

SERVICES

Primary HMO doctor never
failed to provide needed            96%        3%      89%       100%      88%           9%     65%        100%
Medicare services.                (45Hb’los)                             (40HMos)

Primary HMO doctor never
failed to refer to a specialist     96%        4%      81%       100%      88%          10%     62%        100%
when needed.                      (45HMos)                               (40HMos)

Didn’t feel the need to seek
out-of-plan care, excluding
dental, routine eye, and            93%        4%      83%       100%      86%           9%     64%        100%
emergentfurgent care.             (45HMO,)                               (40HMO,)

Medical care received
through the HMO caused
beneficiaries’ health to:

   b     improve                    53%    10%         35%       78%       41%      18%          8%        100%
                                  (45HMos)                               (41Hbfos)
  b      stay about the same        45%    10%         22%       63?4      49%      16%          O%        72%
                                  (45HMos)                               (41Hh’los)
  b      worsen                                                            10%      11%          o%        40%
                                                                         (40HMos)



Primary HMO doctor never
failed to take beneficiary’s        88%        6%      75%       97%       76%          12%     41%        100%
health complaints seriously.      (45HMos)                               (41Hh’los)

Most important to primary
HMO doctor was:

  k      giving the best            86%        6%      69%       96%       72%          17%     33%        100%
         medical care possible    (45 HMOE)                              (40 HMos)

  F      holding down the            9%        5%      0%        22%       26%          17%      o%        67%
         cost of care             (45HMos)                               (40HMos)



                                                          A -2
                                          HMOS by Enrollees                     HMOS by DKenrollees
Renefkii Reaponsea
                 to Key        Meanof       S. D.   LOweat    Eigbeat    ~eao of     S. D.   Lowest   Highest
SurveyQoeatioIIs
              byCategory       AuHMos               HMO       HMo —.    Anmos                HMO      HMO
                                                                        —..
Most important t; the HMO
was:

  b    giving the best           74%    10%         52%       89%         58%        18%     25%      100%
       medical care possible   (45HMO,)                                 (40m.los)

  b    holding down the          15%         8%      3%       35%         36%        18%      O%      75%
       cost of care            (45HMo,)                                 {40 m’los)




                                                      A -3

                              APPENDIX                  B
BENEFICIARY COMMENTS

Many beneficiaries wrote comments      about problems they perceival with their HMOS.
They wrote words of praise less Often. We make no inference about this difference; we
merely note it. We have tried to select a representative mixture Of comments that
illustrate what beneficiaries thought and felt about their IIMO txqmriences.



Overall   Comments

“The whole time I was in the HMO, I couldn’t have asked for better service than I got
from the HMO. But when the rates went up, I just didn’t have the money to stay in or I
would have still been in the HMO. ”

“Using only HMO doctors and hospitals is very inconvenient for me. The closest doctor
is 38 miles from my home. ”

“The doctor I had and trusted does not take HMO patients. I am happy with the HMO
primary care doctor, but my main worry is what to do if we need emergency care which
might lead to long-term care. I am 86 years old. ”

“Though I have no complaints about care I have received so far through my HMO, I
prefer the family doctor medical scene to today’s highly specialized ‘Big Dollar’
machines. However, financially this is no longer an option. ”

“I don’t see how the government can think HMOS are the answer to good medical care.
The doctor could care less about the person on these plans. If you are well and do not
need a doctor, this would be okay. ”

“This program is very successful, and if the government would put every citizen in this
program, it would save millions and millions because the doctors and hospitals would have
to conform or go into another profession. ”

“The problem I have is paying for all the p~scription medicine I’m taking because of the
extremely high prices. Which makes it impossible for the elderly to have any kind of
health insurance. Why pay for insurance if one can’t afford the cure?”

“... you receive more value for the money you spend for services. I like their emphasis on
preventive medicine. The only negative I’ve seen.. .is that it’s a rather complex/diverse
organization that tends to be impersonal and requires the patient to show more initiative in
getting and keeping track of treatment, ”




                                           B-1
Understa   ndinz   of HMOs

“The representative I talked with said my HMO doctor could refer me to the doctor I had
before even if they were not a member, but he didn’t and wouldn't. ”

“My prescriptions per year [were] over $1000. My HMO promised $5 per prescription,
but did not explain the limitations were a $100 per month, two prescriptions, then I paid if
~ couldn’t] take generic drugs. ”

“There were too many don’ts in coverage. I did not know the restrictions when I fwst
signed up. ”

“MI health maintenance plans are so complicated for elderly people. Don’t cover us up
with manuals, rules and paperwork. Just keep it simple. ”

“FHP had employees who misrepresented their plan. When I discovered this, I was left
with bills from specialists who were not on their list of providers. I have turned this
matter over to family members because the entire situation is overwhelming. ”

“I am enclosing the statement from Good Samaritan Hospital. The total bill was
$6,521.55.  Kaiser paid $2,382.75. They told me that is what Medicare would pay. I
owe $4,138.80. I am going to appeal. ”

“Your survey should have addressed the patient education clients receive who belong to
HMOS and how the services decline as you get older and need more, as well as what
clients really know about the appeal process. ”


Amxdntments

“D am] rushed in and out too fast. ~ spend a lot more time in the waiting room. ”

“I’ve only had my physical exam, but there’s always a doctor at the offke center and I
can walk in anytime and see a doctor. I can also call the offke center and they will
provide transportation to and fmm the ofilce center. ”

“The average time [to wait for appointments] was one appointment approximately every 3
months, and there were times I needed it more in my estimation. ”

“You have to listen to about 15 minutes [ofJ damn commercials when calling for
appointments. ”

“We left the HMO because we had to make appointments a month ahead of time at the
beginning of the month. If we forgot to call at the beginning of the month. we were told
to call back the fwst of the next month. ”



                                           B-2

 “The medical care was lousy. I felt like a piece of meat ‘being slmffled from one doctor
to the next and not one of them ever na.lly cad about my health, only how much money
they could milk out of the Medic-am system. ”

“HMOS have no interest in one’s health. I don’t mean the doctors or staff. It’s the ones
making the- rules, such as medicine formularies. ”

“.. .The HMO which I was formerly covered by and the present one honestly try to give
the best cam possible and still try to keep the cost down. I appreciate this. I do not
believe in running to the doctor unless I feel it is necessary. ”

“Their main objective is to hold down costs . . ..When a Parkinson patient is refused a
specialist and a heart patient is refhsed an electmca.rdiogmm, the xeason is very clear. ”

“The primary HMO doctor tried to intimidate me by yelling at me.     He was ehher
overworked or felt tlueatened when I asked for reasons for certain medications. ”

“We have had little coqxxation from the ~0]       offke when we weded it. The offke
staff was uninformed, gave us incorrect information several times. Gave us a run-around
not to be believed when we badly needed their help . ...”

“.. male HMO primary physician [delivers] embarmssing services which should be
available for women by female HMO physician, e.g. Pap smears. ”




                                                                                —




                                      -—
                                            B-5

